APPENDIX TABLE OF CONTENTS
OPINION AND ORDER
Opinion of the United States Court of Appeals for
the Eleventh Circuit (August 18, 2020) ............. 1a
Omnibus Order of the United States District
Court for the Southern District of Florida
(June 11, 2018) ................................................. 23a
OTHER DOCUMENTS
Sparta Insurance Policy— Relevant Excerpts ...... 49a
Common Policy Declarations ........................... 50a
Schedule of Forms and Endorsements ............ 52a
Schedule of Locations ....................................... 56a
Common Policy Conditions .............................. 57a
Notice to Policyholders Risk Management
Plan Florida ...................................................... 60a
Commercial Property Coverage Part
Supplemental Declarations ............................. 61a
Commercial Property Coverage Part
Extension of Supplemental Declarations ........ 63a
Building and Personal Property Coverage
Form .................................................................. 65a
Business Income (and Extra Expense)
Coverage Form ............................................... 108a
Exclusion of Loss Due to Virus or Bacteria ... 135a
Causes of Loss – Special Form....................... 137a
Water Exclusion Endorsement ...................... 165a

APPENDIX TABLE OF CONTENTS (Cont.)
Windstorm or Hail Exclusion......................... 167a
Loss Payable Provisions ................................. 169a
Business Income Changes-Time Period ........ 174a
Florida Changes ............................................. 178a
Commercial General Liabiality Coverage
Part Supplemental Declarations ................... 186a
Commercial General Liabiality
Coverage Schedule ......................................... 189a
Liquor Liability Coverage Part Declarations 191a
Total Pollution Exclusion Endorsement ........ 193a
Fungi or Bacteria Exclusion .......................... 194a
Silica or Silica-Related Dust Exclusion ......... 197a
Exclusion–Asbestos Advisory Notice to
Policyholders................................................... 199a
Exclusion–Lead Advisory Notice to
Policyholders................................................... 200a
Florida Changes–
Cancellation and Nonrenewal........................ 201a
Products/Completed Operations Hazard
Redefined ........................................................ 205a
Asbestos Exclusion ......................................... 207a
Lead Exclusion ............................................... 210a

App.1a
OPINION OF THE UNITED STATES COURT OF
APPEALS FOR THE ELEVENTH CIRCUIT
(AUGUST 18, 2020)
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
MAMA JO’S INC., D/B/A BERRIES,

Plaintiff-Appellant,
v.
SPARTA INSURANCE COMPANY,

Defendant-Appellee.

________________________
No. 18-12887

D.C. Docket No. 1:17-cv-23362-KMM
Appeal from the United States District Court
for the Southern District of Florida
Before: NEWSOM, TJOFLAT, Circuit Judges,
and PROCTOR, District Judge.
PROCTOR, District Judge:
In this insurance coverage case, we are called upon
to assess whether the district court properly excluded
the opinions of Plaintiff’s experts and granted
Defendant’s motion for summary judgment based
 Honorable R. David Proctor, United States District Judge for
the Northern District of Alabama, sitting by designation.

App.2a
upon the conclusion that Plaintiff failed to establish
that it suffered a direct physical loss that would trigger
coverage. We conclude the district court correctly
ruled on both questions. Therefore, for the reasons
more fully discussed below, we affirm.
I.

Background

Appellant Mama Jo’s Inc. d/b/a Berries (“Berries”)
owns and operates a restaurant located at 2884 SW
27th Avenue, Miami, FL 33133. (Doc. 107-1 at 8-9).
The restaurant is located less than one mile from the
ocean (Doc. 111-5 at 4; Doc. 111-6 at 57-58, 104), and
is partially enclosed by a retractable awning, wall,
and roof system. (Doc. 109-4 at 4, 31; Doc. 109-5 at
66-68, 75-81; Doc. 110-8 at 104). When the system is
opened, the restaurant’s interior areas are exposed to
the elements. (Id.). The restaurant’s front entrance, bar,
and seating areas are adjacent to SW 27th Avenue.
(Doc. 107-1 at 95-97; Doc. 109-5 at 51-54, 66-71, 80;
Doc. 116-8 at 4-5).
A. The Road Construction
From December 2013 until June 2015, there was
roadway construction at different locations along SW
27th Avenue in the general vicinity of the restaurant.
(Doc. 102 at 2; Doc. 107-1 at 58-60; Doc. 116-5 at 11).
During that time, dust and debris generated by the
construction migrated into the restaurant. (Doc. 116 at
3-5; Doc. 110-3 at 51-55; Doc. 110-8 at 54; Doc. 116-8
at 3-7; Doc. 116-9 at 3-15, 19-29). Berries performed
daily cleaning using its normal cleaning methods,
employing dust pans, hoses, rags, towels, and blowers.
(Id.).

App.3a
Berries was open every day throughout the time
period of the roadwork. (Doc. 116 at 3-5; Doc. 110-8
at 56-57, 95-97; Doc. 116-8 at 7-10; Doc. 116-9 at 25).
Although the restaurant maintained the ability to
serve the same number of customers as it had before
the construction began, customer traffic decreased
during the roadwork. (Doc. 116 at 3-5; Doc. 107-1 at
73-74; Doc. 110-8 at 56-57; Doc. 116-8 at 9-12; Doc.
116-9 at 24-27).
B. The Insurance Policy
From September 19, 2013 to September 19, 2014,
Berries was insured by Appellee, Sparta Insurance
Company (“Sparta”). (Doc. 110-1 at 5, 31-54). Sparta
issued an “all risk” commercial property insurance
policy, which included, in relevant part, a Building
and Personal Property Coverage Form and a Business Income (and Extra Expense) Coverage Form.
(Doc. 110-1 at 31-54).
The Building and Personal Property Coverage
Form contained in the policy covers “direct physical
loss of or damage to Covered Property . . . caused by
or resulting from any Covered Cause of Loss.” (Id. at
31). The policy defines “Covered Causes of Loss” as
“Risks of Direct Physical Loss unless the loss is” excluded or limited. (Id. at 33, 63).
The policy’s Business Income (and Extra Expense)
Coverage Form provides that Sparta will pay for “the
actual loss of Business Income you sustain due to the
necessary ‘suspension’ of your ‘operations’ during the
‘period of restoration.’” (Id. at 46). The policy provides
that the “‘suspension’ must be caused by direct physical
loss of or damage to” covered property. (Id.).

App.4a
C. The Initial Insurance Claim
On December 12, 2014, Berries submitted a claim
to Sparta under the policy. (Doc. 143 at 4). Berries
asserted that the claim was related to dust and
debris generated by the roadway construction. (Id.).
Sparta assigned Corey Buford, an insurance adjuster,
to review the claim on behalf of Sparta. (Doc. 116-10
at 5). Berries hired a public adjuster, Robert Inguanzo
of Epic Group Public Adjusters, to assist with its
claim. (Doc. 110 at 3).
In December 2014 and January 2015, Buford
requested information about the claim from Berries.
(Doc. 116-10 at 6-8, 17-19). In January 2015, Inguanzo
responded to these requests and informed Buford
that the claimed loss “occurred as early as December
of 2013 in the form of construction debris and dust
from the [roadwork]” and that, “the construction related
debris and dust . . . caused damage to the insured’s
building. The scope of loss includes but is not limited
to, cleaning of the floors, walls, tables, chairs and
countertops.” (Id. at 17).
In March 2015, Inguanzo provided Berries with
an estimate in the amount of $16,275.58 to clean and
paint the restaurant. (Doc. 110-10 at 1-10; Doc. 116-11
at 11-15, 23-25; Doc. 116-12 at 5-6). Inguanzo testified
that, “based on our inspection back then” the estimate
encompassed “the work that we felt was necessary to
bring the property to its pre-loss condition includ[ing]
the cleaning and painting,” and that, “[a]t that time,
we didn’t have anything for removal or replacement.
. . . ” (Doc. 116-11 at 14-15).
In April 2015, Inguanzo sent Buford a “Sworn
Statement in Proof of Loss” for the building claim,

App.5a
including a preliminary damage estimate in the
amount of $13,775.58. (Doc. 116-10 at 21). This amount
was calculated based on the amount of the estimate–
$16,235.58–minus a deductible. (Id.). Inguanzo also
sent Buford a “Sworn Statement in Proof of Loss”
and supporting documentation regarding a business
income claim in the amount of $292,550.84. (Id.).
Berries contended that its 2014 sales were lower
than expected when compared to its rate of sales
growth in previous years. (Doc. 109-2).
On January 30, 2017, Sparta denied the claim
because it was “not covered under the [] policy.” (Doc.
110-13). As Sparta explained: “[w]ith regard to Building
coverage, . . . the Proof of Loss Form does not reflect
the existence of any physical damage. It is also questionable whether a direct physical loss occurred.”
(Doc. 110-13 at 5). Sparta also stated that:
Under the Business Income Coverage Form,
coverage is provided for the actual loss of
business income the insured sustains due to
the necessary “suspension” of “operations”
during the “period of restoration.” The “suspension” must be caused by direct physical
loss of or damage to property at the premises. . . .
(Doc. 110-13 at 6) (emphasis in original).

App.6a
D. The Litigation and Presentation of a New
Claim for Damages
Berries initiated this action in Florida state court
in May 2017. (Doc. 1-2). Sparta removed the action to
the United States District Court for the Southern
District of Florida based on diversity jurisdiction.
(Doc. 1). In its initial disclosures in the lawsuit,
Berries claimed the same damages it had before the
suit was filed: $16,275.58 for cleaning and painting
the restaurant, and $292,550.84 for lower-thanexpected sales in 2014. (Doc. 20 at 4).
On February 26, 2018, Berries also served
amended answers to interrogatories. (Doc. 116-5 at 8).
In those responses, it identified for the first time new
categories of damages totaling $319,688.57. (Id.).
Berries contended that the newly claimed damages
were due to replacement of the restaurant’s awning
and retractable roof systems, HVAC repairs, and
replacement of the restaurant’s audio and lighting
systems. (Id. at 8-9).
1. Berries’ Experts
Berries relied on three experts to causally link
its newly-claimed damages to the construction dust
and debris generated more than two and a half years
earlier, i.e., during Sparta’s policy period ending on
September 19, 2014. First, Alex Posada offered opinion
testimony about Berries’ audio and lighting systems.
Second, Christopher Thompson opined about the
awning and retractable roof systems. Third, Alfredo
Brizuela proffered his opinion about “engineering”
and “the cause and origin of the loss.” (Doc. 105-1 at
5-6; Doc. 113 at 2-4).

App.7a
a. Alex Posada
Posada’s firm, United Audio, had “been in the
audio and special lighting industry for over 15 years
providing integrated audio, video, lighting & control
solutions. . . . ” (Doc. 109-1 at 2). Posada’s proposed
methodology included performing a “QC diagnostic”
which would have involved, among other things,
“[d]ismantl[ing] all Audio & Lighting Equipment,
. . . [t]est[ing] all existing wiring and terminations[,]
[d]isassembl[ing] each and every speaker and
lighting fixture[], [t]est[ing] all audio devices[, and]
[e]xamin[ing] all components in every lighting fixture.”
(Id. at 2-3; Doc. 108-1 at 51-53). However, Posada did
not perform the QC diagnostic. (Doc. 108-1 at 53).
Rather, in February 2018, he performed a two-hour
site inspection and concluded that “it [wa]s more cost
effective to replace the system.” (Id. at 24-34).
At Posada’s deposition, the following exchange
occurred:
Q:

So is it fair to say if you want to find out a
specific reason why a speaker or light is not
working, you have to run this diagnostic? [ ]

A:

It’s an option.

Q:

What other options are there?

A:

There are no other options . . . it[’]s either this
or replace it which, I mean—as of looking at
it, I can already tell you it’s not going to be
worth doing this.

Q:

If you want to find out the specific reason why
a subwoofer or speaker or light is not
working, do you need to perform the diagnostic?

App.8a
A:

It’s an option. Yeah

Q:

But are there any other options?

A:

No, there is no other option.

Q:

That’s the only option?

A:

That is correct.

(Doc. 108-1 at 55-56). Posada’s inspection consisted
of visually observing some of the system’s audio and
lighting components, and listening to some of its
audio components. (Doc. 109 at 3; Doc. 108-1 at 51-53).
Posada did not inspect all of the restaurant’s
speakers and components because some were out of
reach and, during his inspection, there were patrons
in the restaurant whom he did not wish to disturb.
(Doc. 108-1 at 24-25, 31-39). He only walked around the
perimeter of the restaurant. (Id. at 34). Posada testified
that the speakers outside the restaurant’s entrance
were “probably” damaged, and although he did not
inspect the subwoofers, he assumed that they were not
working. ( Id . at 43, 68-69). Posada nevertheless
testified that all of Berries’ audio systems were
damaged by construction dust and debris, to the exclusion of all other causes, because they produced sounds
that were “tedious,” “distorted,” and “hard to explain
in words.” (Id. at 88, 93-94).
Posada’s inspection of Berries’ lighting system
involved observing components from ground level,
about 15 feet below the fixtures. (Id. at 45). Posada
testified that the lights did not turn on at all and
were “full of dust.” (Id. at 33, 44-45). Although he
opined that the light fixtures’ motherboards were
damaged, Posada conceded that he could not see
those components, and did not inspect them. (Id. at

App.9a
87-88, 97-98). He did not know the age of the lighting
fixtures, or when they stopped working. (Id. at 76, 87).
b. Christopher Thompson
Thompson is employed by Awnings of Hollywood,
the company that originally installed the awnings
and retractable roof “several” (i.e., “more than three
[-] four”) years before his inspection. (Doc. 108-3 at
17-18, 32-33). Thompson’s inspection of the restaurant’s
awnings and retractable roof consisted of a visual
inspection from the ground floor, and lasted approximately one hour. (Doc. 108-3 at 29, 34, 83). His inspection took place more than two years after the roadwork ended. (Id. at 26-29, 34-37). He did not take
notes. (Id. at 34). Based on his one-hour inspection,
Thompson concluded that the awnings and retractable
roof systems were damaged beyond repair by sediment that he “assumed” was construction dust. (Id. at
46, 54; Doc. 109-3 at 1). Thompson took no samples
of the sediment, and did no testing to determine its
origin. (Doc. 108-3 at 45-46). Thompson had eaten at
the restaurant during the road construction. (Doc.
108-3 at 46).
Thompson did not test the retractable roof system
because he observed that the drive belt was broken.
(Doc. 108-3 at 69). But, the belt was the only thing
Thompson observed that was broken. (Id. at 69-70).
In his report, Thompson noted that the system had
to be replaced, rather than repaired, because the
components were no longer available in the United
States. (Doc. 109-3 at 1; Doc. 108-3 at 69). When asked
why the drive belt snapped, Thompson testified: “I
could not tell you. I have an opinion, but I couldn’t
tell you seriously.” (Doc. 108-3 at 71).

App.10a
c. Alfredo Brizuela
Brizuela has a degree in architecture and structural engineering, and is a Florida licensed civil and
structural engineer. (Doc. 108-5 at 26-27). His inspection of the restaurant consisted of a one-hour visual
inspection conducted in December 2017 and a review
of photographs taken in 2014 and 2015. (Doc. 108-5
at 42, 76-77). He also ran his “fingers across” dust
(which he believed was construction dust), although
it had been over two years since the construction had
been completed. (Doc. 108-5 at 45, 57-59, 115, 154).
Based on this inspection, he offered the following
opinion:
[I]t is evident that the source of the damage
was from the nearby roadway construction
on 27th [A]venue in front of the property.
Simply stated, the migration of the dust
and its resulting paste was a sudden and
accidental occurrence that damaged the
equipment, awning, windows, railings, and
stucco.
(Doc. 109-5 at 7). Brizuela’s report explains how construction dust combined with water can be corrosive.
(Doc. 108-5 at 117). But, on the question of the source
of the corrosive material in this case, Brizuela acknowledged that his “testing was strictly [his] observation
through [his] inspection and [his] review of the photographs.” (Doc. 108-5 at 116). That is, Brizuela did
nothing other than touch the dust and look at pictures before opining as to its origin. (Id.). His opinion,
like Thompson’s, was based on his assumption that
the construction dust was the source of the corrosive
material. (Id.).

App.11a
2. The District Court’s Decision Ruling on
the Motions in Limine Regarding Berries’
Experts
In April 2018, Sparta filed a motion to preclude
the testimony of Plaintiff’s expert witnesses: Posada,
Thompson, and Brizuela. (Doc. 105). That same day,
the parties filed Cross Motions for Summary Judgment.
(Docs. 106, 110). After briefing, the district court
entered an omnibus order granting Sparta’s Daubert
and summary judgment motions. (Doc. 146). The district court found that, although Berries’ causation experts were minimally qualified to render their opinions,
their methodologies on the issue of causation were
unreliable or nonexistent, and their testimony was
speculative. (Id. at 5-15). The district court further
concluded that, without expert testimony, Berries could
not prove that construction dust and debris generated
in 2014 caused the “new” damages (first claimed in
2018) to Berries’ awnings, retractable roof, HVAC
system, railings, and audio and lighting system. (Id.
at 15-17).
The district court determined that Berries’ initial
claim for cleaning was not covered because property
that must be cleaned, but is not damaged, has not
sustained a “direct physical loss.” (Id. at 17-19). The
district court also concluded that direct physical loss
refers to tangible damage to property, which causes
it to become unsatisfactory for future use or requires
repairs. (Id. at 17-19). Finally, the district court decided
that Berries’ claim for lower-than-expected sales in
2014 was not covered because Berries could not
establish that it suffered a “necessary ‘suspension’”
of its “operations” as the result of a “direct physical
loss.” (Id. at 19-20). Because of its determinations,

App.12a
the district court declined to address any of the
parties’ arguments related to the policy’s exclusions
or limitations. (Id. at 16, n. 14).
This appeal followed.
II.

Standard of Review

We review a district court’s order granting summary judgment de novo, “considering all of the evidence
in the light most favorable to the nonmoving party.”
Nesbitt v. Candler County, 945 F.3d 1355, 1357
(11th Cir. 2020). “Summary judgment is proper ‘if
the movant shows that there is no genuine dispute as
to any material fact and the movant is entitled to
judgment as a matter of law.’” Id. (quoting Fed. R. Civ.
P. 56(a)).
“We review for abuse of discretion a district court’s
evidentiary ruling under Daubert v. Merrell Dow
Pharmaceuticals, Inc., 509 U.S. 579 (1993).” Adams
v. Lab. Corp. of Am., 760 F.3d 1322, 1327 (11th Cir.
2014) (parallel citations omitted). “‘A district court
abuses its discretion if it applies an incorrect legal
standard, follows improper procedures in making the
determination, or makes findings of fact that are
clearly erroneous.’” United States v. Alabama Power
Co., 730 F.3d 1278, 1282 (11th Cir. 2013) (quoting
Chicago Tribune Co. v. Bridgestone/Firestone, Inc.,
263 F.3d 1304, 1309 (11th Cir. 2001)). The deference
we show on evidentiary rulings includes giving the
court “considerable leeway in deciding in a particular
case how to go about determining whether particular
expert testimony is reliable.” Kumho Tire Co., Ltd. v.
Carmichael, 526 U.S. 137, 152 (1999). Even where a
district court’s ruling excluding expert testimony is
“outcome determinative” and the basis for a grant of

App.13a
summary judgment, our review is not more searching
than it would otherwise be. Gen. Elec. Co. v. Joiner,
522 U.S. 136, 142-43 (1997).
III. Analysis
Berries argues that the district court erred in
three ways: first, by concluding that “direct physical
loss” does not include cleaning, but rather requires a
showing that the property be rendered uninhabitable
or unusable; second, by requiring Berries to show that
a suspension of operations was the result of physical
damage in order to establish business income coverage;
and third, in striking Berries’ causation experts. We
begin by addressing the exclusion of Berries’ experts
and then turn to the other two issues.
A. Exclusion of the Experts
In Daubert, the Supreme Court explained that
trial courts must act as “gatekeepers” and are tasked
with screening out “speculative, unreliable expert
testimony.” Kilpatrick v. Breg, Inc., 613 F.3d 1329,
1335 (11th Cir. 2010) (citing Daubert, 509 U.S. at
597). In that important role, trial courts may consider
a non-exhaustive list of factors including: (1) whether
the expert’s theory can be and has been tested; (2)
whether the theory has been subjected to peer review
and publication; (3) the known or potential error rate
of the technique; and (4) whether the technique is
generally accepted in the scientific community. Kilpatrick, 613 F.3d at 1335. Later, in Kumho Tire, the
Court explained that the gatekeeping function governs
all expert testimony, including “scientific, technical,
or other specialized knowledge,” not just singularly
scientific testimony. 526 U.S. at 147-49. The factors

App.14a
identified in Daubert “do not constitute a definitive
checklist or test.” Kumho, 526 U.S. at 150 (internal
quotation marks omitted). Admittedly, they are
designed to guide a district court’s assessment of the
reliability of scientific or experience-based expert
testimony. Id. But, the district court’s “gatekeeping
inquiry must be tied to the facts of a particular case.”
Id. (internal quotation marks omitted). The goal of
gatekeeping is to ensure that an expert “employs in
the courtroom the same level of intellectual rigor
that characterizes the practice of an expert in the
relevant field.” Id. at 152.
Federal Rule of Evidence 702 provides:
A witness who is qualified as an expert by
knowledge, skill, experience, training, or
education may testify in the form of an
opinion or otherwise if:
(a) the expert’s scientific, technical, or other
specialized knowledge will help the trier of
fact to understand the evidence or to determine a fact in issue;
(b) the testimony is based on sufficient facts or
data;
(c) the testimony is the product of reliable
principles and methods; and
(d) the expert has reliably applied the principles
and methods to the facts of the case.
F.R.E. 702. “We have distilled from Daubert, Kumho,
and Rule 702 these three requirements: First, ‘the
expert must be qualified to testify competently
regarding the matter he or she intends to address’;
second, the expert’s ‘methodology . . . must be reliable

App.15a
as determined by a Daubert inquiry’; and third, the
expert’s ‘testimony must assist the trier of fact
through the application of expertise to understand the
evidence or determine a fact in issue.’” Kilpatrick,
613 F.3d at 1335.
To be sure, experience, standing alone, is not a
“sufficient foundation rendering reliable any conceivable
opinion the expert may express.” U.S. v. Frazier, 387
F.3d 1244, 1261 (11th Cir. 2004). Even experienced
experts “must explain how that experience leads to
the conclusion reached, why that experience is a
sufficient basis for the opinion, and how that experience
is reliably applied to the facts.” Id. at 1261 (quoting
Fed. R. Evid. 702 advisory committee note (2000
amends.)). “[N]othing in either Daubert or the Federal
Rules of Evidence requires a district court to admit
opinion evidence that is connected to existing data
only by the ipse dixit of the expert.” Joiner, 522 U.S. at
146.
1. Alex Posada
The district court found that Posada, the audio and
lighting expert, was qualified, but concluded that his
methodology was unreliable. (Doc. 146 at 7, 10). We
agree. Berries failed to establish that Posada’s methodology was reliable.
Posada listened to the audio system and looked at
the lighting system in 2018. From this brief inspection, he opined that any damage was caused by construction dust and debris from 2014. Posada identified
what he thought to be the only diagnostic test to
determine the reason why a speaker or light would
not work, but he did not perform that test because “it
[wa]s more cost effective to replace the system.” (Doc.

App.16a
108-1 at 24-34, 55-56). Posada performed no testing
that would permit him to conclusively determine that
the dust he observed in 2018 came from much earlier
road construction. To the extent it can be said that
Posada even identified a methodology for reaching
his conclusions, he provided no testimony (or anything else) from which the district court could have
concluded that his methodology was in any way
reliable. See Kilpatrick, 613 F.3d at 1335 (the expert’s “methodology . . . must be reliable”). Nothing
about Posada’s methodology is capable of being tested
or being subjected to peer review, and Berries presented no evidence indicating that Posada’s technique
is generally accepted in the scientific community.
Kilpatrick, 613 F.3d at 1335.
Under Daubert, a “district judge asked to admit
scientific evidence must determine whether the evidence is genuinely scientific, as distinct from being
unscientific speculation.” Chapman, 766 F.3d at 1306.
Here, the district court did not abuse its discretion in
determining that Posada’s testimony provided nothing
more than speculation about the cause of the damage
to the audio and lighting systems.
2. Christopher Thompson
The district court found that Thompson was at
least minimally qualified as an expert based on his
years of experience, but concluded that “Thompson’s
testimony is nothing more than unexplained assurances
and unsupported speculation.” (Doc. 146 at 12). Again,
we agree. Berries did not establish that Thompson’s
opinions are reliable.
Like Posada, Thompson merely visually inspected
the awnings and retractable roof, and did not do so

App.17a
until more than two years after the road construction.
(Doc. 108-3 at 26-29, 34-37). Thompson observed a
broken drive belt on the retractable roof, but candidly
admitted he could not say what caused it to break.
(Doc. 108-3 at 71). Although Thompson did not test
the retractable roof system, he determined that it
had to be replaced. (Doc. 109-3 at 1). This conclusion
was based on Thompson’s knowledge that parts for
this system could no longer be obtained in the United
States. (Id.). And, although Thompson performed no
testing on the sediment on the awnings and retractable
roof two years after the construction ended, he nonetheless opined that it came from that construction. (Id.;
108-3 at 27, 44-45).
Again, to the extent that Thompson even employed
a methodology, there was nothing against which that
methodology could be compared to determine whether
it was reliable or even scientific in nature. See Chapman, 766 F.3d at 1306 (recognizing the court must
ensure the “evidence is genuinely scientific, as distinct from being unscientific speculation.”). Therefore, the district court did not abuse its discretion in
excluding Thompson’s testimony as unreliable.
3. Alfredo Brizuela
Berries offered Brizuela as a cause and origin
expert. He opined as to the source or origin of the
damage to the restaurant. Brizuela opined that “[i]t
is evident that the source of the damage was from
the nearby roadway construction on 27th [A]venue in
front of the property.” (Doc. 109-5 at 7). In reaching
this conclusion, he conducted a visual inspection of
the restaurant, again over two years after the road
construction ended. He conducted no sampling or

App.18a
testing of the dust and sediment he found at that
time. His “methodology” was simply observation and
a review of photographs. (Doc. 108-5 at 116).
Brizuela gave a scientific explanation about the
general issue of how dust and debris can damage
property. But, even if one accepted the general
proposition that construction dust and debris can
damage or corrode property, Brizuela did not actually
attribute any damage to the restaurant as a result of
that circumstance. (Doc. 146 at 12-15). His “methodology” in this respect consisted of an assumption.
Therefore, we conclude that the district court did not
abuse its discretion in excluding Brizuela’s proposed
testimony as unreliable under Daubert.
Here, given its considerable leeway in assessing
expert testimony, the district court did not err in concluding that Berries failed to establish that its experts’
methodologies have been (or, for that matter, can be)
tested. Berries also failed to show that its experts’
methodologies have been subjected to peer review and
publication. Berries also failed to address the known
or potential error rates of its experts’ techniques. And,
Berries failed to establish that its experts’ techniques
are generally accepted in the scientific community.
Simply stated, Berries did not satisfy any of the
factors which indicate a reliable and admissible expert
opinion. Accordingly, the district court did not abuse
its discretion in excluding the experts. See Kilpatrick,
613 F.3d at 1335.
The district court correctly excluded the expert
opinions proffered by Berries and this inexorably led
to the swing of the summary judgment axe. “[A]n
insured claiming under an all-risks policy has the
burden of proving that the insured property suffered a

App.19a
loss while the policy was in effect.” Jones v. Federated
Nat’l Ins. Co., 235 So. 3d 936, 941 (Fla. 4th DCA
2018) (citation omitted). Berries relied on the expert
reports of Brizuela, Thompson, and Posada to prove
that the “new” damages to Berries’ awnings, retractable roof, and audio and lighting system, first claimed
in 2018, were caused by construction dust and debris
from 2014. That is, it was necessary for Berries to tie
the damages it claimed in 2018 to construction
occurring during the much earlier policy period, ending
on September 19, 2014. Without the properly excluded experts’ testimony, the district court properly
granted Sparta summary judgment on Berries’ newly
claimed damages.
B. Berries Failed to Show Any “Direct Physical
Loss or Damage”
Under Florida law, the interpretation of an
insurance contract, including resolution of any ambiguities contained therein, is a question of law to be
decided by the court. Dahl–Eimers v. Mutual of
Omaha Life Ins. Co., 986 F.2d 1379, 1381 (11th Cir.
1993) (citing Sproles v. Amer. States Ins. Co., 578 So.
2d 482, 484 (Fla. 5th DCA 1991)). In construing an
insurance contract, a court must strive to give every
provision meaning and effect. Auto-Owners Ins. Co.
v. Anderson, 756 So. 2d 29, 34 (Fla. 2000); Excelsior
Ins. Com. v. Pomona Park Bar & Package Store, 369
So. 2d 938, 941 (Fla. 1979). A party claiming coverage
(here, Berries) generally bears the burden of proof to
establish that coverage exists. U.S. Liab. Ins. Co. v.
Bove, 347 So. 2d 678, 680 (Fla. 3rd DCA. 1977). The
policy at issue is an “all risks” policy. However, as the
Florida Supreme Court has noted, “an ‘all-risk’ policy
is not an ‘all loss’ policy, and thus does not extend

App.20a
coverage for every conceivable loss.” Sebo v. Am. Home
Assurance Co., 208 So. 3d 694, 696-97 (Fla. 2016)
(citation omitted).
Berries’ initial claim had two components: one
for cleaning the restaurant, and another for Business
Income Loss. (Doc. 110-10). The insuring agreement
in the policy’s Building and Personal Property Coverage
Form states that Sparta “will pay for direct physical
loss of or damage to Covered Property . . . caused by
or resulting from any Covered Cause of Loss.” (Doc.
110-1 at 31). The policy’s Business Income Coverage
Form provides that Sparta will pay for “the actual
loss of Business Income you sustain due to the
necessary ‘suspension’ of your ‘operations’ during the
‘period of restoration.’” (Id. at 46). The “‘suspension’
must be caused by direct physical loss of or damage
to” covered property. (Id.).
Florida’s District Court of Appeals for the Third
District has addressed the definition of “direct physical
loss”: “A ‘loss’ is the diminution of value of something
[]. Loss, Black’s Law Dictionary (10th ed. 2014).
‘Direct’ and ‘physical’ modify loss and impose the
requirement that the damage be actual.” Homeowners
Choice Prop. & Cas. v. Maspons, 211 So. 3d 1067,
1069 (Fla. 3d DCA 2017); see also Vazquez v. Citizens
Prop. Ins. Corp., 2020 WL 1950831, at *3 (Fla. 3d
DCA 2020).
With regard to the cleaning claim, Berries’s public
adjuster, Inguanzo, testified that “cleaning and painting” was all that was required. (Doc. 76-1 at 35-36).
He also testified that there was no need for removal
or replacement of items at that time. (Id. at 36).
Based on this testimony, the district court held that
Berries had failed to establish that it had suffered a

App.21a
“direct physical loss” as that term is defined under
Florida law. (Doc. 146 at 18-19). We conclude that
the district court correctly granted summary judgment on Berries’ cleaning claim because, under Florida
law, an item or structure that merely needs to be
cleaned has not suffered a “loss” which is both “direct”
and “physical.” See Maspons, 211 So. 3d at 1069
(recognizing that “damage [must] be actual”); Vazquez,
2020 WL 1950831, at *3 (same). See also Universal
Image Prods., Inc. v. Fed. Ins. Co., 475 F. App’x 569,
573 (6th Cir. 2012) (“[C[leaning . . . expenses . . . are not
tangible, physical losses, but economic losses.”); MRI

Healthcare Ctr. of Glendale, Inc. v. State Farm Gen.
Ins. Co., 187 Cal. App. 4th 766, 779, 115 Cal. Rptr. 3d
27, 37 (2010) (“A direct physical loss ‘contemplates an
actual change in insured property.”); AFLAC Inc. v.
Chubb & Sons, Inc. (2003) 260 Ga.App. 306, 581
S.E.2d 317, 319 (same).

As to the Business Income Loss claim, the Business
Income Coverage Form requires that a “suspension”
of operations “be caused by direct physical loss of or
damage to property.” (Doc. 110-1 at 46). Again, as discussed above, even if Berries had shown a “suspension”
of operations, Berries did not put forward any Rule 56
evidence that it suffered a direct physical loss of or
damage to its property during the policy period. Therefore, the district court’s entry of summary judgment
on Berries’ Business Income Loss claim was also
proper. Berries failed to show it suffered a “direct
physical loss.”

App.22a
C. Berries Did Not Establish That It Suffered a
Covered Suspension of Operations
The policy’s Business Income Coverage Form
provides that Sparta will pay for “the actual loss of
Business Income you sustain due to the necessary
‘suspension’ of your ‘operations’ during the ‘period of
restoration.’” (Id. at 46). Berries argues that the district court erred when it held that Berries did not
suffer a “suspension” of its operations, and when it
ignored evidence that Berries had been required to close
sections of the restaurant for cleaning. Conceivably,
a slowdown caused by closing parts of the restaurant for
cleaning could be attributed to a “period of restoration.” But, even if Berries is correct that the district
court got this part of the analysis wrong, Sparta was
still entitled to summary judgment on the Business
Income Claim because any “‘suspension’ must be
caused by direct physical loss of or damage to property.”
Berries failed to show it suffered a “direct physical
loss.” (Id.).
IV. Conclusion
For the foregoing reasons, the district court’s
grant of summary judgment in favor of Sparta is
AFFIRMED.

App.23a
OMNIBUS ORDER OF THE UNITED STATES
DISTRICT COURT FOR THE SOUTHERN
DISTRICT OF FLORIDA
(JUNE 11, 2018)
IN THE UNITED STATES DISTRICT COURT FOR
THE SOUTHERN DISTRICT OF FLORIDA
________________________
MAMA JO’S, INC. D/B/A BERRIES,

Plaintiff,
v.
SPARTA INSURANCE COMPANY,

Defendant.

________________________

Case No. 17-cv-23362-KMM
Before: K. Michael MOORE,
Chief United States District Judge.
This cause came before the Court upon crossmotions for summary judgment. Defendant Sparta
Insurance Company (“Defendant” or “Sparta”) filed a
Motion for Summary Judgment (“Def.’s Mot.”) (ECF
No. 106) and Plaintiff Mama Jo’s, Inc., d/b/a Berries
(“Plaintiff”) filed a Motion for Partial Summary
Judgment (“Pl.’s Mot.”) (ECF No. 110).1 Also before
1 The Parties filed their respective responses and replies. See
(“Pl.’s Resp.”) (ECF No. 119); (“Def.’s Reply”) (ECF No. 125);
(“Def.’s Resp.”) (ECF No. 117); (Pl.’s Reply”) (ECF No. 124).

App.24a
the Court are two Daubert Motions.2 The motions are
now ripe for review.
I.

Background3
A. Factual Background

This case arises from a dispute regarding
insurance coverage of Plaintiff’s property located at
2884 SW 27th Avenue, Miami, FL, 33133 (the “Restaurant”) under a commercial insurance policy issued by
Defendant. The Policy (ECF No. 110-1)
i. The Policy
The Policy was in effect from September 19, 2013
to September 19, 2014. Pl.’s 56.1, ¶¶ 1, 4; Def.’s Resp.
56.1, ¶ 21. Only certain provisions of the Policy at
are issue. The Policy covers “direct physical loss of or
damage to Covered Property at the premises described
in the Declarations caused by or resulting from any
Covered Cause of Loss.” The Policy at 31. “Covered
Causes of Loss” means “direct physical loss unless
2 Defendant moved to exclude Plaintiff’s expert witnesses (“Def.’s
Daubert Mot.”) (ECF No. 105) and Plaintiff moves to exclude
Defendant’s expert witnesses. (“Pl.’s Daubert Mot.”) (ECF No. 111).
The Parties filed their respective responses and replies. See
(“Pl.’s Daubert Resp.”) (ECF No. 118); (“Def.’s Daubert Reply”)
(ECF No. 122); (“Def.’s Daubert Resp.”) (ECF No. 115); (“Pl.’s
Daubert Reply”) (ECF No. 120).
3 The undisputed facts are taken from the Amended Complaint
(“Am. Compl.”) (ECF No. 102); Plaintiff’s Statement of Facts (“Pl.’s
56.1”) (ECF No. 110); Defendant’s Resp. 56.1 (“Def.’s Resp. 56.1”)
(ECF No. 116); Plaintiff’s Reply 56.1 (“Pl.’s Reply 56.1”) (ECF
No. 123); Defendant’s Statement of Facts (“Def.’s 56.1”) (ECF No.
106); Plaintiff’s Resp. 56.1 (“Pl.’s Resp. 56.1”) (ECF No. 119),
and a review of the corresponding record citations and exhibits.

App.25a
the loss is” excluded or limited. Id. at 68. There is
additional coverage “to remove debris of Covered
Property caused by or resulting from a Covered Cause
of Loss that occurs during the policy period.” Id. at
33.
Under the Business Income Loss (and Extra
Expense) Coverage Form, Defendant “will pay for the
actual loss of Business Income you sustain due to the
necessary ‘suspension’ of your ‘operations’ during the
‘period or restoration’. The ‘suspension’ must be caused
by direct physical loss of or damage to property.” Id.
at 46.
ii. The Claim and Sparta’s Response
From December 2013 through June 2015, construction roadwork was performed at SW 27th Avenue,
the street adjacent to the restaurant. Pl.’s 56.1, ¶ 5;
Def.’s Resp. 56.1, ¶ 22; Def.’s 56.1, ¶ 9. During this
time, Plaintiff continually cleaned the restaurant.
Pl.’s 56.1, ¶ 7. In December 2014, Plaintiff notified
Sparta of its claims. Joint Pretrial Stipulation (“Stipulation”) (ECF No. 143) at 4. Corey Buford, an insurance
adjuster, was assigned to adjust the claim on Sparta’s
behalf and made requests for additional information
during December 2014 and January 2015. Def.’s Resp.
56.1, ¶¶ 33, 35. Plaintiff hired Epic Group Public
Adjusters (“Epic”) to assist it with its adjustment
claim for cleaning. Pl.’s 56.1, ¶ 8.4 In January 2015,
Robert Inguanzo, Epic’s representative public adjuster,
4 Robert Inguanzo of Epic assisted Plaintiff with its initial
claim submitted to Defendant. Frank Inguanzo also works for
Epic and provided a Rule 26 Report regarding damages alleged
by Plaintiff. Frank Inguanzo Report (ECF No. 105-6).

App.26a
responded to Buford’s request for additional information, stating that the loss “occurred as early as December of 2013 in the form of construction debris and dust
from the road work” and that in terms of damages,
“the construction related debris and dust . . . caused
damage to the insured’s building. The scope of loss
including but is not limited to, cleaning of the floors,
walls, tables, chairs and countertops.” Id. at ¶¶ 25,
34, 36.
In March 2015, Epic provided Plaintiff with an
estimate of $16,275.58 for cleaning, painting and
striping the parking lot. Pl.’s 56.1, ¶ 9; Def.’s Resp.
56.1, ¶ 9.5 In April 2015, Robert Inguanzo sent a letter
to Buford with a “preliminary damage estimate” for
$16,275.58 and a corresponding “Sworn Statement in
Proof of Loss” for $13,775.58 (i.e., the amount of the
estimate minus a $2500 deductible) and a loss of
business income claim for $292,550.84. Pl.’s 56.1, ¶ 9;
Def.’s Resp. 56.1, ¶¶ 9, 37. In January 2017, Sparta
sent Plaintiff a letter stating that the claims presented “are not covered under the subject SPARTA
policy . . . ” Pl.’s 56.1, ¶16, Ex. M. at 5.
B. Procedural Background
After Plaintiff was denied coverage, Plaintiff
filed its claim in Florida State court on May 19,
2017 against Defendants Sparta, Prohost USA, Inc.
(“Prohost”) and Buford, which Sparta removed to
federal court in the Southern District of Florida on

5 This estimate for cleaning was the result of a March 2015
inspection of the property by LCD Estimators. Def.’s Resp. 56.1,
¶ 38.

App.27a
September 6, 2017 based on diversity jurisdiction.6
Notice of Removal (ECF No. 1). Plaintiff voluntarily
dismissed Defendants Buford and Prohost. See (ECF
Nos. 63, 64). On October 11, 2017, Plaintiff claimed
$16,275.58 of damages for cleaning in its initial disclosures. (ECF No. 20). On February 26, 2018, Plaintiff amended its disclosures to identify new categories
of damages and a new damage total of $319,668.57.
(ECF No. 101-5).7 In the Amended Complaint, Plaintiff
alleges one count of breach of contract against Sparta,
the only remaining Defendant, for denial of coverage.
II.

Legal Standard

Summary judgment is appropriate where there
is “no genuine issue as to any material fact [such]
that the moving party is entitled to judgment as a
matter of law.” Celotex Corp. v. Catrett, 477 U.S.
317, 322 (1986); Fed R. Civ. P. 56. A genuine issue of
material fact exists when “a reasonable jury could
return a verdict for the non-moving party.” Anderson
v. Liberty Lobby, Inc., 477 U.S. 242, 249 (1986). “For
factual issues to be considered genuine, they must
have a real basis in the record.” Mann v. Taser Int’l,
Inc., 588 F.3d 1291, 1303 (11th Cir. 2009) (citation
omitted). Speculation or conjecture cannot create a
genuine issue of material fact. Cordoba v. Dillard’s,
6 “In a contract action, a federal court sitting in diversity jurisdiction applies the substantive law of the forum state.” Tech.
Coating Applicators, Inc. v. U.S. Fid. & Guar. Co., 157 F.3d 843,
844 (11th Cir. 1998).
7 The new damages included Cleaning, Concrete & Asphalt,
Electrical, HVAC, Roofing (awning, roll-up curtains, retractable
roof, and related motors, electronics, hardware, etc.), audio and
lighting systems, and replacement of the lighting system.

App.28a

Inc., 419 F.3d 1169, 1181 (11th Cir. 2005). The moving

party has the initial burden of showing the absence
of a genuine issue as to any material fact. Clark v.
Coats & Clark, Inc., 929 F.2d 604, 608 (11th Cir. 1991).
In assessing whether the moving party has met this
burden, the court must view the movant’s evidence
and all factual inferences arising from it in the light
most favorable to the non-moving party. Denney v.
City of Albany, 247 F.3d 1172, 1181 (11th Cir. 2001).
Once the moving party satisfies its initial burden,
the burden shifts to the non-moving party to come
forward with evidence showing a genuine issue of
material fact that precludes summary judgment.
Bailey v. Allgas, Inc., 284 F.3d 1237, 1243 (11th Cir.
2002); Fed. R. Civ. P. 56(e). “If reasonable minds
could differ on the inferences arising from undisputed
facts, then a court should deny summary judgment.”
Miranda v. B & B Cash Grocery Store, Inc., 975 F.2d
1518, 1534 (11th Cir. 1992).
III. Discussion
Defendant moves for summary judgment arguing
that Plaintiff’s alleged damages and business income
loss are not covered under the Policy. As a threshold
matter, the Court must determine whether Plaintiff
can prove “direct physical loss or damage” and thus
whether coverage exists under the Policy. Because
Plaintiff’s theory of liability hinges upon expert testimony and because the Court may consider only
admissible evidence on summary judgment, the Court
first addresses Defendant’s objections to the admissibility of Plaintiff’s causation experts.8
8 Expert testimony is required regarding proof of causation
“where a jury is asked to assess complex . . . scientific issues

App.29a
A. Daubert Standard
Rule 26(a)(2)(B) of the Federal Rules of Civil Procedure provides that expert disclosures be accompanied
by a written report, signed by the witness, containing
a complete statement of all opinions the witness will
express and the bases for those opinions. Fed. R. Civ.
P. 26(a)(2)(A), (B). Rule 702 of the Federal Rules of
Evidence provides that expert testimony is admissible
if
scientific, technical, or other specialized
knowledge will assist the trier of fact to
understand the evidence or to determine a
fact in issue, a witness qualified as an expert by knowledge, skill, experience, training,
or education, may testify thereto in the form
of an opinion or otherwise, if (1) the testimony is based upon sufficient facts or data,
(2) the testimony is the product of reliable
principles and methods, and (3) the witness
has applied the principles and methods reliably
to the facts of the case.

STMicroelectronics, Inc. v. SanDisk Corp., No. 05cv-45,

2007 WL 4386234 (E.D. Tex. Mar. 15, 2007). “Rule
702 compels the district courts to perform the critical
outside the scope of a layperson’s knowledge.” Small v. Amgen,
Inc., No. 17-cv-11440, 2018 WL 501354, at *3 (11th Cir. Jan. 22,
2018); see also Chapman v. Procter & Gamble Distrib., LLC,
766 F.3d 1296, 1316 (11th Cir. 2014) (applying Florida law and
affirming the district court’s decision on summary judgment
where plaintiff’s expert failed to meet the Daubert standard
and the plaintiff had no other expert to testify as to causation).
Plaintiff acknowledges that “causation is a central issue in this
case,” which “raises scientific and technical issues beyond a
juror’s ordinary knowledge.” Pl.’s Daubert Resp. at 15.

App.30a
‘gatekeeping’ function concerning the admissibility of
expert scientific evidence.” U.S. v. Frazier, 387 F.3d
1244, 1260 (11th Cir. 2004) (emphasis in original)
(citing Daubert v. Merrill Dow Pharm., Inc., 509 U.S.
579, 589, n.7, 597 (2006)). The court must also act as
gatekeeper with respect to the admissibility of technical expert evidence. Kumho Tire Co. v. Carmichael,
526 U.S. 137, 147 (1999). In determining the admissibility of expert testimony, the Court considers whether:
(1) The expert is qualified to testify competently regarding the matters he intends to
address; (2) the methodology by which the
expert reaches his conclusions is sufficiently
reliable as determined by the sort of inquiry
mandated in Daubert; and (3) the testimony
assists the trier of fact, through the application of scientific, technical, or specialized expertise, to understand the evidence or to
determine a fact in issue.

Finestone v. Florida Power & Light Co., No. 03-cv-

14040, 2006 WL 267330, *8 (S.D. Fla. Jan. 6, 2006)
(internal citations omitted). “The burden of laying
the proper foundation for the admission of the expert
testimony is on the party offering the expert.” Allison
v. McGhan Med. Corp., 184 F.3d 1300, 1306 (11th Cir.
1999).
i. Defendant’s Daubert Motion
Defendant moves to exclude the opinions of all
Plaintiff’s experts. For purposes of summary judgment,
the Court considers Defendant’s Daubert Motion as
to the following experts: (1) Alex Posada–damage to
audio and lighting systems; (2) Christopher Thompson–
damage to the awnings, roll-up curtains, retractable

App.31a
roof, and related motors, hardware and electronics;
and (3) Alfred Brizuela–causation and origin of
property damage. Plaintiff designated the testimony
of Posada, Thompson, and Brizuela to prove that the
construction dust caused the alleged damage to the
restaurant.9
1. Plaintiff’s Expert Alex Posada
Alex Posada is Plaintiff’s audio and lighting expert.
Defendant argues that Posada is not qualified and
his testimony on causation and damages is not reliable.
First, Defendant challenges Posada’s qualifications, arguing that Posada’s Rule 26 Report did not
include a resume or curriculum vitae and that Plaintiff
failed to show education, training, or experience that
would provide him with scientific, technical, or other
specialized knowledge to opine that roadway construction can and did cause damage to Plaintiff’s
audio and lighting systems in 2014. (“Posada Report”)
(ECF No. 105-3). Plaintiff contends that Posada has
extensive experience in the audio and lighting industry
and has assessed lighting and audio systems damaged
by construction dust and debris around twenty to
thirty times in the past. Posada Dep. (ECF No. 1081) at 98:21-99:8. An expert “may be qualified ‘by
knowledge, skill, experience, training, or education.’”
9 The Court will consider the Daubert motions only to the extent
necessary to resolve the pending Motions for Summary Judgment.
Johnson v. State Farm Fire & Cas. Co., No. 12-cv-00534, 2013
WL 4607548, at *2 (S.D. Ala. Aug. 29, 2013). Here, the Court
need not consider Frank Inguanzo’s opinions to determine
causation because at his deposition, Plaintiff’s counsel stipulated
that he will not offer any opinions on causation. Inguanzo Dep.
at 53:12-17.

App.32a

Bouton v. Ocean Props., Ltd., No. 16-cv-80502, 2017 WL

4792488, at *7 (S.D. Fla. Oct. 23, 2017). The Court
finds that Posada is qualified because of his experience
in the field.
Second, Defendant argues Posada’s testimony is
not reliable. Even a “supremely qualified expert cannot
waltz into the courtroom and render opinions unless
those opinions are based on some recognized scientific
method.” Beltran v. NCL Corp., Ltd., No. 13-cv24566, 2017 WL 4270618, at *4 (S.D. Fla. Sept. 26,
2017). Thus, a court must focus on the “‘reliability’ of
a proffered expert’s ‘sources and methods.’” Chapman,
766 F.3d at 1306.
Posada identified a reliable methodology, the
“QC diagnostic” test, to determine which components
of the audio system were damaged and which needed
to be repaired or replaced. See Posada Report at 3
(“The testing provides valuable diagnostic information
for detecting the root cause of the problem and
allows to determine if the system is repairable.”).
Posada testified that the QC Diagnostic test was the
only option to determine a specific reason why a
speaker or light was not working. Posada Dep. at
55:12–56:7.10 However, Posada did not perform the
10 Question (“Q”): “So is it fair to say if you want to find out a
specific reason why a speaker or light is not working, you have
to run this diagnostic?” Answer (“A”): “It’s an option” Q: “What
other options are there?” A: “There are no other options . . . its
either this or replace it which, I mean—as of looking at it, I can
already tell you it’s not going to be worth doing this.” Q: “If you
want to find out the specific reason why a subwoofer or speaker
or light is not working, do you need to perform the diagnostic?”
A: “It’s an option. Yeah” Q: “But are there any other options?”
A: “No, there is no other option.” Q: “That’s the only option?” A:
“That is correct.”

App.33a
QC diagnostic test. Id. at 53:21-24; 55:5-16, 55:19-22;
57:10-23.
Instead, Posada did a two hour walk-through at
the restaurant and conducted a visual and auditory
test in February 2018, over two years after the
roadway construction ended. Posada Dep. at 30:16.
Plaintiff argues Posada’s walk-through was sufficient
due to his years of experience and ability to determine
whether a speaker has been damaged by dust or
debris based on the unique sound the speaker makes.
Posada testified that he could tell it was construction
dust damage from listening to the speakers because
the sound was “tedious.” Id. at 88:12-89:6; 94:1-9.
Posada did not inspect the entire audio system because
some were out of reach and he did not want to disturb
the patrons who were having lunch. Id. at 24:18-24;
32:5-16.11 He inspected the back of some subwoofers,
which were located on the floor, and stated that he
“had a hard time taking the connector out, and that
is due to the corrosion and due to the dust.” Id. at
40:11-13. Posada stated that speakers can remain in
good condition for about ten years but admitted that
he did not know the age of the speakers. In fact,
Posada did not know when the speakers were installed
or when they stopped working. Id. at 77:3-10; 76:420; 87:1-9.
Posada also testified that the lights at the restaurant were not working and that the only things that
can cause damage to LED lighting are construction dust
11 Posada testified that he did not “walk in between the tables
. . . [s]o it was basically a walk-through around the perimeters
where [he] was able to walk and not disturb any guests.” Posada
Dep. at 34:7-11.

App.34a
and water. Id. at 44:1-2; 81:6-15. He observed the
ceiling lights from the ground level, about 15 feet
below the fixtures. Id. at 45:8-9. (“all the light fixtures
are all [15 feet or higher].”). Posada could not see the
motherboard from the floor and did not inspect the
motherboard of the light fixtures at the restaurant.
Id. at 97:19-98:11. He further testified that “there
was no way for [him] to grab a ladder to take a look
at these lights in close proximity to see if it’s really
the LED screen that’s not working or the lamp.” Id.
at 33:11-17.
Under Daubert, the “district judge asked to admit
scientific evidence must determine whether the
evidence is genuinely scientific, as distinct from being
unscientific speculation.” Chapman, 766 F.3d at 1306.
Posada concluded that the audio and lighting systems
were damaged by exposure to construction dust and
debris. Posada Dep. at 75:4-18. He did not review
any documents or photographs of the property before
or during his inspection. Id. at 31:1-12. In February
2018, Posada merely listened to the audio system–
while patrons were in the restaurant–and looked at
the lighting system from 15-feet below to conclude
that any alleged damage was caused by construction
dust and debris from the roadway construction in
2014. Defendant argues that this unverified causation opinion amounts to nothing more than inadmissible ipse dixit that regurgitates Plaintiff’s theory of
the case. Def.’s Daubert Motion at 5. This “Court
does not denigrate the use of visual inspections,”
Banta Properties, Inc. v. Arch Specialty Ins. Co., No.
10-cv-61485, 2011 WL 7118542, at *4 (S.D. Fla. Dec. 23,
2011). But here, Posada’s methodology was unreliable,
providing nothing more than speculation about the

App.35a
cause of the damage to audio and lighting equipment. Posada’s testimony is therefore excluded.
2. Plaintiff’s Expert Christopher Thompson
Defendant moves to exclude the testimony of
Thompson on the issue of damages to the awnings,
roll-up curtains, retractable roof, and related motors,
hardware and electronics arguing that he is not
qualified and the methodology used was unreliable.
First, Defendant challenges Thompson’s qualifications arguing that Thompson’s Rule 26 Report
(“Thompson Report”) (ECF No. 105-4) did not suggest
that Thompson has any specialized knowledge to
opine on whether construction dust can and did, in
fact, cause any property damage. Thompson has
worked in his family awning business for the past 30
years. Thompson Report at 10. The “qualification
standard for expert testimony is ‘not stringent,’ and
‘so long as the expert is minimally qualified, objections
to the level of the expert’s expertise [go] to credibility
and weight, not admissibility.’” Banta, 2011 WL
7118542, at *2. Furthermore, an expert may be qualified by “experience.” Bouton, 2017 WL 4792488, at *7.
Thompson is at least minimally qualified to render
an expert opinion from his years of experience.
Second, Defendant argues that Thompson’s opinions are unreliable “leaps of faith” unsupported by
evidence. Plaintiff argues that Thompson’s methodology was reliable because he conducted “visual testing”
and that the testimony would be helpful because the
damages involved “technical issues outside a juror’s
ordinary knowledge.” Pl.’s Daubert Resp. at 11.

App.36a
Thompson inspected the property for approximately one hour in February 2018. Thompson Dep.
(ECF No. 108-3) at 29:23-24. He concluded that all
the awnings, gear drives, and motors were damaged
from construction dust and debris and must be
replaced. Thompson Report at 1. The following deposition testimony is particularly relevant to the Court’s
determination that Thompson failed to use a reliable
methodology to support his conclusions:
Q: “The black sediment that you observed,
do you know what it was?” A: “In my opinion
it was debris from the road construction,
dirt.” Q: “What are you basing that on? A:
“I’m basing my opinions on awnings that I

did for many years and, you know, that
awning is filthy. I know what it was when
we put it up. I know what it looks like now,
so . . . ” Id. at 43:20-22; 44:14-20 (emphasis
added)

Q: “Other than the fact that you have eaten
at [the restaurant] and have seen roadwork
going on, do you have any other basis for
that opinion that that black sediment was
from the roadwork?” A: “Well, I’ve seen

several other awnings I did over the years
and, you know, it didn’t come with the
awning on, you know, when it was new. So
I’m just making that assumption that I’m
seeing the road. And I’ve been there several
times and the roof is closed and when you
open it up, there is dirt and particles flying
through the air when I have been there for
lunch. So to me, if you have a road and you
have –when I’ve been there and eaten lunch

App.37a
over the years and you have road debris
going on and your curtains are down, and
the dirt is flying, it leads me to believe that
that would be from there.” Id. at 45:1946:17 (emphasis added).
Thompson also testified that he observed discoloration
in the awnings but did not know whether that discoloration was caused by the sediment. Id. at 62:2025. When asked about alternative causes for the discoloration, Thompson did not know if it could have
been caused by salt or sap but testified that although
he did not know what the sediment was, he knew the
sediment could deteriorate the fabric. Id. at 117:6-16.
When asked if he knew when the sediment got on the
awning, Thompson responded “I sure don’t.” Thompson
Dep. at 54:11-13.
Thompson also inspected the retractable roof
and drive belt. The only component of the retractable
system that Thompson could confirm was broken
was the drive belt that opens and closes the roof but
he was unsure when the drive belt “snapped.” Id. at
47:1-12; 69:24-70:1; 71:12-13 (“Q: “Do you know why
it snapped in half?” A: “I could not tell you. I have an
opinion, but I couldn’t tell you seriously.”).
A district court enjoys flexibility in conducting
the reliability analysis and application of Daubert
factors in any “given case will depend . . . on the nature
of the issue, the expert’s particular expertise, and the
subject of his testimony.” United States v. Brown,
415 F.3d 1257, 1268 (11th Cir. 2005) (internal quotations omitted). Where “the proposed expert’s opinion
relies principally upon his experience and knowledge,”
the Court must be satisfied “that the witness has
appropriately explained how his experience leads to the

App.38a
conclusion he reached, why that experience provides
a sufficient basis for the opinion, and how that experience is reliably applied to the facts.” Clena Invs.,
Inc. v. XL Specialty Ins. Co., 280 F.R.D. 653, 663 (S.D.
Fla. 2012). While “absolute certainty is not required
from an expert,” Banta, 2011 WL 7118542, at *3,
“‘knowledge’ connotes more than subjective belief or
unsupported speculation.” Daubert, 509 U.S. at 590.
The Court finds that Thompson’s testimony is nothing
more than unexplained assurances and unsupported
speculation.
3. Plaintiff’s Expert Alfred Brizeula
Defendant challenges the qualification and reliability of Brizuela, Plaintiff’s causation expert who
opined that the roadway construction dust caused
damage to metal structures at Plaintiff’s restaurant.
First, Defendant challenges Brizuela’s qualifications arguing that Plaintiff has not provided any
credible evidence to show that Brizuela has the
education, training, or experience on this discrete
subject matter to assess whether roadway construction
dust can cause damage to the metal structures and
whether the roadway construction did, in fact, cause
damage to the metal structures. Brizuela has a
degree in architecture and structural engineering, is
a Florida licensed civil and structural engineer with
over thirty-three years of experience in assessing
commercial and residential properties for structural
and architectural damage, and has had experience
with dust “affecting cars at [his] construction sites,
affecting the finish and the metals on the cars.”
Brizuela Dep. (ECF No. 108-5) at 22:12-23:25; Brizuela
Qualifications (ECF No. 113-10). Because of Brizuela’s

App.39a
education and background, the Court finds that Brizuela is qualified.
Second, Defendant argues Brizuela failed to use
reliable methodology to support his testimony regarding
causation. Brizuela stated that construction dust “in
its simplest form, is a mixture of a [sic] small
particles from concrete (Portland cement and water)
and aggregate and limestone which is primarily
calcium carbonate.” Brizuela Report (ECF No. 105-5).
at 6. He stated that Portland cement “has distinctive
characteristics of its own as it is the basic ingredient
of concrete.” Id. at 6. Though Brizuela opined on
what concrete is generally made of and damage that
it can cause, he did not conduct any chemical testing
of the construction dust allegedly adhered to the
metal at the restaurant. Instead, he conducted a one
hour visual inspection of the restaurant in December
2017; over two years after the construction had
ended. Brizeula Report at 1; Brizeula Dep. at 57:5-58:6;
59:19-21; 115:24-115-4; 154:4-7 (“testing was strictly
the observation through . . . inspection and review of
[] photographs.”) His efforts to remove the alleged
“adhered paste during [his] inspection” involved
running his “fingers across it.” Brizeula Dep. At 116:510. Based on his inspection, Brizuela concluded that
“it is evident that the source of [any] damage was from
the nearby roadway construction.” Brizuela Report.
Brizuela stated in his report that the “migration
of the [construction] dust and its resulting paste was
a sudden and accidental occurrence that damaged”
the “windows, railings, paint and stucco” and the

App.40a
“awning structure.” Brizuela Report at 6-7.12 The
Court finds that Brizuela’s testimony is not based on
any methodology and further, any testimony regarding
the alleged damage would not be helpful to a jury
because Brizuela testified that: (1) he did not observe
any dust on the window frames during his inspection,
(Brizuela Dep. at 86:17-19); (2) he did not see any
damage to the stucco, (id. at 90:6-13); (3) he “observed
dust on the metal framing of the awning” during his
inspection in December of 2017–two years after the
construction ended–but found that the “awning had
yet to experience high levels of moisture which would
cake on [ . . . ] that dust and make it stick” and testified
that he has not seen any evidence of that on the
frame, (id. at 67:10-24); (4) he did not know whether
dust was caked on the awning structure because he
“didn’t get up that high to see if it was caked,” (id. at
93:2-8); (5) he observed some corrosion on the metal
railings but noted that “the finish is still in place. I
mean, there is some corrosion on the railings or in –
but that would–I would attribute that to natural
oxidation. If you look [at] . . . the area where there is
corrosion, it’s just, I would say, natural to that railing,”
12 Brizuela also testified that “the HVAC system, [ . . . ] And then
the fabric [on the awnings]” could also be damaged. Brizuela
Dep. at 73:1-6. This testimony is not helpful because Brizeula
testified that he had no opinions regarding the damage to the
HVAC system or audio and lighting and would not be giving his
opinion on other allegedly damaged property. Brizuela Dep. at
71:9 19 (he could not speak to the awning fabric because of “his
lack of experience with that fabric”); 69:20-70:14 (he did not
inspect the HVAC system and had no experience with audio
and lighting equipment); 92:4-14 (he was informed that the
retractable roof was not functioning but that he did not know
why); and 85: 19-22 (he was not rendering an opinion that dust
damaged the exterior walls).

App.41a
(id. at 94:2-7); and (6) the corrosion damage in his
Report “will” occur, but that “[c]orrosion damage
relating to the dust has . . . not occurred yet.” Id. at
94:16-24.
Relevant testimony from a qualified expert is
only admissible if the expert knows of facts which
enable him to express reasonably accurate conclusion
as opposed to conjecture or speculation. Vision I
Homeowners Ass’n, Inc. v. Aspen Specialty Ins. Co.,
674 F. Supp. 2d 1321, 1325 (S.D. Fla. 2009). Absolute
certainty is not required and expert testimony is
admissible when it connects conditions existing later
to those existing earlier provided the connection is
concluded logically. Id. Even if the Court accepts, as
Brizuela testified, that construction dust and debris
can generally cause damage to metal, his conclusions
are unreliable for the following reasons: (1) he did
not inspect some allegedly damaged items, (2) he did
not observe damage to some of the items claimed,
and (3) testified that that some damage had yet to
occur. Brizeula is unable to attribute damage to the
construction dust with any degree of certainty and
his testimony is therefore excluded.
B. Defendant’s Motion for Summary Judgment
Defendant moves for summary judgment arguing
that Plaintiff’s alleged “direct physical loss of or
damage” and business income loss are not covered
under the Policy. Defendant argues it is entitled to
summary judgment for several reasons including but
not limited to the following (1) Plaintiff’s expenses
associated with cleaning dust from building surfaces
and personal property do not constitute direct physical
loss or damage because the dust did not tangibly

App.42a
injure covered property; (2) Plaintiff cannot meet its
burden of showing that the alleged damage occurred
during the policy period; and (3) Plaintiff’s business
interruption claim fails because Plaintiff has not
sustained a suspension of operations for a period of
restoration caused by direct physical loss or damage.
Under Florida law, the interpretation of an
insurance contract is a matter of law to be decided by
the court. Adelberg v. Berkshire Life Ins. Co., 97 F.3d
470, 472 (11th Cir. 1996). Florida courts look at the
insurance policy as a whole and give every provision
its full meaning. State Farm Fire & Cas. Co. v.
Steinberg, 393 F.3d 1226, 1230 (11th Cir. 2004).
i. Direct Physical Loss or Damage
Plaintiff argues that the migration of dust and
construction debris from the roadwork adjacent to
the restaurant caused damage to the restaurant and
contends that this dust and debris constitutes “direct
physical loss” to the Property under the Policy.
Under the all-risk insurance Policy between Plaintiff
and Defendant, the insured must initially show (1)
that there was a relevant loss–here a “direct physical
loss or damage”–which (2) occurred within the policy
period. Sporting Prod., LLC v. Pac. Ins. Co., Ltd., No.
10-cv-80656, 2012 WL 13018367, at *10 (S.D. Fla. Jan.
6, 2012).13
First, with regards to Plaintiff’s new damages
alleged in the February 2018 disclosures for replacement of the restaurant’s awning and retractable roof,
audio systems, lighting systems, asphalt parking lot,
13 The Parties agree that the Policy is an “all-risk” insurance
policy. See Pl.’s Mot. at 8-9; Def.’s Resp. at 3.

App.43a
and HVAC systems, Plaintiff relies on the expert
reports of the excluded experts–Brizuela, Thompson,
and Posada,–in order to prove causation and damage.
While an expert is not necessary in all breach of
contract cases, here the crucial question whether
construction dust and debris caused damage to
Plaintiff’s property is not one a lay witness can
answer. Johnson, 2013 WL 4607548, at *11 (“While
it may be true that an expert is not required in all
breach of contract cases, here the crucial question—
whether the water damage came from ground water
accumulation or a roof defect—is not one a lay witness
can answer.”). “A person seeking to recover on an
insurance policy has the burden of proving a loss
from causes within the terms of the policy[,] and if
such proof of loss is made within the contract of
insurance, the burden is on the insurer to establish
that the loss arose from a cause that is excepted from
the policy.” Evanston Ins. Co. v. Haven S. Beach,
LLC, 152 F. Supp. 3d 1370, 1374 (S.D. Fla. 2015).14
Plaintiff carries the burden of proving causation
to show that there was a direct physical loss and
thus coverage under the Policy. Companhia Energetica
Potiguar v. Caterpillar Inc., No. 14-cv-24277, 2016
14 Defendant also argues that several exclusions and limitations
apply that would bar coverage if the Court were to attribute the
“loss or damage” to the construction dust and debris. These
include but are not limited to the following: “failure of power,
communication, water or other utility service supplied to premises,”
“wear and tear,” “marring or scratching,” “rust or other
corrosion, decay deterioration,” “mechanical breakdown,” that
the dust was a “pollutant,” and “failure to mitigate damages.”
Because the Court has determined that there is no coverage,
the Court need not address whether these exclusions apply.

App.44a
WL 7507848, at *13 (S.D. Fla. Aug. 1, 2016). Plaintiff
acknowledges that “causation is a central issue in
this case,” which “raises scientific and technical issues
beyond a juror’s ordinary knowledge.” Pl.’s Daubert
Resp. at 15.
The Eleventh Circuit affirmed a district court’s
grant of summary judgment on the basis of its exclusion of the expert’s testimony, where that testimony
was the only evidence on the issue of causation. Guinn
v. AstraZeneca Pharm. LP, 602 F.3d 1245, 1251
(11th Cir. 2010) Where a plaintiff cannot show
evidence that their loss is covered, a plaintiff “cannot
show [Defendant] breached the terms of the Policy by
refusing to pay their claim.” Johnson, 2013 WL
4607548, at *11. Here, without its experts, Plaintiff
cannot show that the construction dust and debris
from 2014 caused the alleged “direct physical loss” to
their awnings, retractable roof, HVAC system, railings,
and audio and lighting system. Thus, summary judgment is appropriate.
Second, with regards to Plaintiff’s initial claim
for cleaning,15 cleaning is not considered direct physical
loss. See e.g., Universal Image Prods., Inc. v. Fed. Ins.
Co., 475 F. App’x 569, 573 (6th Cir. 2012) (“[Plaintiff]
15 Robert Inguanzo, Plaintiff’s public adjuster, who assisted
Plaintiff in filing its original claim for coverage against Defendants,
testified that based on his initial inspection, at the time of the
request “the work that we felt was necessary to bring the
property to its pre-loss condition included the cleaning and
painting. Robert Inguanzo Dep. (ECF No. 76-1) at 35:22-36:1.
There was no need for removal or replacement of items at that
time. Robert Inguanzo Dep. at 36:4-7. The entire initial estimate
was for cleaning the restaurant. LCD Estimators (ECF No. 11010)

App.45a
seeks coverage for cleaning and moving expenses . . . as
well as lost business income. These are not tangible,
physical losses, but economic losses.”). A direct physical
loss “contemplates an actual change in insured
property then in a satisfactory state, occasioned by
accident or other fortuitous event directly upon the
property causing it to become unsatisfactory for future
use or requiring that repairs be made to make it so.”

MRI Healthcare Ctr. of Glendale, Inc. v. State Farm
Gen. Ins. Co., 187 Cal. App. 4th 766, 779 (2010); see
also AFLAC Inc. v. Chubb & Sons, Inc., 260 Ga. App.
306, 308, (2003).

Even if this Court were to adopt a more expansive
definition of “direct physical loss or damage,” Plaintiff
would not be entitled to coverage. Several courts
have held that “physical loss” occurs when property
becomes “uninhabitable” or substantially “unusable.”

See e.g. Port Auth. of New York & New Jersey v.
Affiliated FM Ins. Co., 311 F.3d 226, 236 (3d Cir.
2002) (“When the presence of large quantities of
asbestos in the air of a building is such as to make
the structure uninhabitable and unusable, then there
has been a distinct loss to its owner.”). Indeed, where
“[t]he structure continues to function—it has not lost
its utility . . . routine maintenance does not bring the
expense within first-party coverage.” Id.
Here, the restaurant was not “uninhabitable” or
“unusable.” In fact, the restaurant remained open
every day, customers were always able to access the
restaurant, and there is no evidence that dust had an
impact on the operation other than requiring daily
cleaning. See Def.’s Resp. 56.1, ¶ 26; Edmonson Dep.
(ECF No. 116-8), 39:12-19, 46:3-6, 63:17-22; Snider
Dep. (ECF No. 107-1) at 66:10-67:6. “The requirement

App.46a
that the loss be ‘physical,’ given the ordinary definition
of that term, is widely held to exclude alleged losses
that are intangible or incorporeal and, thereby, to
preclude any claim against the property insurer
when the insured merely suffers a detrimental economic
impact unaccompanied by a distinct, demonstrable,
physical alteration of the property.” See 10A Couch
on Ins. § 148:46 (3d. Ed. West 1998). The fact that
the restaurant needed to be cleaned more frequently
does not mean Plaintiff suffered a direct physical loss
or damage and thus, summary judgment is appropriate.16
ii. Business Income Loss (and Extra Expense)
Coverage
Sparta’s Business Income (And Extra Expense)
Coverage form covers “the actual loss of Business
Income you sustain due to the necessary ‘suspension’
of your ‘operations’ during the ‘period or restoration’.
The ‘suspension’ must be caused by direct physical
loss of or damage to property.” The Policy at 46.
16 Plaintiff also argues that the cleaning constituted “debris
removal.” Debris removal is not defined in the Policy. However,
the Policy covers expenses “to remove debris of Covered Property
caused by or resulting from a Covered Cause of Loss that occurs
during the policy period.” Id. at 33 (emphasis added). Removal
of debris from the collapse of a building is covered when the
debris was ‘Covered Property.’” Harbor Cmtys., LLC v. Landmark
Am. Ins. Co., No. 07-cv-14336, 2008 WL 2986424, at *5 (S.D.
Fla. Aug. 4, 2008) (“[R]emoval of debris from the collapse of
Building # 9 is covered because the collapse was a ‘Covered
Cause of Loss’ and the debris was ‘Covered Property.’”). Here,
the alleged debris removal was from dust and debris migrating
from the roadway construction–not from any “Covered Property.”
Plaintiff is not entitled to coverage for cleaning under this
portion of the Policy.

App.47a
Defendant argues that Plaintiff cannot prove any element of the Business Loss Income claim. Plaintiff
argues that its loss of income is intertwined with the
damage to the property and the allocation of its
recourses.
It is plaintiff’s burden to prove “entitlement to
business interruption insurance proceeds under the
insurance policy.” Dictiomatic, Inc. v. U.S. Fid. & Guar.
Co., 958 F. Supp. 594, 603 (S.D. Fla. 1997). Plaintiff
must prove (1) there was direct physical loss or damage
to covered property, (2) the damage was caused by a
covered cause of loss, (3) there was a necessary
“suspension” of the insured’s “operations,” (4) the
“suspension” was caused by the covered damage, (5)
there was an “actual loss of business income” during
a “period of restoration,” and (6) the “actual loss of
income” was caused by the “suspension” of “operations.”
Id. at 62.
As addressed above, Plaintiff has not established
a direct physical loss or damage. Plaintiff cannot
recover under the Business Income (And Extra
Expense) Coverage because Plaintiff cannot show
that there was any suspension of operations caused
by “physical damage.” See e.g. Ramada Inn Ramogreen,
Inc. v. Travelers Indem. Co. of Am., 835 F.2d 812,
814 (11th Cir. 1988) (“recovery is intended when the
loss is due to inability to use the premises where the
damage occurs.”). The restaurant remained open
every day, customers were always able to access the
restaurant, and suppliers were always able to access
the restaurant. See Def.’s Resp. 56.1, ¶ 26; Edmonson
Dep. (ECF No. 116-8), 39:12-19, 46:3-6, 53:1-9, 63:511. Thus, summary judgment is appropriate.

App.48a
IV. Conclusion
For the foregoing reasons, is hereby ORDERED
AND ADJUDGED that Defendant’s Daubert Motion
to Exclude Plaintiff’s Expert (ECF No 105) is
GRANTED as set forth above, Defendant’s Motion for
Summary Judgment (ECF No.106) is GRANTED as
set forth above. All other pending motions are denied
as MOOT.
DONE AND ORDERED in Chambers at Miami,
Florida, this 11th day of June, 2018.
/s/ K. Michael Moore
Chief United States District Judge
cc: All counsel of record

App.49a
SPARTA INSURANCE POLICY—
RELEVANT EXCERPTS

App.50a
COMMON POLICY DECLARATIONS
SPARTA INSURANCE COMPANY
Cityplace II, 185 Asylum Street, Hartford, CT 05103
________________________
Item 1.
Named Insured and Mailing Address
Mama Jo’s Inc. DBA: Berries
2884 SW 27 Ave
Miami FL 33133
Agent Name and Address
PROHOST USA, INC.
4500 Park Glen Road
Suite 410
Minneapolis MN 55416
Agent No.

00029

Item 2.
Policy Period
From: 09-19-2013 To: 09-19-2014
at 12:01 A.M., Standard time at your mailing
address shown above.
Item 3.
Business Description: RESTAURANT
Form of Business: CORPORATION

App.51a
Item 4.
In return for the payment of the premium, and
subject to all the terms of this policy, we agree with
you to provide the insurance as stated in this policy.
This policy consists of the following coverage
parts for which a premium is indicated. Where no
premium is shown, there is no coverage. This
premium may be subject to adjustment.
Coverage Part(s)

Premium

Commercial Property Coverage Part

$ 6,195.00

Commercial General Liability
Coverage Part

$ 12,878.00

Commercial Crime Coverage Part

Not Covered

Commercial Inland Marine
Coverage Part

Not Covered

Commercial Auto (Business or Truckers) Not Covered
Coverage Part
Commercial Garage Coverage Part

Not Covered

TAX OR SURCHARGE

$ 448.87

Total Policy Premium

$ 19,521.87

Item 5.
Forms and Endorsements
See Schedule of Forms and Endorsements

App.52a
SCHEDULE OF FORMS AND ENDORSEMENTS
SPARTA INSURANCE COMPANY
[Policy Number 053CP00228]
________________________
Named Insured: Mama Jo’s Inc. DBA: Berries
Effective Date: 09-19-13
12:01 A.M, Standard Time
Agent Name: PROHOST USA, INC.
Agent No.: 00029
Common Policy Forms and Endorsements
SPPJ 03

03-13

Policy Jacket

CO-DEC

01-97

Common Policy Declarations

FORMSCHED

01-97

Schedule Of Forms
Endorsements

LOCSCHED

01-97

Schedule Of Locations

IL 00 17

11-98

Common Policy Conditions

IL 00 21

09-08

Nuclear Energy
Exclusion Endt

IL 04 15

04-98

Protective Safeguards

IL 09 35

07-02

Excl of Certain
Computer-Related Losses

IL 09 53

01-08

Excl/Cert Acts-Terror;
Cov/Fire Losses

TAX-FORM

01-97

Schedule

Of

And

Liability

Taxes,

App.53a
Surcharges Or Fees
IL 01 12

06-10

Fl
Chgs-Mediation/Apprl
(Cmml Res Prop)

IL 01 75

09-07

Florida
Changes
Action Against Us

IL 02 55

02-12

Florida Changes-Canc
Nonrenewal

IL 04 01

02-12

Florida-Sinkhole Loss
Coverage

Legal
&

Property Forms and Endorsements
PF-DEC

10-00

Comm Property Cov Part
Supp Dec

PF-SCHED

10-00

Comm Property Cov Part Ext
Of Supp Dec

CP 00 10

06-07

Building & Personal Property Coverage

CP 00 30

06-07

Business Income Coverage
(&/Ex Exp)

CP 00 90

07-88

Commercial Property Conditions

CP 01 40

07-06

Excl of loss due to virus or
bacteria

CP 04 17

06-07

Utility Services-Direct Damage

CP 04 40

06-07

Spoilage Coverage

CP 10 30

06-07

Causes Of Loss-Special Form

CP 10 32

08-08

Water
ment

Exclusion

Endorse-

App.54a
CP 10 54

06-07

Windstorm Or Hail Exclusion

CP 12 18

06-07

Loss Payable Provisions

CP 15 45

06-07

Utility Services-Time Element

CP 55 04

12-08

Sparta Property Enhancement Endorsement

CP 55 21

03-11

Business Income ChangesTime Period

CP 75 00

06-08

Equipment Breakdown
Coverage

CP 75 DS

05-08

Equipment Breakdown
Coverage Schedule

MAN-PF

01-02

Sewer Or Drain Backup

MAN-PF

01-02

Windstorm Exclusion For
Spoilage

CP 01 25

02-12

Florida Changes

General Liability Forms And Endorsements
GL-DEC

12-01

Comm General Liability
Coverage Supp Dec

GL- SCHED

01-97

Comm General Liability
Coverage Schedule

LIQ-DEC

08-01

Liquor Liability Coverage
Part Dec

CG 00 01

04-13

Commercial General Liability Cov Form

CG 00 33

04-13

Liquor Liability Cov Form
(Occurrence)

CG 21 35

10-01

Excl-Cov C-Medical Payments

App.55a
CG 21 46

07-98

Abuse Or Molestation
Exclusion

CG 21 47

12-07

Employment-Related
Practices Exclusion

CG 21 49

09-99

Total Pollution Excl Endt

CG 21 67

12-04

Fungi Or Bacteria Exclusion

CG 21 75

06-08

Excl Certif Acts Of Terr &
Othr Act O/S

CG 21 96

03-05

Silica Or Silica- Related Dust
Exclusion

CG 02 20

03 - 12

Fl Changes - Cancellation &
Nonrenewal

CG L4 07

01-96

Prod/ Completed Operations
Hazard Redefin

GL 45 01

02-08

Asbestos Exclusion

GL 45 02

02-08

Lead Exclusion

GL 45 05

02-08

Prior
And/Or
Litigation Excl.

GL 55 01

02-08

Amended Additional Insured

Pending

App.56a
SCHEDULE OF LOCATIONS
SPARTA INSURANCE COMPANY
[Policy Number 053CP00228]
________________________
Named Insured: Mama Jo’s Inc. DBA: Berries
Effective Date: 09-19-13
12:01 A.M, Standard Time
Agent Name: PROHOST USA, INC.
Agent No.: 00029
Loc No.

001

Bldg No.

001

Designated Locations
2884 SW 27th Ave, Berries,
(Address, City, State, Miami, FL 33133
Zip Code)
Occupancy

Restaurant

Loc No.

001

Bldg No.

002

Designated Locations
2721 Coconut Ave, Berries,
(Address, City, State, Miami, FL 33133
Zip Code)
Occupancy

Storage

App.57a
COMMON POLICY CONDITIONS
All Coverage Parts included in this policy are
subject to the following conditions.
A.

Cancellation

1. The first Named Insured shown in the Declarations may cancel this policy by mailing or delivering
to us advance written notice of cancellation.
2. We may cancel this policy by mailing or
delivering to the first Named Insured written notice
of cancellation at least:
a.

10 days before the effective date of cancellation if we cancel for nonpayment of premium;
or

b.

30 days before the effective date of cancellation if we cancel for any other reason.

3. We will mail or deliver our notice to the first
Named Insured’s last mailing address known to us.
4. Notice of cancellation will state the effective
date of cancellation. The policy period will end on
that date.
5. If this policy is cancelled, we will send the
first Named Insured any premium refund due. If we
cancel, the refund will be pro rata. If the first Named
Insured cancels, the refund may he less than pro
rata. The cancellation will be effective even if we
have not made or offered a refund.
6. If notice is mailed, proof of mailing will be
sufficient proof of notice.

App.58a
B.

Changes

This policy contains all the agreements between
you and us concerning the insurance afforded. The
first Named Insured shown in the Declarations is
authorized to make changes in the terms of this
policy with our consent. This policy’s terms can be
amended or waived only by endorsement issued by
us and made a part of this policy.
C.

Examination of Your Books and Records

We may examine and audit your books and records
as they relate to this policy at any time during the
policy period and up to three years afterward.
D.

Inspections and Surveys
1. We have the right to:
a.

Make inspections and surveys at any time;

b.

Give you reports on the conditions we find;
and

c.

Recommend changes.

2. We are not obligated to make any inspections,
surveys, reports or recommendations and any such
actions we do undertake relate only to insurability
and the premiums to be charged. We do not make
safety inspections. We do not undertake to perform
the duty of any person or organization to provide for
the health or safety of workers or the public. And we
do not warrant that conditions:
a.

Are safe or healthful; or

b.

Comply with laws, regulations, codes or
standards.

App.59a
3. Paragraphs 1. and 2. of this condition apply
not only to us, but also to any rating, advisory, rate
service or similar organization which makes insurance inspections, surveys, reports or recommendations.
4. Paragraph 2. of this condition does not apply
to any inspections, surveys, reports or recommendations we may make relative to certification, under
state or municipal statutes, ordinances or regulations,
of boilers, pressure vessels or elevators.
E.

Premiums

The first Named Insured shown in the Declarations:

F.

1.

Is responsible for the payment of all
premiums; and

2.

Will be the payee for any return premiums
we pay.

Transfer of Your Rights and Duties Under This
Policy

Your rights and duties under this policy may not
be transferred without our written consent except in
the case of death of an individual named insured.
If you die, your rights and duties will be
transferred to your legal representative but only
while acting within the scope of duties as your legal
representative. Until your legal representative is
appointed, anyone having proper temporary custody
of your property will have your rights and duties but
only with respect to that property.

App.60a
NOTICE TO POLICYHOLDERS
RISK MANAGEMENT PLAN FLORIDA
In accordance with Florida statute, section
627.0625(3), for insurance carriers who offer commercial casualty or commercial property insurance, we
are advising you of your right under this section to
obtain guidelines for risk management plans. Per
Florida statute, this request must be made in writing
to SPARTA Insurance Company.
These guidelines cover safety measures in a
number of areas including:
 Pollution and environmental hazards
 Disease hazards
 Accidental occurrences
 Fire hazards
 Fire prevention and detection
 Liability for acts from the course of business
 Slip and fall hazards
 Product injury
 Hazards unique to a particular class or category of policyholders
Requests in writing can be mailed to:
Loss Control Department
SPARTA Insurance Company
CityPlace II
185 Asylum Street
Hartford, CT 06103

App.61a
COMMERCIAL PROPERTY COVERAGE PART
SUPPLEMENTAL DECLARATIONS
SPARTA INSURANCE COMPANY
[Policy Number 053CP00228]
________________________
Named Insured: Mama Jo’s Inc. DBA: Berries
Effective Date: 09-19-13
12:01 A.M, Standard Time
Agent Name: PROHOST USA, INC.
Agent No.: 00029
Item 1. Business Description: Restaurant
Item 2. Premises Described:
See Schedule of Locations
Item 3. $500 Deductible unless otherwise indicated.
Item 4. Coverage Provided
Loc No.

001

Bldg No.

001

Coverage

Building Joisted Masonry

Limit of Insurance

$500,000

Covered Causes of Loss

Special

Coins.

80
Other Provision

 Replacement Cost
Deductible: 2,500

Exceptions: Wind

App.62a
Loc No.

001

Bldg No.

001

Coverage

Business Pers Pro Joisted Masonry

Limit of Insurance

$300,000

Covered Causes of Loss Special
Coins.

80
Other Provision

 Replacement Cost
Deductible: 2,500

Exceptions: Wind

Loc No.

001

Bldg No.

001

Coverage

Business Income Joisted Masonry

Limit of Insurance

$500,000

Covered Causes of Loss

Special

Other Provision


Business Income Indemnity: Monthly Limit:
1/6

Extended 60 Days

Exceptions: Wind

Item 5. Forms and Endorsemenls
Form(s) and Endorsement(s) made a part of this
policy at time of issue:
See Schedule of Forms and Endorsements

App.63a
COMMERCIAL PROPERTY COVERAGE PART
EXTENSION OF SUPPLEMENTAL
DECLARATIONS
SPARTA INSURANCE COMPANY
[Policy Number 053CP00228]
________________________
Named Insured: Mama Jo’s Inc. DBA: Berries
Effective Date: 09-19-13
12:01 A.M, Standard Time
Agent Name: PROHOST USA, INC.
Agent No.: 00029
Item 4. Coverage Provided
Loc No.

001

Bldg No.

001

Coverage

Spoilage

Limit of Insurance

$25,000

Covered Causes of Loss
Coins.
Other Provision
 Replacement Cost
Deductible: $500
Type: Brkdwn Cont/Pwr Outage

App.64a
Loc No.

001

Bldg No.

002

Coverage

Business Pers Pro Joisted Masonry

Limit of Insurance

$50,000

Covered Causes of Loss

Special

Coins.

80
Other Provision

 Replacement Cost
Deductible: 2,500

Exceptions: Wind

App.65a
BUILDING AND PERSONAL PROPERTY
COVERAGE FORM
COMMERCIAL PROPERTY
CP 00 10 06 07
Various provisions in this policy restrict coverage. Read the entire policy carefully to determine
rights, duties and what is and is not covered.
Throughout this policy the words ‘you” and
‘your” refer to the Named Insured shown in the
Declarations. The words “we”, “us” and “our” refer to
the Company providing this insurance.
Other words and phrases that appear in
quotation marks have special meaning. Refer to
Section H., Definitions.
A.

Coverage

We will pay for direct physical loss of or damage
to Covered Property at the premises described in the
Declarations caused by or resulting from any
Covered Cause of Loss.
1. Covered Properly
Covered Property, as used in this Coverage Part,
means the type of property described in this section,
A.1., and limited in A.2., Property Not Covered, if a
Limit of Insurance is shown in the Declarations for
that type of property.
a.

Building, meaning the building or structure
described in the Declarations, including:
(1) Completed additions;
(2) Fixtures, including outdoor fixtures;

App.66a
(3) Permanently installed:
(a) Machinery and
(b) Equipment;
(4) Personal property owned by you that is
used to maintain or service the
building or structure or its premises,
including:
(a) Fire-extinguishing equipment;
(b) Outdoor furniture;
(c)

Floor coverings; and

(d) Appliances used for refrigerating,
ventilating, cooking, dishwashing
or laundering;
(5) If not covered by other insurance:
(a) Additions
under
construction,
alterations and repairs to the
building or structure;
(b) Materials, equipment, supplies
and temporary structures, on or
within 100 feet of the described
premises, used for making additions, alterations or repairs to the
building or structure.
b.

Your Business Personal Property located in
or on the building described in the
Declarations or in the open (or in a vehicle)
within 100 feet of the described premises,
consisting of the following unless otherwise
specified in the Declarations or on the Your

App.67a
Business Personal Property—Separation Of
Coverage form:
(1) Furniture and fixtures;
(2) Machinery and equipment;
(3) “Stock”;
(4) All other personal property owned by
you and used in your business;
(5) Labor, materials or services furnished
or arranged by you on personal
property of others;
(6) Your use interest as tenant in improvements and betterments. Improvements
and betterments are fixtures, alterations, installations or additions:
(a) Made a part of the building or
structure you occupy but do not
own; and
(b) You acquired or made at your
expense but cannot legally remove;
(7) Leased personal property for which you
have a contractual responsibility to
insure, unless otherwise provided for
under Personal Property of Others.
c. Personal Property of Others that is:
(1) In your care, custody or control; and
(2) Located in or on the building described in
the Declarations or in the open (or in a
vehicle) within 100 feet of the described
premises,

App.68a
However, our payment for loss of or damage to
personal property of others will only be for the
account of the owner of the property.
2. Property Not Covered
Covered Property does not include:
a.

Accounts, bills, currency, food stamps or
other evidences of debt, money, notes or
securities. Lottery tickets held for sale are
not securities;

b.

Animals, unless owned by others and
boarded by you, or if owned by you, only as
“stock” while inside of buildings;

c.

Automobiles held for sale;

d.

Bridges, roadways, walks, patios or other
paved surfaces;

e.

Contraband, or property in the course of
illegal transportation or trade;

f.

The cost of excavations, grading, backfilling
or filling;

g.

Foundations of buildings, structures,
machinery or boilers if their foundations are
below:
(1) lowest basement floor; or
(2) The surface of the ground, if there is no
basement;

h.

Land (including land on which the property
is located), water, growing crops or lawns;

i.

Personal property while airborne or waterborne;

App.69a
j.

Bulkheads, pilings, piers, wharves or docks;

k.

Property that is covered under another
coverage form of this or any other policy in
which it is more specifically described,
except for the excess of the amount due
(whether you can collect on it or not) from
that other insurance;

l.

Retaining walls that are not part of a
building;

m. Underground pipes, flues or drains;
n.

Electronic data, except as provided under
the Additional Coverage, Electronic Data.
Electronic data means information, facts or
computer programs stored as or on, created
or used on, or transmitted to or from
computer software (including systems and
applications software), on hard or floppy
disks, CD-ROMs, tapes, drives, cells, data
processing devices or any other repositories
of computer software which are used with
electronically controlled equipment. The
term computer programs, referred to in the
foregoing description of electronic data,
means a set of related electronic instructions
which direct the operations and functions of a
computer or device connected to it, which
enable the computer or device to receive,
process, store, retrieve or send data. This
paragraph, n., does not apply to your “stock”
of prepackaged software;

o.

The cost to replace or restore the information on valuable papers and records, including
those which exist as electronic data. Valuable

App.70a
papers and records include but are not
limited to proprietary information, books of
account, deeds, manuscripts, abstracts, drawings and card index systems. Refer to the
Coverage Extension for Valuable Papers
And Records (Other Than Electronic Data)
for limited coverage for valuable papers and
records other than those which exist as
electronic data;
p.

Vehicles or self-propelled machines (including aircraft or watercraft) that:
(1) Are licensed for use on public roads; or
(2) Are operated principally away from the
described premises.
This paragraph does not apply to:
(a) Vehicles or self-propelled machines or
autos you manufacture, process or
warehouse;
(b) Vehicles or self-propelled machines,
other than autos, you hold for sale;
(c) Rowboats or canoes out of water at the
described premises; or
(d) Trailers, but only to the extent provided for in the Coverage Extension for
Non-owned Detached Trailers;

q.

The following property while outside of
buildings:
(1) Grain, hay, straw or other crops;
(2) Fences, radio or television antennas
(including satellite dishes) and their

App.71a
lead-in wiring, masts or towers, trees,
shrubs or plants (other than 'stock" of
trees, shrubs or plants), all except as
provided in the Coverage Extensions.
3. Covered Causes of Loss
See applicable Causes of Loss Form as shown in
the Declarations.
4. Additional Coverages
a.

Debits Removal

(1) Subject to Paragraphs (3) and (4), we will
pay your expense to remove debris of
Covered Property caused by or resulting
from a Covered Cause of Loss that occurs
during the policy period. The expenses will
be paid only if they are reported to us in
writing within 180 days of the date of direct
physical loss or damage.
(2) Debris Removal does not apply to costs to:
(a) Extract 'pollutants" from land or water;
or
(b) Remove, restore or replace polluted land
or water.
(3) Subject to the exceptions in Paragraph (4),
the following provisions apply:
(a) The most we will pay for the total of
direct physical loss or damage plus
debris removal expense is the Limit of
Insurance applicable to the Covered
Property that has sustained loss or
damage.

App.72a
(b) Subject to (a) above, the amount we
will pay for debris removal expense is
limited to 25% of the sum of the
deductible plus the amount that we pay
for direct physical loss or damage to the
Covered Property that has sustained
loss or damage.
(4) We will pay up to an additional $10,000 for
debris removal expense, for each location, in
any one occurrence of physical loss or
damage to Covered Property, if one or both
of the following circumstances apply:
(a) The total of the actual debris removal
expense plus the amount we pay for
direct physical loss or damage exceeds
the Limit of Insurance on the Covered
Property that has sustained loss or
damage.
(b) The actual debris removal expense
exceeds 25% of the sum of the
deductible plus the amount that we pay
for direct physical loss or damage to the
Covered Property that has sustained
loss or damage.
Therefore, if (4)(a) and/or (4)(b) apply, our total
payment for direct physical loss or damage and
debris removal expense may reach but will never
exceed the Limit of Insurance on the Covered
Property that has sustained loss or damage, plus
$10,000.

App.73a
(5) Examples
The following examples assume that there is no
Coinsurance penalty.
Limit of Insurance:

$90,000

Amount of Deductible:

$500

Amount of Loss:

$50,000

Amount of Loss Payable:

$49,500
($50,000 -$500)

Debris Removal Expense:

$ 10,000

Debris Removal Expense Payable:

$ 10,000

($10,000is 20% of $50,000.)
The debris removal expense is less than 25% of
the sum of the loss payable plus the deductible. The
sum of the loss payable and the debris removal
expense ($49,500 $10,000 = $59,500) is less than the
Limit of Insurance. Therefore the full amount of
debris removal expense is payable in accordance with
the terms of Paragraph (3).
Example #2
Limit of Insurance:

$90,000

Amount of Deductible:

$500

Amount of Loss:

$80,000

Amount of Loss Payable:

$79,500
($80,000-$500)

Debris Removal Expense:

$30,000

App.74a
Debris Removal Expense Payable
Basic Amount:

$10,500

Additional Amount:

$10,000

The basic amount payable for debris removal
expense under the terms of Paragraph (3) is
calculated as follows: $80,000 ($79,500 + $500) x .25
= $20,000; capped at $10,500. The cap applies
because the sum of the loss payable ($79,500) and
the basic amount payable for debris removal expense
($10,500) cannot exceed the Limit of Insurance
($90,000).
The additional amount payable for debris
removal expense is provided in accordance with the
terms of Paragraph (4), because the debris removal
expense ($30,000) exceeds 25% of the loss payable
plus the deductible ($30,000 is 37.5% of $80,000),
and because the sum of the loss payable and debris
removal expense ($79,500 + $30,000 = $109,500)
would exceed the Limit of Insurance ($90,000). The
additional amount of covered debris removal expense
is $10,000, the maximum payable under Paragraph
(4). Thus the total payable for debris removal
expense in this example is $20,500; $9,500 of the
debris removal expense is not covered.
b.

Preservation of Property

If it is necessary to move Covered Property from
the described premises to preserve it from loss or
damage by a Covered Cause of Loss, we will pay for
any direct physical loss or damage to that property:
(1) While it is being moved or while
temporarily stored at another location; and

App.75a
(2) Only if the loss or damage occurs within 30
days after the property is first moved.
c.

Fire Department Service Charge

When the fire department is called to save or
protect Covered Property from a Covered Cause of
Loss, we will pay up to $1,000, unless a higher limit
is shown in the Declarations, for your liability for fire
department service charges:
(1) Assumed by contract or agreement prior to
loss; or
(2) Required by local ordinance.
No Deductible
Coverage.
d.

applies

to

this

Additional

Pollutant Clean-up and Removal

We will pay your expense to extract “pollutants”
from land or water at the described premises if the
discharge, dispersal, seepage, migration, release or
escape of the “pollutants” is caused by or results from
a Covered Cause of Loss that occurs during the
policy period. The expenses will be paid only if they
are reported to us in writing within 180 days of the
date on which the Covered Cause of Loss occurs.
This Additional Coverage does not apply to costs
to test for, monitor or assess the existence,
concentration or effects of “pollutants”. But we will
pay for testing which is performed in the course of
extracting the “pollutants” from the land or water.
The most we will pay under this Additional
Coverage for each described premises is $10,000 for
the sum of all covered expenses arising out of

App.76a
Covered Causes of Loss occurring during each
separate 12-month period of this policy.
e.

Increased Cost of Construction

(1) This Additional Coverage applies only to
buildings to which the Replacement Cost Optional
Coverage applies.
(2) In the event of damage by a Covered Cause of
Loss to a building that is Covered Property, we will
pay the increased costs incurred to comply with
enforcement of an ordinance or law in the course of
repair, rebuilding or replacement of damaged parts
of that property, subject to the limitations stated in
e.(3) through e.{9) of this Additional Coverage.
(3) The ordinance or law referred to in e.(2) of
this Additional Coverage is an ordinance or law that
regulates the construction or repair of buildings or
establishes zoning or land use requirements at the
described premises, and is in force at the time of loss.
(4) Under this Additional Coverage, we will not
pay any costs due to an ordinance or law that:
(a) You were required to comply with before
the loss, even when the building was
undamaged; and
(b) You failed to comply with.
(5) Under this Additional Coverage, we will not
pay for:
(a) The enforcement of any ordinance or law
which requires demolition, repair, replacement, reconstruction, remodeling or remediation of property due to contamination by
“pollutants” or due to the presence, growth,

App.77a
proliferation, spread or any activity of
“fungus”, wet or dry rot or bacteria; or
(b) Any costs associated with the enforcement
of an ordinance or law which requires any
insured or others to test for, monitor, clean
up, remove, contain, treat, detoxify or
neutralize, or in any way respond to, or
assess the effects of “pollutants”, “fungus”,
wet or dry rot or bacteria.
(6) The most we will pay under this Additional
Coverage, for each described building insured under
this Coverage Form, is $10,000 or 5% of the Limit of
Insurance applicable to that building, whichever is
less. If a damaged building is covered under a
blanket Limit of Insurance which applies to more
than one building or item of property, then the most
we will pay under this Additional Coverage, for that
damaged building, is the lesser of: $10,000 or 5%
times the value of the damaged building as of the
time of loss times the applicable Coinsurance
percentage.
The amount payable under this Additional
Coverage is additional insurance.
(7) With respect to this Additional Coverage:
(a) We will not pay for the Increased Cost of
Construction:
(i)

Until the property is actually repaired
or replaced, at the same or another
premises; and

(ii) Unless the repairs or replacement are
made as soon as reasonably possible
after the loss or damage, not to exceed

App.78a
two years. We may extend this period
in writing during the two years.
(b) If the building is repaired or replaced at the
same premises, or if you elect to rebuild at
another premises, the most we will pay for
the Increased Cost of Construction, subject
to the provisions of e.(6) of this Additional
Coverage, is the increased cost of construction at the same premises.
(c) If the ordinance or law requires relocation
to another premises, the most we will pay
for the Increased Cost of Construction,
subject to the provisions of e.(6) of this
Additional Coverage, is the increased cost of
construction at the new premises.
(8) This Additional Coverage is not subject to the
terms of the Ordinance Or Law Exclusion, to the
extent that such Exclusion would conflict with the
provisions of this Additional Coverage.
(9) The costs addressed in the Loss Payment and
Valuation Conditions, and the Replacement Cost
Optional Coverage, in this Coverage Form, do not
include the increased cost attributable to enforcement of an ordinance or law. The amount payable
under this Additional Coverage, as stated in e.(6) of
this Additional Coverage, is not subject to such
limitation.
f.

Electronic Data

(1) Under this Additional Coverage, electronic
data has the meaning described under Property Not
Covered, Electronic Data.

App.79a
(2) Subject to the provisions of this Additional
Coverage, we will pay for the cost to replace or
restore electronic data which has been destroyed or
corrupted by a Covered Cause of Loss. To the extent
that electronic data is not replaced or restored, the
loss will be valued at the cost of replacement of the
media on which the electronic data was stored, with
blank media of substantially identical type.
(3) The Covered Causes of Loss applicable to
Your Business Personal Property apply to this
Additional Coverage, Electronic Data, subject to the
following:
(a) If the Causes of Loss—Special Form applies,
coverage under this Additional Coverage,
Electronic Data, is limited to the “specified
causes of loss” as defined in that form, and
Collapse as set forth in that form.
(b) If the Causes of Loss—Broad Form applies,
coverage under this Additional Coverage,
Electronic Data, includes Collapse as set
forth in that form.
(c) If the Causes of Loss Form is endorsed to
add a Covered Cause of Loss, the additional
Covered Cause of Loss does not apply to the
coverage provided under this Additional
Coverage, Electronic Data.
(d) The Covered Causes of Loss include a virus,
harmful code or similar instruction
introduced into or enacted on a computer
system (including electronic data) or a
network to which it is connected, designed
to damage or destroy any part of the system
or disrupt its normal operation. But there is

App.80a
no coverage for loss or damage caused by or
resulting from manipulation of a computer
system (including electronic data) by any
employee, including a temporary or leased
employee, or by an entity retained by you or
for you to inspect, design, install, modify,
maintain, repair or replace that system.
(4) The most we will pay under this Additional
Coverage, Electronic Data, is $2,500 for all loss or
damage sustained in any one policy year, regardless
of the number of occurrences of loss or damage or the
number of premises, locations or computer systems
involved. If loss payment on the first occurrence does
not exhaust this amount, then the balance is
available for subsequent loss or damage sustained in
but not after that policy year. Wth respect to an
occurrence which begins in one policy year and
continues or results in additional loss or damage in a
subsequent policy year(s), all loss or damage is
deemed to be sustained in the policy year in which
the occurrence began.
5. Coverage Extensions
Except as otherwise provided, the following
Extensions apply to property located in or on the
building described in the Declarations or in the open
(or in a vehicle) within 100 feet of the described
premises.
If a Coinsurance percentage of 80% or more, or a
Value Reporting period symbol, is shown in the
Declarations, you may extend the insurance provided
by this Coverage Part as follows:

App.81a
a. Newly Acquired or Constructed Property
(1) Buildings
If this policy covers Building, you may
extend that insurance to apply to:
(a) Your new buildings while being built
on the described premises; and
(b) Buildings you acquire at locations,
other than the described premises,
intended for:
(i)

Similar use as the building
described in the Declarations; or

(ii) Use as a warehouse.
The most we will pay for loss or damage under
this Extension is $250,000 at each building.
(2) Your Business Personal Property
(a) If this policy covers Your Business Personal
Property, you may extend that insurance to
apply to:
(i)

Business personal property, including
such property that you newly acquire,
at any location you acquire other than
at fairs, trade shows or exhibitions;

(ii) Business personal property, including
such property that you newly acquire,
located at your newly constructed or
acquired buildings at the location
described in the Declarations; or
(iii) Business personal property that you
newly acquire, located at the described
premises.

App.82a
The most we will pay for loss or damage under
this Extension is $100,000 at each building
(b) This Extension does not apply to:
(i)

Personal property of others that is
temporarily in your possession in the
course of installing or performing work
on such property; or

(ii) Personal property of others that is
temporarily in your possession in the
course of your manufacturing or
wholesaling activities.
(3) Period Of Coverage
With respect to insurance on or at each newly
acquired or constructed property, coverage will end
when any of the following first occurs:
(a) This policy expires;
(b) 30 days expire after you acquire the
property or begin construction of that part
of the building that would qualify as
covered property; or
(c) You report values to us.
We will charge you additional premium for
values reported from the date you acquire the
property or begin construction of that part of the
building that would qualify as covered property.
b. Personal Effects and Property of Others
You may extend the insurance that applies to
Your Business Personal Property to apply to:

App.83a
(1) Personal effects owned by you, your officers,
your partners or members, your managers
or your employees. This Extension does not
apply to loss or damage by theft.
(2) Personal property of others in your care,
custody or control.
The most we will pay for loss or damage under
this Extension is $2,500 at each described premises.
Our payment for loss of or damage to personal
property of others will only be for the account of the
owner of the property.
c. Valuable Papers and Records (Other Than
Electronic Data)
(1) You may extend the insurance that applies to
Your Business Personal Property to apply to the cost
to replace or restore the lost information on valuable
papers and records for which duplicates do not exist.
But this Extension does not apply to valuable papers
and records which exist as electronic data. Electronic
data has the meaning described under Property Not
Covered, Electronic Data.
(2) If the Causes Of Loss—Special Form applies,
coverage under this Extension is limited to the
“specified causes of loss” as defined in that form, and
Collapse as set forth in that form.
(3) If the Causes Of Loss—Broad Form applies,
coverage under this Extension includes Collapse as
set forth in that form.
(4) Under this Extension, the most we will pay to
replace or restore the lost information is $2,500 at
each described premises, unless a higher limit is

App.84a
shown in the Declarations. Such amount is
additional insurance. We will also pay for the cost of
blank material for reproducing the records (whether
or not duplicates exist), and (when there is a
duplicate) for the cost of labor to transcribe or copy
the records. The costs of blank material and labor
are subject to the applicable Limit of Insurance on
Your Business Personal Property and therefore
coverage of such costs is not additional insurance.
d. Property Off-premises
(1) You may extend the insurance provided by
this Coverage Form to apply to your Covered
Property while it is away from the described
premises, if it is:
(a) Temporarily at a location you do not own,
lease or operate;
(b) In storage at a location you lease, provided
the lease was executed after the beginning
of the current policy term; or
(c) At any fair, trade show or exhibition.
(2) This Extension does not apply to property:
(a) In or on a vehicle; or
(b) In the care, custody or control of your
salespersons, unless the property is in such
care, custody or control at a fair, trade show
or exhibition.
(3) The most we will pay for loss or damage
under this Extension is $10,000.

App.85a
e. Outdoor Property
You may extend the insurance provided by this
Coverage Form to apply to your outdoor fences, radio
and television antennas (including satellite dishes),
trees, shrubs and plants (other than “stock” of trees,
shrubs or plants), including debris removal expense,
caused by or resulting from any of the following
causes of loss if they are Covered Causes of Loss:
(1) Fire;
(2) Lightning;
(3) Explosion;
(4) Riot or Civil Commotion; or
(5) Aircraft.
The most we will pay for loss or damage under
this Extension is $1,000, but not more than $250 for
any one tree, shrub or plant. These limits apply to
any one occurrence, regardless of the types or
number of items lost or damaged in that occurrence.
f. Non-owned Detached Trailers
(1) You may extend the insurance that applies to
Your Business Personal Property to apply to loss or
damage to trailers that you do not own, provided
that:
(a) The trailer is used in your business;
(b) The trailer is in your care, custody or
control at the premises described in the
Declarations; and
(c) You have a contractual responsibility to pay
for loss or damage to the trailer.

App.86a
(2) We will not pay for any loss or damage that
occurs:
(a) While the trailer is attached to any motor
vehicle or motorized conveyance, whether or
not the motor vehicle or motorized
conveyance is in motion;
(b) During hitching or unhitching operations,
or when a trailer becomes accidentally
unhitched from a motor vehicle or
motorized conveyance.
(3) The most we will pay for loss or damage
under this Extension is $5,000, unless a higher limit
is shown in the Declarations.
(4) This insurance is excess over the amount due
(whether you can collect on it or not) from any other
insurance covering such property.
Each of these Extensions is additional insurance
unless otherwise indicated. The Additional Condition, Coinsurance, does not apply to these Extensions.
B.

Exclusions and Limitations

See applicable Causes Of Loss Form as shown in
the Declarations.
C.

Units of Insurance

The most we will pay for loss or damage in any
one occurrence is the applicable Unit of Insurance
shown in the Declarations.
The most we will pay for loss or damage to
outdoor signs, whether or not the sign is attached to
a building, is $2,500 per sign in any one occurrence.

App.87a
The amounts of insurance stated in the
following Additional Coverages apply in accordance
with the terms of such coverages and are separate
from the Limit(s) of Insurance shown in the Declarations for any other coverage:
1.

Fire Department Service Charge;

2.

Pollutant Clean-up And Removal;

3.

Increased Cost Of Construction; and

4.

Electronic Data.

Payments under the Preservation Of Property
Additional Coverage will not increase the applicable
Limit of Insurance.
D.

Deductible

In any one occurrence of loss or damage
(hereinafter referred to as loss), we will first reduce
the amount of loss if required by the Coinsurance
Condition or the Agreed Value Optional Coverage. If
the adjusted amount of loss is less than or equal to
the Deductible, we will not pay for that loss. If the
adjusted amount of loss exceeds the Deductible, we
will then subtract the Deductible from the adjusted
amount of loss, and will pay the resulting amount or
the Limit of Insurance, whichever is less.
When the occurrence involves loss to more than
one item of Covered Property and separate Limits of
Insurance apply, the losses will not be combined in
determining application of the Deductible. But the
Deductible will be applied only once per occurrence.

App.88a
Example #1
(This example assumes there is no Coinsurance
penalty.)
Deductible:

$250

Limit of Insurance—Building #1: $60,000
Limit of Insurance—Building #2: $80,000
Loss to Building #1:

$60,100

Loss to Building #2:

$90,000

The amount of loss to Building #1 ($60,100) is
less than the sum ($60,250) of the Limit of Insurance
applicable to Building #1 plus the Deductible.
The Deductible will be subtracted from the
amount of loss in calculating the loss payable for
Building #1:
$60,100
— 250
____________
$ 59,850 Loss Payable -Building #1
The Deductible applies once per occurrence and
therefore is not subtracted in determining the
amount of loss payable for Building #2. Loss payable
for Building #2 is the Limit of Insurance of $80,000.
Total amount of loss payable:
$59,850 + $80,000 = $139,850
Example #2
(This example, too,
Coinsurance penalty.)

assumes

there

is

no

App.89a
The Deductible and Limits of Insurance are the
same as those in Example #1.
Loss to Building #1: $70,000
(Exceeds Limit of Insurance plus Deductible)
Loss to Building #2: $90,00
(Exceeds Limit of Insurance plus Deductible)
Loss Payable—Building #1: $ 60,000
(Limit of Insurance)
Loss Payable—Building #2: $80,000
(Limit of Insurance)
Total amount of loss payable: $ 140,000
E.

Loss Donations

The following conditions apply in addition to the
Common Policy Conditions and the Commercial
Property Conditions.
1. Abandonment
us.

There can be no abandonment of any property to
2. Appraisal

If we and you disagree on the value of the
property or the amount of loss, either may make
written demand for an appraisal of the loss. In this
event, each party will select a competent and
impartial appraiser. The two appraisers will select
an umpire. If they cannot agree, either may request
that selection be made by a judge of a court having
jurisdiction. The appraisers will state separately the
value of the property and amount of loss. If they fail
to agree, they will submit their differences to the

App.90a
umpire. A decision agreed to by any two will be
binding. Each party will:
a.

Pay its chosen appraiser; and

b.

Bear the other expenses of the appraisal
and umpire equally.

If there is an appraisal, we will still retain our
right to deny the claim.
3. Duties In The Event Of Loss Or Damage
a.

You must see that the following are done in
the event of loss or damage to Covered
Property:
(1) Notify the police if a law may have
been broken.
(2) Give us prompt notice of the loss or
damage. Include a description of the
property involved.
(3) As soon as possible, give us a
description of how, when and where the
loss or damage occurred.
(4) Take all reasonable steps to protect the
Covered Property from further damage,
and keep a record of your expenses necessary to protect the Covered Property,
for consideration in the settlement of
the claim. This will not increase the
Limit of Insurance. However, we will
not pay for any subsequent loss or
damage resulting from a cause of loss
that is not a Covered Cause of Loss.
Also, if feasible, set the damaged

App.91a
property aside and in the best possible
order for examination.
(5) At our request, give us complete inventories of the damaged and undamaged
property. Include quantities, costs, values
and amount of loss claimed.
(6) As often as may be reasonably required,
permit us to inspect the property
proving the loss or damage and examine
your books and records.
Also permit us to take samples of
damaged and undamaged property for
inspection, testing and analysis, and
permit us to make copies from your
books and records.
(7) Send us a signed, sworn proof of loss
containing the information we request
to investigate the claim. You must do
this within 60 days after our request.
We will supply you with the necessary
forms.
(8) Cooperate with us in the investigation
or settlement of the claim.
b.

We may examine any insured under oath,
while not in the presence of any other insured
and at such times as may be reasonably
required, about any matter relating to this
insurance or the claim, including an insured’s
books and records. In the event of an examination, an insured’s answers must be signed.

App.92a
4. Loss Payment
a. In the event of loss or damage covered by this
Coverage Form, at our option, we will either:
(1) Pay the value of lost or damaged property;
(2) Pay the cost of repairing or replacing the
lost or damaged property, subject to b.
below;
(3) Take all or any part of the property at an
agreed or appraised value; or
(4) Repair, rebuild or replace the property with
other property of like kind and quality,
subject to b. below.
We will determine the value of lost or damaged
property, or the cost of its repair or replacement,
in accordance with the applicable terms of the
Valuation Condition in this Coverage Form or
any applicable provision which amends or
supersedes the Valuation Condition.
b. The cost to repair, rebuild or replace does not
include the increased cost attributable to enforcement
of any ordinance or law regulating the construction,
use or repair of any property.
c. We will give notice of our intentions within 30
days after we receive the sworn proof of loss.
d. We will not pay you more than your financial
interest in the Covered Property.
e. We may adjust losses with the owners of lost
or damaged property if other than you. If we pay the
owners, such payments will satisfy your claims
against us for the owners’ property. We will not pay

App.93a
the owners more than their financial interest in the
Covered Property.
f. We may elect to defend you against suits
arising from claims of owners of property. We will do
this at our expense.
g. We will pay for covered loss or damage within
30 days after we receive the sworn proof of loss, if
you have complied with all of the terms of this
Coverage Part and:
(1) We have reached agreement with you on
the amount of loss; or
(2) An appraisal award has been made.
h. A party wall is a wall that separates and is
common to adjoining buildings that are owned by
different parties. In settling covered losses involving
a party wall, we will pay a proportion of the loss to
the party wall based on your interest in the wall in
proportion to the interest of the owner of the
adjoining building. However, if you elect to repair or
replace your building and the owner of the adjoining
building elects not to repair or replace that building,
we will pay you the full value of the loss to the party
wall, subject to all applicable policy provisions
including Limits of Insurance, the Valuation and
Coinsurance Conditions and all other provisions of
this Loss Payment Condition. Our payment under
the provisions of this paragraph does not alter any
right of subrogation we may have against any entity,
including the owner or insurer of the adjoining
building, and does not alter the terms of the Transfer
Of Rights Of Recovery Against Others To Us
Condition in this policy.

App.94a
5. Recovered Property
If either you or we recover any property after
loss settlement, that party must give the other
prompt notice. At your option, the property will be
returned to you. You must then return to us the
amount we paid to you for the property. We will pay
recovery expenses and the expenses to repair the
recovered property, subject to the Limit of Insurance.
6. Vacancy
a. Description of Terms
(1) As used in this Vacancy Condition, the term
building and the term vacant have the
meanings set forth in (1)(a) and (1)(b)
below:
(a) When this policy is issued to a tenant,
and with respect to that tenant’s
interest in Covered Property, building
means the unit or suite rented or
leased to the tenant. Such building is
vacant when it does not contain enough
business personal property to conduct
customary operations.
(b) When this policy is issued to the owner
or general lessee of a building, building
means the entire building. Such
building is vacant unless at least 31%
of its total square footage is
(i)

Rented to a lessee or sub-lessee
and used by the lessee or sublessee
to conduct its customary operations; and/or

App.95a
(ii) Used by the building owner to
conduct customary operations.
(2) Buildings under construction or renova-tion
are not considered vacant.
b. Vacancy Provisions
If the building where loss or damage occurs has
been vacant for more than 60 consecutive days before
that loss or damage occurs:
(1) We will not pay for any loss or damage
caused by any of the following even if they
are Covered Causes of Loss:
(a) Vandalism;
(b) Sprinkler leakage, unless you have
protected the system against freezing;
(c) Building glass breakage;
(d) Water damage;
(e) Theft; or
(f)

Attempted theft.

(2) With respect to Covered Causes of Loss
other than those listed in b.(1)(a) through
b.(1)(f) above, we will reduce the amount we
would otherwise pay for the loss or damage
by 15%.
7. Valuation
We will determine the value of Covered Property
in the event of loss or damage as follows:

App.96a
a.

At actual cash value as of the time of loss or
damage, except as provided in b., c., d. and
e. below.

b.

If the Limit of Insurance for Building
satisfies the Additional Condition, Coinsurance, and the cost to repair or replace the
damaged building property is $2,500 or less,
we will pay the cost of building repairs or
replacement.

The cost of building repairs or replacement does
not include the increased cost attributable to
enforcement of any ordinance or law regulating the
construction, use or repair of any property.
However, the following property will be valued
at the actual cash value even when attached to the
building:
(1) Awnings or floor coverings;
(2) Appliances for refrigerating, ventilating, cooking, dishwashing or laundering;
or
(3) Outdoor equipment or furniture.
c.

“Stock” you have sold but not delivered at the
selling price less discounts and expenses
you otherwise would have had.

d.

Glass at the cost of replacement with safetyglazing material if required by law.

e.

Tenants’ Improvements and Betterments
at:
(1) Actual cash value of the lost or damaged
property if you make repairs promptly.

App.97a
(2) A proportion of your original cost if you
do not make repairs promptly. We will
determine the proportionate value as
follows:
(a) Multiply the original cost by the
number of days from the loss or
damage to the expiration of the
lease; and
(b) Divide the amount determined in
(a) above by the number of days
from the installation of improvements to the expiration of the lease.
If your lease contains a renewal option,
the expiration of the renewal option
period will replace the expiration of the
lease in this procedure.
(3) Nothing if others pay for repairs or
replacement.
F.

Additional Conditions

The following conditions apply in addition to the
Common Policy Conditions and the Commercial
Property Conditions.
1. Coinsurance
If a Coinsurance percentage is shown in the
Declarations, the following condition applies.
a.

We will not pay the full amount of any foss
if the value of Covered Property at the time
of loss times the Coinsurance percentage
shown for it in the Declarations is greater

App.98a
than the Limit of Insurance for the
property.
Instead, we will determine the most we will
pay using the following steps:
(1) Multiply the value of Covered Property
at the time of loss by the Coinsurance
percentage;
(2) Divide the Limit of Insurance of the
property by the figure determined in
Step (1);
(3) Multiply the total amount of loss,
before
the
application
of
any
deductible, by the figure determined in
Step (2); and
(4) Subtract the deductible from the figure
determined in Step (3).
We will pay the amount determined in Step (4)
or the limit of insurance, whichever is less. For the
remainder, you will either have to rely on other
insurance or absorb the loss yourself.
Example #1 (Underinsurance)
When:
The value of the property is:

$ 250,000

The Coinsurance percentage for it is: 80%
The Limit of Insurance for it is:

$ 100,000

The Deductible is:

$ 250

Step (1): $250,000 x 80% = $200,000
(the minimum amount of insurance to meet your
Coinsurance requirements)

App.99a
Step (2): $100,000 + $200,000 = .50
Step (3): $40,000 x .50 = $20,000
Step (4): $20,000 -$250 = $19,750
We will pay no more than $19,750. The
remaining $20,250 is not covered.
Example #2 (Adequate Insurance)
When:
The value of the property is:

$ 250,000

The Coinsurance percentage for it is: 80%
The Limit of Insurance for it is:

$ 200,000

The Deductible is:

$250

The amount of loss is:

$40,000

The minimum amount of insurance to meet your
Coinsurance requirement is $200,000 ($250,000 x
80%). Therefore, the Limit of Insurance in this
example is adequate and no penalty applies. We will
pay no more than $39,750 ($40,000 amount of loss
minus the deductible of $250).
b.

If one Limit of Insurance applies to two or
more separate items, this condition will
apply to the total of all property to which
the limit applies.
Example #3

When:
The value of the property is:
Building at Location #1:

$75,000

Building at Location #2:

$100,000

App.100a
Personal Property at Location #2: $75,000
_________
$250,000
The Coinsurance percentage for it is: 90%
The Limit of Insurance for
Buildings and Personal Property
at Locations #1 and #2 is:

$180,000

The Deductible is:

$1,000

The amount of loss is:
Building at Location #2:

$30,000

Personal Property at Location #2:

$20,000
_________
$ 50,000

Step (1): $250,000 x 90% = $225,000
(the minimum amount of insurance to meet
your Coinsurance requirements and to avoid
the penalty shown below)
Step (2): $180,000 = $225,000 = .80
Step (3): $50,000 x .80 = $40,000
Step (4): $40,000—$1,000 = $39,000
We will pay no more than $39,000. The
remaining $11,000 is not covered.
2. Mortgageholders
a.

The term mortgageholder includes trustee.

b.

We will pay for covered loss of or damage to
buildings
or
structures
to
each
mortgageholder shown in the Declarations

App.101a
in their order of precedence, as interests
may appear.
c.

The mortgageholder has the right to receive
loss payment even if the mortgageholder
has started foreclosure or similar action on
the building or structure.

d.

If we deny your claim because of your acts
or because you have failed to comply with
the terms of this Coverage Part, the
mortgageholder will still have the right to
receive loss payment if the mortgageholder:
(1) Pays any premium due under this
Coverage Part at our request if you
have failed to do so;
(2) Submits a signed, sworn proof of loss
within 60 days after receiving notice
from us of your failure to do so; and
(3) Has notified us of any change in
ownership, occupancy or substantial
change in risk known to the
mortgageholder.
All of the terms of this Coverage Part will
then apply directly to the mortgageholder.

e.

If we pay the mortgageholder for any loss or
damage and deny payment to you because
of your acts or because you have failed to
comply with the terms of this Coverage
Part:
(1) The mortgageholder’s rights under the
mortgage will be transferred to us to
the extent of the amount we pay; and

App.102a
(2) The mortgageholder’s right to recover
the full amount of the mortgageholder’s
claim will not be impaired.
At our option, we may pay to the mortgageholder the whole principal on the mortgage
plus any accrued interest. In this event,
your mortgage and note will be transferred
to us and you will pay your remaining
mortgage debt to us.
f.

If we cancel this policy, we will give written
notice to the mortgageholder at least:
(1) 10 days before the effective date of
cancellation it we cancel for your
nonpayment of premium; or
(2) 30 days before the effective date of
cancellation if we cancel for any other
reason.

g.

G.

If we elect not to renew this policy, we will
give written notice to the mortgageholder at
least 10 days before the expiration date of
this policy.

Optional Coverages

If shown as applicable in the Declarations, the
following Optional Coverages apply separately to
each item.
1. Agreed Value
(a) The Additional Condition, Coinsurance,
does not apply to Covered Property to which
this Optional Coverage applies. We will pay
no more for loss of or damage to that

App.103a
property than the proportion that the Unit
of Insurance under this Coverage Part for
the property bears to the Agreed Value
shown for it in the Declarations.
(b) If the expiration date for this Optional
Coverage shown in the Declarations is not
extended, the Additional Condition, Coinsurance, is reinstated and this Optional Coverage
expires.
(c) The terms of this Optional Coverage apply
only to loss or damage that occurs:
(1) On or after the effective dale of this
Optional Coverage; and
(2) Before the Agreed Value expiration
date shown in the Declarations or the
policy expiration date, whichever
occurs first.
2. Inflation Guard
a.

The Limit of Insurance for property to
which this Optional Coverage applied will
automatically increase by the annual
percentage shown in the Declarations.

b.

The amount of increase will be:
(1) The Limit of Insurance that applied on
the most recent of the policy inception
date, the policy anniversary date, or
any other policy change amending the
Limit of Insurance, times
(2) The percentage of annual increase
shown in the Declarations, expressed
as a decimal (example: 8% is .08), times

App.104a
(3) The number of days since the
beginning of the current policy year or
the effective date of the most recent
policy change amending the Limit of
Insurance, divided by 365.
Example
If:
The applicable Unit of Insurance is: $100,000
The annual percentage increase is:

8%

The number of days since the
beginning of the policy year
(or last policy change) is:

146

The amount of increase is:
$100,000 x .08 x 146 365 =

$ 3,200

3. Replacement Cost
a.

Replacement Cost (without deduction for
depreciation) replaces Actual Cash Value in
the Valuation Loss Condition of this
Coverage Form.

b.

This Optional Coverage does not apply to:
(1) Personal property of others;
(2) Contents of a residence;
(3) Works of art, antiques or rare articles,
including etchings, pictures, statuary,
marbles, bronzes, porcelains and bric-abrac; or
(4) “Stock”, unless the Including “Stock”
option is shown in the Declarations.

App.105a
Under the terms of this Replacement
Cost Optional Coverage, tenants’
improvements and betterments are not
considered to be the personal property
of others.
c.

You may make a claim for loss or damage
covered by this insurance on an actual cash
value basis instead of on a replacement cost
basis. In the event you elect to have loss or
damage settled on an actual cash value
basis, you may still make a claim for the
additional coverage this Optional Coverage
provides if you notify us of your intent to do
so within 180 days after the loss or damage.

d.

We will not pay on a replacement cost basis
for any loss or damage:
(1) Until the lost or damaged property is
actually repaired or replaced; and
(2) Unless the repairs or replacement are
made as soon as reasonably possible
after the loss or damage.
With respect to tenants' improvements and
betterments, the following also apply:
(3) If the conditions in d.(1) and d.(2) above
are not met, the value of tenants'
improvements and betterments will be
determined as a proportion of your
original cost, as set forth in the
Valuation Loss Condition of this
Coverage Form; and
(4) We will not pay for loss or damage to
tenants' improvements and better-

App.106a
ments if others pay for repairs or
replacement.
e.

We will not pay more for loss or damage on
a replacement cost basis than the least of
(1), (2) or (3), subject to f. below:
(1) The Limit of Insurance applicable to
the lost or damaged property;
(2) The cost to replace the lost or damaged
property with other property:
(a) Of comparable
quality; and

material

and

(b) Used for the same purpose; or
(3) The amount actually spent that is
necessary to repair or replace the lost
or damaged property.
If a building is rebuilt at a new premises,
the cost described in e.(2) above is limited to
the cost which would have been incurred if
the building had been rebuilt at the original
premises.
f.

The cost of repair or replacement does not
include the increased cost attributable to
enforcement of any ordinance or law
regulating the construction, use or

4. Extension of Replacement Cost to Personal
Property of Others
a.

If the Replacement Cost Optional Coverage
is shown as applicable in the Declarations,
then this Extension may also be shown as
applicable, If the Declarations show this

App.107a
Extension as applicable, then Paragraph
3.b.(1) of the Replacement Cost Optional
Coverage is deleted and all other provisions
of the Replacement Cost Optional Coverage
apply to replacement cost on personal
property of others.
b.

With respect to replacement cost on the
personal property of others, the following
limitation applies:
If an item(s) of personal property of others
is subject to a written contract which
governs your liability for loss or damage to
that item(s), then valuation of that item(s)
will be based on the amount for which you
are liable under such contract, but not to
exceed the lesser of the replacement cost of
the property or the applicable Limit of
Insurance.

H. Definitions
1. “Fungus” means any type or form of fungus,
including mold or mildew, and any mycotoxins,
spores, scents or by-products produced or released by
fungi.
2. “Pollutants” means any solid, liquid, gaseous
or thermal irritant or contaminant, including smoke,
vapor, soot, fumes, acids, alkalis, chemicals and
waste. Waste includes materials to be recycled,
reconditioned or reclaimed.
3. “Stock” means merchandise held in storage or
for sale, raw materials and in-process or finished
goods, including supplies used in their packing or
shipping.

App.108a
BUSINESS INCOME (AND EXTRA EXPENSE)
COVERAGE FORM
Commercial Property
CP 00 30 06 07
________________________
Various provisions in this policy restrict coverage. Read the entire policy carefully to determine
rights, duties and what is and is not covered.
Various provisions in this policy restrict coverage. Read the entire policy carefully to determine
rights, duties and what is and is not covered.
Throughout this policy the words ‘you” and
‘your” refer to the Named Insured shown in the
Declarations. The words ‘We”, “us” and “our” refer to
the Company providing this insurance.
Other words and phrases that appear in quotation marks have special meaning. Refer to Section F.,
Definitions.
A.

Coverage
1. Business Income
Business Income means the:
a.

Net Income (Net Profit or Loss before
income taxes) that would have been earned
or incurred; and

b.

Continuing normal operating
incurred, including payroll.

expenses

For manufacturing risks, Net Income
includes the net sales value of production.

App.109a
Coverage is provided as described and
limited below for one or more of the
following options for which a Limit of
Insurance is shown in the Declarations:
(1) Business Income Including “Rental
Value”.
(2) Business Income Other Than “Rental
Value”.
(3) “Rental Value”.
If option (1) above is selected, the term Business
Income will include ‘Rental Value”. If option (3)
above is selected, the term Business Income will
mean ‘Rental Value” only.
If Limits of Insurance are shown under more
than one of the above options, the provisions of this
Coverage Part apply separately to each.
We will pay for the actual loss of Business Income
you sustain due to the necessary “suspension” of your
“operations” during the “period of restoration”. The
“suspension” must be caused by direct physical loss
of or damage to property at premises which are
described in the Declarations and for which a Business
Income Limit of Insurance is shown in the Declarations. The loss or damage must be caused by or
result from a Covered Cause of Loss. With respect to
loss of or damage to personal property in the open or
personal property in a vehicle, the described premises
include the area within 100 feet of the site at which
the described premises are located.
With respect to the requirements set forth in
the preceding paragraph, if you occupy only part of

App.110a
the site at which the described premises are located,
your premises means:
(a) The portion of the building which you rent,
lease or occupy; and
(b) Any area within the building or on the site
at which the described premises are located,
if that area services, or is used to gain
access to, the described premises.
2. Extra Expense
a. Extra Expense Coverage is provided at the
premises described in the Declarations only if the
Declarations show that Business Income Coverage
applies at that premises.
b. Extra Expense means necessary expenses you
incur during the “period of restoration” that you
would not have incurred if there had been no direct
physical loss or damage to property caused by or
resulting from a Covered Cause of Loss.
We will pay Extra Expense (other than the
expense to repair or replace property) to:
(1) Avoid or minimize the “suspension” of
business and to continue operations at the
described premises or at replacement
premises or temporary locations, including
relocation expenses and costs to equip and
operate the replacement location or temporary location.
(2) Minimize the ‘‘suspension” of business if
you cannot continue “operations”.
We will also pay Extra Expense to repair or
replace property, but only to the extent it reduces the

App.111a
amount of loss that otherwise would have been
payable under this Coverage Form.
3. Covered Causes of Loss, Exclusions and
Limitations
See applicable Causes of Loss Form as shown in
the Declarations.
4. Additional
Limitation—Interruption
Computer Operations

of

a. Coverage for Business Income does not apply
when a “Suspension” of “operations” is caused by
destruction or corruption of electronic data, or any
loss or damage to electronic data, except as provided
under the Additional Coverage—Interruption of
Computer Operations.
b. Coverage for Extra Expense does not apply
when action is taken to avoid or minimize a ‘Suspension” of “operations” caused by destruction or
corruption of electronic data, or any loss or damage
to electronic data, except as provided under the
Additional Coverage—Interruption of Computer
Operations.
c. Electronic data means information, facts or
computer programs stored as or on, created or used
on, or transmitted to or from computer software
(including systems and applications software), on
hard or floppy disks, CD-ROMs, tapes, drives, cells,
data processing devices or any other repositories of
computer software which are used with electronically
controlled equipment. The term computer programs,
referred to in the foregoing description of electronic
data, means a set of related electronic instructions

App.112a
which direct the operations and functions of a
computer or device connected to it, which enable the
computer or device to receive, process, store, retrieve
or send data.
5. Additional Coverages
a. Civil Authority
In this Additional Coverage—Civil Authority,
the described premises are premises to which this
Coverage Form applies, as shown in the
Declarations.
When a Covered Cause of Loss causes damage
to property other than property at the described
premises, we will pay for the actual loss of Business
Income you sustain and necessary Extra Expense
caused by action of civil authority that prohibits
access to the described premises, provided that both
of the following apply:
(1) Access to the area immediately surrounding
the damaged property is prohibited by civil
authority as a result of the damage, and the
described premises are within that area but
are not more than one mile from the
damaged property; and
(2) The action of civil authority is taken in
response to dangerous physical conditions
resulting from the damage or continuation
of the Covered Cause of Loss that caused
the damage, or the action is taken to enable
a civil authority to have unimpeded access
to the damaged property.

App.113a
Civil Authority Coverage for Business Income
will begin 72 hours after the time of the first action
of civil authority that prohibits access to the
described premises and will apply for a period of up
to four consecutive weeks from the date on which
such coverage began.
Civil Authority Coverage for Extra Expense will
begin immediately after the time of the first action of
civil authority that prohibits access to the described
premises and will end:
(1) Four consecutive weeks after the dale of
that action; or
(2) When your Civil Authority Coverage for
Business Income ends; whichever is later.
b. Alterations and New Buildings
We will pay for the actual loss of Business
Income you sustain and necessary Extra Expense
you incur due to direct physical loss or damage at the
described premises caused by or resulting from any
Covered Cause of Loss to:
(1) New buildings or structures, whether complete or under construction;
(2) Alterations or additions to existing buildings or structures; and
(3) Machinery, equipment, supplies or building
materials located on or within 100 feet of
the described premises and:
(a) Used in the construction, alterations or
additions; or

App.114a
(b) Incidental to the occupancy of new
buildings.
If such direct physical loss or damage delays the
start of “operations”, the “period of restoration” for
Business Income Coverage will begin on the date
“operations” would have begun if the direct physical
loss or damage had not occurred.
c. Extended Business Income
(1) Business Income
“Rental Value”

Other

Than

If the necessary “suspension” of your
“operations” produces a Business Income loss
payable under this policy, we will pay for the actual
loss of Business Income you incur during the period
that:
(a) Begins on the date property (except
“finished stock”) is actually repaired, rebuilt
or replaced and “operations” are resumed;
and
(b) Ends on the earlier of:
(i)

The date you could restore your
“operations”, with reasonable speed, to
the level which would generate the
business income amount that would
have existed if no direct physical loss or
damage had occurred; or

(ii) 30 consecutive days after the date
determined in (1)(a) above.
However, Extended Business Income does not
apply to loss of Business Income incurred as a result

App.115a
of unfavorable business conditions caused by the
impact of the Covered Cause of Loss in the area
where the described premises are located.
Loss of Business Income must be caused by
direct physical loss or damage at the described
premises caused by or resulting from any Covered
Cause of Loss.
(2) “Rental Value”
If the necessary “suspension” of your
“operations” produces a “Rental Value” loss payable
under this policy, we will pay for the actual loss of
‘Rental Value” you incur during the period that:
(a) Begins on the date property is actually
repaired, rebuilt or replaced and tenantability is restored; and
(b) Ends on the earlier of:
(i)

The date you could restore tenant
occupancy, with reasonable speed, to
the level which would generate the
“Rental Value” that would have existed
if no direct physical loss or damage had
occurred; or

(ii) 30 consecutive days after the date
determined in (2)(a) above.
However, Extended Business Income does not
apply to loss of “Rental Value” incurred as a result of
unfavorable business conditions caused by the
impact of the Covered Cause of Loss in the area
where the described premises are located.
Loss of “Rental Value” must be caused by direct
physical loss or damage at the described premises

App.116a
caused by or resulting from any Covered Cause of
Loss.
d. Interruption of Computer Operations
(1) Under this Additional Coverage, electronic
data has the meaning described under Additional
Limitation—Interruption of Computer Operations.
(2) Subject to all provisions of this Additional
Coverage, you may extend the insurance that applies
to Business Income and Extra Expense to apply to a
“suspension” of “operations” caused by an
interruption in computer operations due to
destruction or corruption of electronic data due to a
Covered Cause of Loss.
(3) With respect to the coverage provided under
this Additional Coverage, the Covered Causes of Loss
are subject to the following:
(a) If the Causes of Loss—Special Form applies,
coverage under this Additional Coverage—
Interruption of Computer Operations is
limited to the "specified causes of loss" as
defined in that form, and Collapse as set
forth in that form.
(b) If the Causes of Loss—Broad Form applies,
coverage under this Additional Coverage—
Interruption of Computer Operations
includes Collapse as set forth in that form.
(c) If the Causes of Loss Form is endorsed to
add a Covered Cause of Loss, the additional
Covered Cause of Loss does not apply to the
coverage provided under this Additional

App.117a
Coverage—Interruption of Computer Operations.
(d) The Covered Causes of Loss include a virus,
harmful code or similar instruction introduced into or enacted on a computer system
(including electronic data) or a network to
which it is connected, designed to damage
or destroy any part of the system or disrupt
its normal operation. But there is no coverage
for an interruption related to manipulation
of a computer system (including electronic
data) by any employee, including a temporary
or leased employee, or by an entity retained
by you or for you to inspect, design, install,
maintain, repair or replace that system.
(e) The most we will pay under this Additional
Coverage—Interruption of Computer Operations is $2,500 for all loss sustained and
expense incurred in any one policy year,
regardless of the number of interruptions or
the number of premises, locations or
computer systems involved. If loss payment
relating to the first interruption does not
exhaust this amount, then the balance is
available for loss or expense sustained or
incurred as a result of subsequent interruptions in that policy year. A balance remaining
at the end of a policy year does not increase
the amount of insurance in the next policy
year. With respect to any interruption which
begins in one policy year and continues or
results in additional loss or expense in a
subsequent policy year(s), all loss and
expense is deemed to be sustained or

App.118a
incurred in the policy year in which the
interruption began.
(5) This Additional Coverage—Interruption in
Computer Operations does not apply to loss
sustained or expense incurred after the end of the
“period of restoration”, even if the amount of
insurance stated in (4) above has not been
exhausted.
6. Coverage Extension
If a Coinsurance percentage of 50% or more is
shown in the Declarations, you may extend the
insurance provided by this Coverage Part as follows:
NEWLY ACQUIRED LOCATIONS
a. You may extend your Business Income and
Extra Expense Coverages to apply to property at any
location you acquire other than fairs or exhibitions.
b. The most we will pay under this Extension,
for the sum of Business Income loss and Extra
Expense incurred, is $100,000 at each location.
c. Insurance under this Extension for each
newly acquired location will end when any of the
following first occurs:
(1) This policy expires;
(2) 30 days expire after you acquire or begin to
construct the property; or
(3) You report values to us.
We will charge you additional premium for
values reported from the date you acquire
the property.

App.119a
The Additional Condition, Coinsurance, does not
apply to this Extension.
B.

Units of Insurance

The most we will pay for loss in any one
occurrence is the applicable Limit of Insurance
shown in the Declarations.
Payments under the following coverages will not
increase the applicable Limit of Insurance:
1. Alterations and New Buildings;
2. Civil Authority;
3. Extra Expense; or
4. Extended Business Income.
The amounts of insurance stated in the
Interruption of Computer Operations Additional
Coverage and the Newly Acquired Locations
Coverage Extension apply in accordance with the
terms of those coverages and are separate from the
Limit(s) of Insurance shown in the Declarations for
any other coverage.
C.

Loss Conditions

The following conditions apply in addition to the
Common Policy Conditions and the Commercial
Property Conditions.
1. Appraisal
If we and you disagree on the amount of Net
Income and operating expense or the amount of loss,
either may make written demand for an appraisal of
the loss. In this event, each party will select a
competent and impartial appraiser.

App.120a
The two appraisers will select an umpire. If they
cannot agree, either may request that selection be
made by a judge of a court having jurisdiction. The
appraisers will state separately the amount of Net
Income and operating expense or amount of loss. If
they fail to agree, they will submit their differences
to the umpire. A decision agreed to by any two will
be binding. Each party will:
a.

Pay its chosen appraiser; and

b.

Bear the other expenses of the appraisal
and umpire equally.

If there is an appraisal, we will still retain our
right to deny the claim.
2. Duties in The Event Of Loss
a.

You must see that the following are done in
the event of loss:
(1) Notify the police if a law may have
been broken.
(2) Give us prompt notice of the direct
physical loss or damage. Include a
description of the property involved.
(3) As soon as possible, give us a
description of how, when, and where
the direct physical loss or damage
occurred.
(4) Take all reasonable steps to protect the
Covered Property from further damage,
and keep a record of your expenses
necessary to protect the Covered Property, for consideration in the settlement
of the claim. This will not increase the

App.121a
Limit of Insurance. However, we will
not pay for any subsequent loss or
damage resulting from a cause of loss
that is not a Covered Cause of Loss.
Also, if feasible, set the damaged
property aside and in the best possible
order for examination.
(5) As often as may be reasonably
required, permit us to inspect the
property proving the loss or damage
and examine your books and records.
Also permit us to take samples of
damaged and undamaged property for
inspection, testing and analysis, and
permit us to make copies from your
books and records.
(6) Send us a signed, sworn proof of loss
containing the information we request
to investigate the claim. You must do
this within 60 days after our request.
We will supply you with the necessary
forms.
(7) Cooperate with us in the investigation
or settlement of the claim.
(8) If you intend to continue your business,
you must resume all or part of your
“operations” as quickly as possible.
b.

We may examine any insured under oath,
while not in the presence of any other
insured and at such times as may be
reasonably required, about any matter
relating to this insurance or the claim,

App.122a
including an insured’s books and records. In
the event of an examination, an insured’s
answers must be signed.
3. Loss Determination
a. The amount of Business Income loss will be
determined based on:
(1) The Net Income of the business before the
direct physical loss or damage occurred;
(2) The likely Net Income of the business if no
physical loss or damage had occurred, but
not including any Net Income that would
likely have been earned as a result of an
increase in the volume of business due to
favorable business conditions caused by the
impact of the Covered Cause of Loss on
customers or on other businesses;
(3) The operating expenses, including payroll
expenses, necessary to resume “operations”
with the same quality of service that existed
just before the direct physical loss or
damage; and
(4) Other relevant sources of information,
including:
(a) Your financial records and accounting
procedures;
(b) Bills, invoices and other vouchers; and
(c) Deeds, liens or contracts.
b. The amount of Extra Expense will be
determined based on:

App.123a
(1) All expenses that exceed the normal
operating expenses that would have been
incurred by “operations” during the “period
of restoration” if no direct physical loss or
damage had occurred. We will deduct from
the total of such expenses:
(a) The salvage value that remains of any
property bought for temporary use
during the “period of restoration”, once
“operations” are resumed; and
(b) Any Extra Expense that is paid for by
other insurance, except for insurance
that is written subject to the same
plan, terms, conditions and provisions
as this insurance; and
(2) Necessary expenses that reduce the
Business Income loss that otherwise would
have been incurred.
c. Resumption Of Operations
We will reduce the amount of your:
(1) Business Income loss, other than Extra
Expense, to the extent you can resume your
“operations”, in whole or in part, by using
damaged or undamaged property (including
merchandise or stock) at the described
premises or elsewhere.
(2) Extra Expense loss to the extent you can
return “operations” to normal and
discontinue such Extra Expense.
d. If you do not resume “operations”, or do not
resume “operations” as quickly as possible, we will

App.124a
pay based on the length of time it would have taken
to resume “operations” as quickly as possible.
4. Loss Payment
We will pay for covered loss within 30 days after
we receive the sworn proof of loss, if you have
complied with all of the terms of this Coverage Part
and:

D.

a.

We have reached agreement with you on
the amount of loss; or

b.

An appraisal award has been made.

Additional Condition
COINSURANCE

If a Coinsurance percentage is shown in the
Declarations, the following condition applies in
addition to the Common Policy Conditions and the
Commercial Property Conditions.
We will not pay the full amount of any Business
Income loss if the Limit of Insurance for Business
Income is less than:
1.

The Coinsurance percentage shown for
Business Income in the Declarations; times

2.

The sum of:
(a) The Net Income (Net Profit or Loss
before income taxes), and
b.

Operating expenses, including payroll
expenses, that would have been earned
or incurred (had no loss occurred) by
your “operations” at the described
premises for the 12 months following

App.125a
the inception, or last previous anniversary dale, of this policy (whichever is
later).
Instead, we will determine the most we will pay
using the following steps:
Step (1):
Multiply the Net Income and operating
expense for the 12 months following the
inception, or last previous anniversary date,
of this policy by the Coinsurance percentage;
Step (2):
Divide the Limit of Insurance for the
described premises by the figure determined in Step (1); and
Step (3):
Multiply the total amount of loss by the
figure determined in Step (2).
We will pay the amount determined in Step (3)
or the limit of insurance, whichever is less. For the
remainder, you will either have to rely on other
insurance or absorb the loss yourself.
In determining operating expenses for the
purpose of applying the Coinsurance condition, the
following expenses, if applicable, shall be deducted
from the total of all operating expenses:
(1) Prepaid freight—outgoing;
(2) Returns and allowances;
(3) Discounts;

App.126a
(4) Bad debts;
(5) Collection expenses;
(6) Cost of raw stock and factory supplies
consumed (including transportation charges);
(7) Cost of merchandise sold (including transportation charges);
(8) Cost of other supplies consumed (including
transportation charges);
(9) Cost of services purchased from outsiders
(not employees) to resell, that do not
continue under contract;
(10) Power, heat and refrigeration expenses that
do not continue under contract (if Form CP
15 11 is attached);
(11) All ordinary payroll expenses or the amount
of payroll expense excluded (if Form CP 15
10 is attached); and
(12) Special deductions for mining properties
(royalties unless specifically included in
coverage; actual depletion commonly known
as unit or cost depletion—not percentage
depletion; welfare and retirement fund
charges based on tonnage; hired trucks).
Example #1 (Underinsurance)
When:
The Net Income and operating expenses for
the 12 months following the inception, or
last previous anniversary dale, of this policy
at the described premises would have been:
$ 400,000

App.127a
The Coinsurance percentage is:

50%

The Limit of Insurance is:

$150,000

The amount of loss is:

$80,000

Step (1): $400,000 x 50% =
$200,000
(the minimum amount of insurance to meet your
Coinsurance requirements)
Step (2): $150,000 + $200,000 =

.75

Step (3): $80,000 x .75 =

$60,000

We will pay no more than $60,000. The
remaining $20,000 is not covered.
Example #2 (Adequate Insurance)
When: The Net Income and operating
expenses for the 12 months following the
inception, or last previous anniversary date,
of this policy at the described premises
would have been:
$400,000
The Coinsurance percentage is:

50%

The Limit of Insurance is:

$200,000

The amount of loss is:

$80,000

The minimum amount of insurance to meet your
Coinsurance requirement is $200,000 ($400,000 x
50%). Therefore, the Limit of Insurance in this
example is adequate and no penalty applies. We will
pay no more than $80,000 (amount of loss).
This condition does not apply to Extra Expense
Coverage.

App.128a
E.

Optional Coverages

If shown as applicable in the Declarations, the
following Optional Coverages apply separately to
each item.
1. Maximum Period of Indemnity
a.

The Additional Condition, Coinsurance,
does not apply to this Coverage Form at the
described premises to which this Optional
Coverage applies.

b.

The most we will pay for the total of
Business Income loss and Extra Expense is
the lesser of:
(1) The amount of loss sustained and
expenses incurred during the 120 days
immediately following the beginning of
the “period of restoration”; or
(2) The Limit of Insurance shown in the
Declarations.

2. Monthly Unit of Indemnity
a.

The Additional Condition, Coinsurance,
does not apply to this Coverage Form at the
described premises to which this Optional
Coverage applies.

b.

The most we will pay for loss of Business
Income in each period of 30 consecutive
days after the beginning of the “period of
restoration” is:
(1) The Limit of Insurance, multiplied by

App.129a
(2) The fraction shown in the Declarations
for this Optional Coverage.
Example
When:
The Limit of Insurance is:

$120,000

The fraction shown in the
Declarations for this Optional
Coverage is:

1/4

The most we will pay for loss
in each period of 30 consecutive
days is:

$30,000

($120,000 x 1/4 = $30,000)
If, in this example, the actual amount of loss is:
Days 1-30: $40,000
Days 31-60: $20,000
Days 61-90: $30,000
_________
$ 90,000
We will pay:
Days 1-30: $30,000
Days 31-60: $20,000
Days 61-90: $30,000
_________
$ 80,000
The remaining $10,000 is not covered.

App.130a
3. Business Income Agreed Value
a. To activate this Optional Coverage:
(1) A Business Income Report/Work Sheet
must be submitted to us and must show
financial data for your “operations”:
(a) During the 12 months prior to the date
of the Work Sheet; and
(b) Estimated
for
the
12
months
immediately following the inception of
this Optional Coverage.
(2) The Declarations must indicate that the
Business Income Agreed Value Optional
Coverage applies, and an Agreed Value
must be shown in the Declarations. The
Agreed Value should be at least equal to:
(a) The Coinsurance percentage shown in
the Declarations; multiplied by
(b) The amount of Net Income and
operating expenses for the following 12
months you report on the Work Sheet.
b. The Additional Condition, Coinsurance, is
suspended until:
(1) 12 months after the effective date of this
Optional Coverage; or
(2) The expiration dale of this policy;
whichever occurs first.
c. We will reinstate the Additional Condition,
Coinsurance, automatically if you do not submit a
new Work Sheet and Agreed Value:

App.131a
(1) Within 12 months of the effective date of
this Optional Coverage; or
(2) When you request a change in your
Business Income Limit of Insurance.
d. If the Business Income Limit of Insurance is
less than the Agreed Value, we will not pay more of
any loss than the amount of loss multiplied by:
(1) The Business Income Limit of Insurance;
divided by
(2) The Agreed Value.
Example
When:
The Limit of Insurance is: $100,000
The Agreed Value is:

$200,000

The amount of loss is:

$80,000

Step (1): $100,000 ÷ $200,000 = .50
Step (2): .50 x $80,000 =

$40,000

We will pay $40,000. The remaining $40,000 is
not covered.
4. Extended Period Of Indemnity
Under Paragraph A.5.c., Extended Business
Income, the number 30 in Subparagraphs (1)(b) and
(2)(b) is replaced by the number shown in the
Declarations for this Optional Coverage.
F.

Definitions

1. “Finished stock” means stock you have
manufactured.

App.132a
“Finished stock” also includes whiskey and
alcoholic products being aged, unless there is a
Coinsurance percentage shown for Business Income
in the Declarations.
“Finished stock” does not include stock you have
manufactured that is held for sale on the premises of
any retail outlet insured under this Coverage Part.
2. “Operations” means:
a.

Your business activities occurring at the
described premises; and

b.

The tenantability of the described premises,
if coverage for Business Income Including
“Rental Value” or “Rental Value” applies.

3. “Period of restoration” means the period of
time that:
a.

Begins:
(1) 72 hours after the time of direct
physical loss or damage for Business
Income Coverage; or
(2) Immediately after the time of direct
physical loss or damage for Extra
Expense Coverage;

caused by or resulting from any Covered Cause of
Loss at the described premises; and
b. Ends on the earlier of:
(1) The date when the property at the
described premises should be repaired,
rebuilt or replaced with reasonable speed
and similar quality; or

App.133a
(2) The date when business is resumed at a
new permanent location.
“Period of restoration” does not include any
increased period required due to the enforcement of
any ordinance or law that:
(1) Regulates the construction, use or repair, or
requires the tearing down, of any property;
or
(2) Requires any insured or others to test for,
monitor, clean up, remove, contain, treat,
detoxify or neutralize, or in any way
respond to, or assess the effects of
“pollutants”.
The expiration date of this policy will not cut
short the “period of restoration”.
4. “Pollutants” means any solid, liquid, gaseous
or thermal irritant or contaminant, including smoke,
vapor, soot, fumes, acids, alkalis, chemicals and
waste. Waste includes materials to be recycled,
reconditioned or reclaimed.
5. “Rental Value” means Business Income that
consists of:
a.

Net Income (Net Profit or Loss before
income taxes) that would have been earned
or incurred as rental income from tenant
occupancy of the premises described in the
Declarations as furnished and equipped by
you, including fair rental value of any
portion of the described premises which is
occupied by you; and

App.134a
b.

Continuing normal operating expenses
incurred in connection with that premises,
including:
(1) Payroll; and
(2) The amount of charges which are the
legal obligation of the tenant(s) but
would otherwise be your obligations.

6. “Suspension” means:
a.

The slowdown or cessation of your business
activities; or

b.

That a part or all of the described premises
is rendered untenantable, if coverage for
Business Income Including “Rental Value”
or “Rental Value” applies.

App.135a
EXCLUSION OF LOSS DUE TO
VIRUS OR BACTERIA
This endorsement modifies insurance provided
under the following:
COMMERCIAL PROPERTY COVERAGE PART
STANDARD PROPERTY POLICY
A. The exclusion set forth in Paragraph B. applies
to all coverage under all forms and endorsements
that comprise this Coverage Part or Policy, including
but not limited to forms or endorsements that cover
property damage to buildings or personal property
and forms or endorsements that cover business income,
extra expense or action of civil authority.
B. We will not pay for loss or damage caused by
or resulting from any virus, bacterium or other
microorganism that induces or is capable of inducing
physical distress, illness or disease.
However, this exclusion does not apply to loss or
damage caused by or resulting from “fungus”, wet rot
or dry rot. Such loss or damage is addressed in a
separate exclusion in this Coverage Part or Policy.
C. With respect to any loss or damage subject to
the exclusion in Paragraph B., such exclusion supersedes any exclusion relating to “pollutants”.
D. The following provisions in this Coverage
Part or Policy are hereby amended to remove reference
to bacteria:
1.

Exclusion of “Fungus”, Wet Rot, Dry Rot And
Bacteria; and

App.136a
2.

Additional Coverage—Limited Coverage for
“Fungus”, Wet Rot, Dry Rot And Bacteria,
including any endorsement increasing the
scope or amount of coverage.

E. The terms of the exclusion in Paragraph B.,
or the inapplicability of this exclusion to a particular
loss, do not serve to create coverage for any loss that
would otherwise be excluded under this Coverage
Part or Policy.

App.137a
CAUSES OF LOSS – SPECIAL FORM
COMMERCIAL PROPERTY
CP 10 30 06 07
Words and phrases that appear in quotation
marks have special meaning. Refer to Section G.,
Definitions.
A.

Covered Causes of Loss

When Special is shown in the Declarations,
Covered Causes of Loss means Risks Of Direct Physical
Loss unless the loss is:

B.

1.

Excluded in Section B., Exclusions; or

2.

Limited in Section C., Limitations; that follow.

Exclusions

1. We will not pay for loss or damage caused
directly or indirectly by any of the following. Such loss
or damage is excluded regardless of any other cause or
event that contributes concurrently or in any sequence
to the loss.
a.

Ordinance Or Law

The enforcement of any ordinance or law:
(1) Regulating the construction, use or repair
of any property; or
(2) Requiring the tearing down of any property, including the cost of removing its
debris.
This exclusion, Ordinance Or Law,
applies whether the loss results from:

App.138a
(a) An ordinance or law that is enforced even
if the property has not been damaged;
or
(b) The increased costs incurred to comply
with an ordinance or law in the course of
construction, repair, renovation, remodeling or demolition of property, or removal
of its debris, following a physical loss to
that property.
b.

Earth Movement
(1) Earthquake, including any earth sinking,
rising or shifting related to such event;
(2) Landslide, including any earth sinking,
rising or shifting related to such event;
(3) Mine subsidence, meaning subsidence of
a man-made mine, whether or not
mining activity has ceased;
(4) Earth sinking (other than sinkhole collapse), rising or shifting including soil
conditions which cause settling, cracking
or other disarrangement of foundations
or other parts of realty. Soil conditions
include contraction, expansion, freezing,
thawing, erosion, improperly compacted
soil and the action of water under the
ground surface.
But if Earth Movement, as described in
b.(1) through (4) above, results in fire or
explosion, we will pay for the loss or
damage caused by that fire or explosion.

App.139a
(5) Volcanic eruption, explosion or effusion.
But if volcanic eruption, explosion or
effusion results in fire, building glass
breakage or Volcanic Action, we will pay
for the loss or damage caused by that
fire, building glass breakage or Volcanic
Action.
Volcanic Action means direct loss or
damage resulting from the eruption of
a volcano when the loss or damage is
caused by:
(a) Airborne volcanic blast or airborne
shock waves;
(b) Ash, dust or particulate matter; or
(c)

Lava flow.

All volcanic eruptions that occur within
any 168-hour period will constitute a
single occurrence.
Volcanic Action does not include the
cost to remove ash, dust or particulate
matter that does not cause direct physical loss or damage to the described
property.
c.

Governmental Action
Seizure or destruction of property by order
of governmental authority.
But we will pay for loss or damage caused by
or resulting from acts of destruction ordered
by governmental authority and taken at the
time of a fire to prevent its spread, if the fire
would be covered under this Coverage Part.

App.140a
d.

Nuclear Hazard
Nuclear reaction or radiation, or radioactive
contamination, however caused.
But if nuclear reaction or radiation, or radioactive contamination, results in fire, we will
pay for the loss or damage caused by that
fire.

e.

Utility Services
The failure of power, communication, water or
other utility service supplied to the described
premises, however caused, if the failure:
(1) Originates away from the described
premises; or
(2) Originates at the described premises, but
only if such failure involves equipment
used to supply the utility service to the
described premises from a source away
from the described premises.
Failure of any utility service includes lack
of sufficient capacity and reduction in supply.
Loss or damage caused by a surge of power
is also excluded, if the surge would not have
occurred but for an event causing a failure
of power.
But if the failure or surge of power, or the
failure of communication, water or other
utility service, results in a Covered Cause of
Loss, we will pay for the loss or damage
caused by that Covered Cause of Loss.
Communication services include but are not
limited to service relating to Internet access

App.141a
or access to any electronic, cellular or
satellite network.
f.

War And Military Action
(1) War, including undeclared or civil war;
(2) Warlike action by a military force, including action in hindering or defending
against an actual or expected attack,
by any government, sovereign or other
authority using military personnel or
other agents; or
(3) Insurrection, rebellion, revolution,
usurped power, or action taken by
governmental authority in hindering or
defending against any of these.

g.

Water
(1) Flood, surface water, waves, tides, tidal
waves, overflow of any body of water, or
their spray, all whether driven by wind
or not;
(2) Mudslide or mudflow;
(3) Water that backs up or overflows from
a sewer, drain or sump; or
(4) Water under the ground surface pressing
on, or flowing or seeping through:
(a) Foundations, walls, floors or paved
surfaces;
(b) Basements, whether paved or not; or
(c)

Doors, windows or other openings.

App.142a
But if Water, as described in g.(1)
through g.(4) above, results in fire,
explosion or sprinkler leakage, we will
pay for the loss or damage caused by
that fire, explosion or sprinkler leakage.
h.

“Fungus”, Wet Rot, Dry Rot And Bacteria
Presence, growth, proliferation, spread or
any activity of “fungus”, wet or dry rot or
bacteria.
But if “fungus”, wet or dry rot or bacteria
results in a ‘specified cause of loss”, we will
pay for the loss or damage caused by that
‘Specified cause of loss”.
This exclusion does not apply:
1

When “fungus”, wet or dry rot or bacteria
results from fire or lightning; or

2.

To the extent that coverage is provided
in the Additional Coverage — Limited
Coverage For “Fungus”, Wet Rot, Dry
Rot And Bacteria with respect to loss or
damage by a cause of loss other than
fire or lightning.

Exclusions B.1.a. through B.1.h. apply
whether or not the loss event results in widespread damage or affects a substantial area
2. We will not pay for loss or damage caused by
or resulting from any of the following:
a.

Artificially generated electrical, magnetic or
electromagnetic energy that damages,
disturbs, disrupts or otherwise interferes
with any:

App.143a
(1) Electrical or electronic wire, device,
appliance, system or network; or
(2) Device, appliance, system or network
utilizing cellular or satellite technology.
For the purpose of this exclusion, electrical,
magnetic or electromagnetic energy includes
but is not limited to:
(a) Electrical current, including arcing;
(b) Electrical charge produced or conducted
by a magnetic or electromagnetic field;
(c)

Pulse of electromagnetic energy; or

(d) Electromagnetic waves or microwaves.
But if fire results, we will pay for the loss or
damage caused by that fire.
b.

Delay, loss of use or loss of market.

c.

Smoke, vapor or gas from agricultural
smudging or industrial operations.

d.
(1) Wear and tear;
(2) Rust or other corrosion, decay, deterioration, hidden or latent defect or any
quality in property that causes it to
damage or destroy itself;
(3) Smog;
(4) Settling, cracking, shrinking or expansion;
(5) Nesting or infestation, or discharge or
release of waste products or secretions, by
insects, birds, rodents or other animals.

App.144a
(6) Mechanical breakdown, including rupture or bursting caused by centrifugal
force. But if mechanical breakdown
results in elevator collision, we will pay
for the loss or damage caused by that
elevator collision.
(7) The following causes of loss to personal
property:
(a) Dampness or dryness of atmosphere;
(b) Changes in or extremes of temperature; or
(c)

Marring or scratching.

But if an excluded cause of loss that is listed
in 2.d.(1) through (7) results in a “specified
cause of loss” or building glass breakage, we
will pay for the loss or damage caused by
that “Specified cause of loss” or building
glass breakage.
e.

Explosion of steam boilers, steam pipes, steam
engines or steam turbines owned or leased
by you, or operated under your control. But
if explosion of steam boilers, steam pipes,
steam engines or steam turbines results in
fire or combustion explosion, we will pay for
the loss or damage caused by that fire or
combustion explosion. We will also pay for
loss or damage caused by or resulting from
the explosion of gases or fuel within the
furnace of any fired vessel or within the
flues or passages through which the gases
of combustion pass.

App.145a
f.

Continuous or repeated seepage or leakage
of water, or the presence or condensation of
humidity, moisture or vapor, that occurs
over a period of 14 days or more.

g.

Water, other liquids, powder or molten
material that leaks or flows from plumbing,
heating, air conditioning or other equipment
(except fire protective systems) caused by or
resulting from freezing, unless:
(1) You do your best to maintain heat in
the building or structure; or
(2) You drain the equipment and shut off the
supply if the heat is not maintained.

h.

Dishonest or criminal act by you, any of
your partners, members, officers, managers,
employees (including leased employees),
directors, trustees, authorized representatives
or anyone to whom you entrust the property
for any purpose:
(1) Acting alone or in collusion with others;
or
(2) Whether or not occurring during the
hours of employment.
This exclusion does not apply to acts of
destruction by your employees (including
leased employees); but theft by employees
(including leased employees) is not covered.

i.

Voluntary parting with any property by you
or anyone else to whom you have entrusted
the property if induced to do so by any

App.146a
fraudulent scheme, trick, device or false pretense.
j.

Rain, snow, ice or sleet to personal property
in the open.

k.

Collapse, including any of the following
conditions of property or any part of the
property:
(1) An abrupt falling down or caving in;
(2) Loss of structural integrity, including
separation of parts of the property or
property in danger of falling down or
caving in; or
(3) Any cracking, bulging, sagging, bending,
leaning, settling, shrinkage or expansion
as such condition relates to (1) or (2)
above.
But if collapse results in a Covered Cause of
Loss at the described premises, we will
pay for the loss or damage caused by that
Covered Cause of Loss.
This exclusion, k., does not apply:
(a) To the extent that coverage is provided
under the Additional Coverage—
Collapse; or
(b) To collapse caused by one or more of
the following:
(i)

The “specified causes of loss”;

(ii) Breakage of building glass;
(iii) Weight of rain that collects on a
roof; or

App.147a
(iv) Weight of people or personal property.
l.

Discharge, dispersal, seepage, migration,
release or escape of “pollutants” unless the
discharge, dispersal, seepage, migration,
release or escape is itself caused by any of
the “specified causes of loss”. But if the
discharge, dispersal, seepage, migration,
release or escape of “pollutants” results in a
“Specified cause of loss”, we will pay for the
loss or damage caused by that ‘Specified
cause of loss”.
This exclusion, I., does not apply to damage
to glass caused by chemicals applied to the
glass.

m. Neglect of an insured to use all reasonable
means to save and preserve property from
further damage at and after the time of
loss.
3. We will not pay for loss or damage caused by
or resulting from any of the following, 3.a. through
3.c. But if an excluded cause of loss that is listed in
3.a. through 3.c. results in a Covered Cause of Loss,
we will pay for the loss or damage caused by that
Covered Cause of Loss.
a.

Weather conditions. But this exclusion only
applies if weather conditions contribute in
any way with a cause or event excluded in
Paragraph 1. above to produce the loss or
damage.

App.148a
b.

Acts or decisions, including the failure to act
or decide, of any person, group, organization
or governmental body.

c.

Faulty, inadequate or defective:
(1) Planning, zoning, development, surveying, siting;
(2) Design, specifications, workmanship,
repair, construction, renovation, remodeling, grading, compaction;
(3) Materials used in repair, construction,
renovation or remodeling; or
(4) Maintenance;
of part or all of any property on or off the
described premises.

4. Special Exclusions
The following provisions apply only to the specified
Coverage Forms.
a.

Business Income (And Extra Expense) Coverage Form, Business Income (Without Extra
Expense) Coverage Form, Or Extra Expense
Coverage Form
We will not pay for:
(1) Any loss caused by or resulting from:
(a) Damage or destruction of “finished
stock”; or
(b) The time required to reproduce
“finished stock”.
This exclusion does not apply to Extra
Expense.

App.149a
(2) Any loss caused by or resulting from
direct physical loss or damage to radio
or television antennas (including satellite
dishes) and their lead-in wiring, masts
or towers.
(3) Any increase of loss caused by or resulting from:
(a) Delay in rebuilding, repairing or
replacing the property or resuming
“operations”, due to interference at the
location of the rebuilding, repair or
replacement by strikers or other persons;
or
(b) Suspension, lapse or cancellation of
any license, lease or contract. But if the
suspension, lapse or cancellation is
directly caused by the “suspension” of
“operations”, we will cover such loss that
affects your Business Income during the
“period of restoration” and any extension
of the “period of restoration” in accordance with the terms of the Extended
Business Income Additional Coverage
and the Extended Period Of Indemnity
Optional Coverage or any variation of
these.
(4) Any Extra Expense caused by or resulting from suspension, lapse or cancellation of any license, lease or contract
beyond the “period of restoration”.
(5) Any other consequential loss.
b.

Leasehold Interest Coverage Form

App.150a
(1) Paragraph B.1.a., Ordinance Or Law,
does not apply to insurance under this
Coverage Form.
(2) We will not pay for any loss caused by:
(a) Your cancelling the lease;
(b) The suspension, lapse or cancellation
of any license; or
(c)
c.

Any other consequential loss.

Legal Liability Coverage Form
(1) The following exclusions do not apply
to insurance under this Coverage Form:
(a) Paragraph B.1.a., Ordinance Or
Law;
(b) Paragraph B.1.c.,
Governmental Action;
(c)

Paragraph 8.1.d., Nuclear Hazard;

(d) Paragraph B.1.e., Utility Services;
and
(e) Paragraph B.1.f., War And Military
Action.
(2) The following additional exclusions apply
to insurance under this Coverage Form:
(a) Contractual Liability
We will not defend any claim or
“suit”, or pay damages that you are
legally liable to pay, solely by
reason of your assumption of
liability in a contract or agreement.
But this exclusion does not apply

App.151a
to a written lease agreement in
which you have assumed liability
for building damage resulting from
an actual or attempted burglary or
robbery, provided that:
(i)

Your assumption of liability was
executed prior to the accident; and

(ii) The building is Covered Property
under this Coverage Form.
(b) Nuclear Hazard
We will not defend any claim or
“suit”, or pay any damages, loss,
expense or obligation, resulting from
nuclear reaction or radiation, or
radioactive contamination, however
caused.
5. Additional Exclusion
The following provisions apply only to the specified
property.
LOSS OR DAMAGE TO PRODUCTS
We will not pay for loss or damage to any merchandise, goods or other product caused by or resulting
from error or omission by any person or entity
(including those having possession under an arrangement where work or a portion of the work is outsourced)
in any stage of the development, production or use of
the product, including planning, testing, processing,
packaging, installation, maintenance or repair. This
exclusion applies to any effect that compromises the
form, substance or quality of the product. But if such
error or omission results in a Covered Cause of Loss, we

App.152a
will pay for the loss or damage caused by that Covered
Cause of Loss.
C.

Limitations

The following limitations apply to all policy forms
and endorsements, unless otherwise stated.
1. We will not pay for loss of or damage to
property, as described and limited in this section. In
addition, we will not pay for any loss that is a consequence of loss or damage as described and limited in
this section.
a.

Steam boilers, steam pipes, steam engines
or steam turbines caused by or resulting
from any condition or event inside such
equipment. But we will pay for loss of or
damage to such equipment caused by or
resulting from an explosion of gases or fuel
within the furnace of any fired vessel or
within the flues or passages through which
the gases of combustion pass.

b.

Hot water boilers or other water heating
equipment caused by or resulting from any
condition or event inside such boilers or
equipment, other than an explosion.

c.

The interior of any building or structure, or
to personal property in the building or
structure, caused by or resulting from rain,
snow, sleet, ice, sand or dust, whether driven
by wind or not, unless:
(1) The building or structure first sustains
damage by a Covered Cause of Loss to

App.153a
its roof or walls through which the rain,
snow, sleet, ice, sand or dust enters; or
(2) The loss or damage is caused by or results
from thawing of snow, sleet or ice on
the building or structure.
d.

Building materials and supplies not attached
as part of the building or structure, caused
by or resulting from theft.
However, this limitation does not apply to:
(1) Building materials and supplies held
for sale by you, unless they are insured
under the Builders Risk Coverage Form;
or
(2) Business Income Coverage or Extra
Expense Coverage.

e.

Property that is missing, where the only
evidence of the loss or damage is a shortage
disclosed on taking inventory, or other
instances where there is no physical evidence
to show what happened to the property.

f.

Property that has been transferred to a person
or to a place outside the described premises
on the basis of unauthorized instructions.

2. We will not pay for loss of or damage to the
following types of property unless caused by the
“specified causes of loss” or building glass breakage:
a.

Animals, and then only if they are killed or
their destruction is made necessary.

b.

Fragile articles such as statuary, marbles,
chinaware and porcelains, if broken. This
restriction does not apply to:

App.154a
(1) Glass; or
(2) Containers of property held for sale.
c.

Builders’ machinery, tools and equipment
owned by you or entrusted to you, provided
such property is Covered Property.
However, this limitation does not apply:
(1) If the property is located on or within
100 feet of the described premises,
unless the premises is insured under
the Builders Risk Coverage Form; or
(2) To Business Income Coverage or to Extra
Expense Coverage.

3. The special limit shown for each category, a.
through d., is the total limit for loss of or damage to
all property in that category. The special limit applies
to any one occurrence of theft, regardless of the types
or number of articles that are lost or damaged in that
occurrence. The special limits are:
a.

$2,500 for furs, fur garments and garments
trimmed with fur.

b.

$2,500 for jewelry, watches, watch movements, jewels, pearls, precious and semiprecious stones, bullion, gold, silver, platinum
and other precious alloys or metals. This
limit does not apply to jewelry and watches
worth $100 or less per item.

c.

$2,500 for patterns, dies, molds and forms.

d.

$250 for stamps, tickets, including lottery
tickets held for sale, and letters of credit.

App.155a
These special limits are part of, not in addition
to, the Limit of Insurance applicable to the Covered
Property.
This limitation, C.3., does not apply to Business
Income Coverage or to Extra Expense Coverage.
4. We will not pay the cost to repair any defect to a
system or appliance from which water, other liquid,
powder or molten material escapes. But we will pay
the cost to repair or replace damaged parts of fireextinguishing equipment if the damage:
a.

Results in discharge of any substance from
an automatic fire protection system; or

b.

Is directly caused by freezing.

However, this limitation does not apply to Business
Income Coverage or to Extra Expense Coverage.
D.

Additional Coverage—Collapse

The coverage provided under this Additional
Coverage—Collapse applies only to an abrupt collapse
as described and limited in D.1. through D.7.
1. For the purpose of this Additional Coverage—
Collapse, abrupt collapse means an abrupt falling
down or caving in of a building or any part of a
building with the result that the building or part of
the building cannot be occupied for its intended purpose.
2. We will pay for direct physical loss or damage
to Covered Property, caused by abrupt collapse of a
building or any part of a building that is insured
under this Coverage Form or that contains Covered
Property insured under this Coverage Form, if such
collapse is caused by one or more of the following:

App.156a
a.

Building decay that is hidden from view,
unless the presence of such decay is known
to an insured prior to collapse;

b.

Insect or vermin damage that is hidden from
view, unless the presence of such damage is
known to an insured prior to collapse;

c.

Use of defective material or methods in
construction, remodeling or renovation if
the abrupt collapse occurs during the course
of the construction, remodeling or renovation.

d.

Use of defective material or methods in
construction, remodeling or renovation if the
abrupt collapse occurs after the construction,
remodeling or renovation is complete, but
only if the collapse is caused in part by:
(1) A cause of loss listed in 2.a. or 2.b.;
(2) One or more of the ‘specified causes of
loss”;
(3) Breakage of building glass;
(4) Weight of people or personal property;
or
(5) Weight of rain that collects on a roof.

3. This Additional Coverage — Collapse does
not apply to:
a.

A building or any part of a building that is
in danger of falling down or caving in;

b.

A part of a building that is standing, even if
it has separated from another part of the
building; or

App.157a
c.

A building that is standing or any part of a
building that is standing, even if it shows
evidence of cracking, bulging, sagging, bending, leaning, settling, shrinkage or expansion.

4. With respect to the following property:
a.

Outdoor radio or television antennas (including satellite dishes) and their lead-in wiring,
masts or towers;

b.

Awnings, gutters and downspouts;

c.

Yard fixtures;

d.

Outdoor swimming pools;

e.

Fences;

f.

Piers, wharves and docks;

g.

Beach or diving platforms or appurtenances;

h.

Retaining walls; and

i.

Walks, roadways and other paved surfaces;
if an abrupt collapse is caused by a cause of
loss listed in 2.a. through 2.d., we will pay
for loss or damage to that property only if:
(1) Such loss or damage is a direct result of
the abrupt collapse of a building insured
under this Coverage Form; and
(2) The property is Covered Property under
this Coverage Form.

5. If personal property abruptly falls down or
caves in and such collapse is not the result of abrupt
collapse of a building, we will pay for loss or damage to
Covered Property caused by such collapse of personal
property only if:

App.158a
a.

The collapse of personal property was caused
by a cause of loss listed in 2.a. through 2.d.;

b.

The personal property which collapses is
inside a building; and

c.

The property which collapses is not of a kind
listed in 4., regardless of whether that kind
of property is considered to be personal
property or real property.

The coverage stated in this Paragraph 5. does not
apply to personal property if marring and/or scratching
is the only damage to that personal property caused
by the collapse.
6. This Additional Coverage—Collapse does not
apply to personal property that has not abruptly fallen
clown or caved in, even if the personal property shows
evidence of cracking, bulging, sagging, bending, leaning,
settling, shrinkage or expansion.
7. This Additional Coverage—Collapse will not
increase the Limits of Insurance provided in this
Coverage Part.
8. The term Covered Cause of Loss includes the
Additional Coverage—Collapse as described and limited
in D.1. through D.7.
E.

Additional Coverage—Limited Coverage For
‘Fungus”, Wet Rot, Dry Rot And Bacteria

1. The coverage described in E.2. and E.6. only
applies when the “fungus”, wet or dry rot or bacteria is
the result of one or more of the following causes that
occurs during the policy period and only if all reasonable
means were used to save and preserve the property

App.159a
from further damage at the time of and after that
occurrence.
a.

A “specified cause of loss” other than fire or
lightning; or

b.

Flood, if the Rood Coverage Endorsement
applies to the affected premises.

2. We will pay for loss or damage by “fungus”,
wet or dry rot or bacteria. As used in this Limited
Coverage, the term loss or damage means:
a.

Direct physical loss or damage to Covered
Property caused by “fungus”, wet or dry rot
or bacteria, including the cost of removal of
the “fungus”, wet or dry rot or bacteria;

b.

The cost to tear out and replace any part of
the building or other property as needed to
gain access to the ‘fungus”, wet or dry rot or
bacteria; and

c.

The cost of testing performed after removal,
repair, replacement or restoration of the
damaged property is completed, provided
there is a reason to believe that “fungus”,
wet or dry rot or bacteria are present.

3. The coverage described under E.2. of this
Limited Coverage is limited to $15,000. Regardless of
the number of claims, this limit is the most we will pay
for the total of all loss or damage arising out of all
occurrences of “specified causes of loss” (other than fire
or lightning) and Flood which take place in a 12-month
period (starting with the beginning of the present
annual policy period). With respect to a particular
occurrence of loss which results in “fungus”, wet or dry
rot or bacteria, we will not pay more than a total of

App.160a
$15,000 even if the “fungus”, wet or dry rot or bacteria
continues to be present or active, or recurs, in a later
policy period.
4. The coverage provided under this Limited
Coverage does not increase the applicable Limit of
Insurance on any Covered Property. If a particular
occurrence results in loss or damage by “fungus”, wet
or dry rot or bacteria, and other loss or damage, we
will not pay more, for the total of all loss or damage,
than the applicable Limit of Insurance on the affected
Covered Property.
If there is covered loss or damage to Covered
Property, not caused by “fungus”, wet or dry rot or
bacteria, loss payment will not be limited by the
terms of this Limited Coverage, except to the extent
that “fungus”, wet or dry rot or bacteria causes an
increase in the loss. Any such increase in the loss
will be subject to the terms of this Limited Coverage.
5. The terms of this Limited Coverage do not
increase or reduce the coverage provided under
Paragraph F.2. (Water Damage, Other Liquids, Powder
Or Molten Material Damage) of this Causes Of Loss
Form or under the Additional Coverage—Collapse.
6. The following, 6.a. or 6.b., applies only if Business Income and/or Extra Expense Coverage applies to
the described premises and only if the “‘suspension” of
“operations” satisfies all terms and conditions of the
applicable Business Income and/or Extra Expense
Coverage Form.
a.

If the loss which resulted in ‘fungus”, wet or
dry rot or bacteria does not in itself necessitate
a “suspension” of “operations”, but such
“suspension” is necessary due to loss or

App.161a
damage to property caused by ‘Fungus”, wet
or dry rot or bacteria, then our payment
under Business Income and/or Extra Expense
is limited to the amount of loss and/or expense
sustained in a period of not more than 30
days. The days need not be consecutive.
b.

F.

If a covered “suspension” of “operations” was
caused by loss or damage other than “fungus”,
wet or dry rot or bacteria but remediation of
“Fungus”, wet or dry rot or bacteria prolongs
the “period of restoration”, we will pay for
loss and/or expense sustained during the
delay (regardless of when such a delay occurs
during the “period of restoration”), but such
coverage is limited to 30 days. The days need
not be consecutive.

Additional Coverage Extensions
1. Property in Transit

This Extension applies only to your personal
property to which this form applies.
a.

You may extend the insurance provided by
this Coverage Part to apply to your personal
property (other than property in the care,
custody or control of your salespersons) in
transit more than 100 feet from the described
premises. Property must be in or on a motor
vehicle you own, lease or operate while
between points in the coverage territory.

b.

Loss or damage must be caused by or result
from one of the following causes of loss:

App.162a
(1) Fire, lightning, explosion, windstorm or
hail, riot or civil commotion, or vandalism.
(2) Vehicle collision, upset or overturn. Collision means accidental contact of your
vehicle with another vehicle or object.
It does not mean your vehicle’s contact
with the roadbed.
(3) Theft of an entire bale, case or package
by forced entry into a securely locked
body or compartment of the vehicle.
There must be visible marks of the forced
entry.
c.

The most we will pay for loss or damage
under this Extension is $5,000.

This Coverage Extension is additional insurance.
The Additional Condition, Coinsurance, does not apply
to this Extension.
2. Water Damage, Other Liquids, Powder Or
Molten Material Damage
If loss or damage caused by or resulting from
covered water or other liquid, powder or molten
material damage loss occurs, we will also pay the
cost to tear out and replace any part of the building
or structure to repair damage to the system or
appliance from which the water or other substance
escapes. This Coverage Extension does not increase
the Limit of Insurance.
3. Glass
a.

We will pay for expenses incurred to put up
temporary plates or board up openings if

App.163a
repair or replacement of damaged glass is
delayed.
b.

We will pay for expenses incurred to remove
or replace obstructions when repairing or
replacing glass that is part of a building.
This does not include removing or replacing
window displays.

This Coverage Extension, F.3., does not increase
the Limit of Insurance.
G.

Definitions

1. “Fungus” means any type or form of fungus,
including mold or mildew, and any mycotoxins, spores,
scents or by-products produced or released by fungi.
2. “Specified causes of loss” means the following:
fire; lightning; explosion; windstorm or hail; smoke;
aircraft or vehicles; riot or civil commotion; vandalism;
leakage from fire-extinguishing equipment; sinkhole
collapse; volcanic action; falling objects; weight of
snow, ice or sleet; water damage.
a.

Sinkhole collapse means the sudden sinking
or collapse of land into underground empty
spaces created by the action of water on
limestone or dolomite. This cause of loss
does not include:
(1) The cost of filling sinkholes; or
(2) Sinking or collapse of land into manmade
underground cavities.

b.

Falling objects does not include loss or damage
to:
(1) Personal property in the open; or

App.164a
(2) The interior of a building or structure,
or property inside a building or structure,
unless the root or an outside wall of the
building or structure is first damaged
by a falling object.
c.

Water damage means accidental discharge or
leakage of water or steam as the direct
result of the breaking apart or cracking of a
plumbing, heating, air conditioning or other
system or appliance (other than a sump
system including its related equipment and
parts), that is located on the described
premises and contains water or steam.

App.165a
WATER EXCLUSION ENDORSEMENT
COMMERCIAL PROPERTY
CP 10 32 08 08
This endorsement modifies insurance provided
under the following:
COMMERCIAL PROPERTY COVERAGE PART
STANDARD PROPERTY POLICY
A. The exclusion in Paragraph B. replaces the
Water Exclusion in this Coverage Part or Policy.
B. Water
1.

Flood, surface water, waves (including tidal
wave and tsunami), tides, tidal water, overflow of any body of water, or spray from any
of these, all whether or not driven by wind
(including storm surge);

2.

Mudslide or mudflow;

3.

Water that backs up or overflows or is otherwise discharged from a sewer, drain, sump,
sump pump or related equipment;

4.

Water under the ground surface pressing on,
or flowing or seeping through:

5.

a.

Foundations, walls, floors or paved
surfaces;

b.

Basements, whether paved or not; or

c.

Doors, windows or other openings; or

Waterborne material carried or otherwise
moved by any of the water referred to in
Paragraph t, 3. or 4., or material carried or
otherwise moved by mudslide or mudflow.

App.166a
This exclusion applies regardless of whether any of the
above, in Paragraphs 1. through 5., is caused by an act
of nature or is otherwise caused. An example of a
situation to which this exclusion applies is the situation
where a dam, levee, seawall or other boundary or
containment system fails in whole or in part, for any
reason, to contain the water.
But if any of the above, in Paragraphs 1. through
5., results in fire, explosion or sprinkler leakage, we
will pay for the loss or damage caused by that fire,
explosion or sprinkler leakage (if sprinkler leakage is a
Covered Cause of Loss).

App.167a
WINDSTORM OR HAIL EXCLUSION
COMMERCIAL PROPERTY
CP 10 54 06 07
This endorsement modifies insurance provided
under the following:
CAUSES OF LOSS —BASIC FORM
CAUSES OF LOSS —BROAD FORM
CAUSES OF LOSS —SPECIAL FORM
STANDARD PROPERTY POLICY
SCHEDULE
Premises Number

Building Number

See Schedule
Information required to complete this Schedule, if not
shown above, will be shown in the Declarations.
With respect to the location(s) indicated in the
Schedule, the following provisions apply.
A.

The following is added to the Exclusions
section and is therefore not a Covered
Cause of Loss:
We will not pay for loss or damage:
1.

Caused directly or indirectly by Windstorm or Hail, regardless of any other
cause or event that contributes concurrently or in any sequence to the loss or
damage; or

2.

Caused by rain, snow, sand or dust, whether
driven by wind or not, if that loss or
damage would not have occurred but for
the Windstorm or Hail.

App.168a
But if Windstorm or Hail results in a
cause of loss other than rain, snow, sand
or dust, and that resulting cause of loss
is a Covered Cause of Loss, we will pay
for the loss or damage caused by such
Covered Cause of Loss. For example, if
the Windstorm or Hail damages a
heating system and fire results, the
loss or damage attributable to the fire
is covered subject to any other applicable
policy provisions.
B.

The terms of the Windstorm Or Hail exclusion, or the inapplicability of this exclusion
to a particular loss, do not serve to create
coverage for any loss that would otherwise
be excluded under this policy.

C.

Under Additional Coverage—Collapse, in
the Causes Of Loss Broad Form, Windstorm
or Hail is deleted from Paragraph 2.a.

D.

In the Causes Of Loss—Special Form, Windstorm or Hail is deleted from the “specified
causes of loss”.

E.

Under Additional Coverage Extensions—
Property In Transit, in the Causes Of Loss
—Special Form, Windstorm or Hail is deleted
from Paragraph b.(1).

App.169a
LOSS PAYABLE PROVISIONS
COMMERCIAL PROPERTY
CP 12 18 06 07
This endorsement modifies insurance provided
under the following:
BUILDING AND PERSONAL PROPERTY
COVERAGE FORM
BUILDERS’ RISK COVERAGE FORM
CONDOMINIUM ASSOCIATION COVERAGE FORM
CONDOMINIUM COMMERCIAL UNIT-OWNERS
COVERAGE FORM
STANDARD PROPERTY POLICY
SCHEDULE
Premises
Number:

Building
Number:

001
/001

Applicable
F
Clause (Enter
C., D., E., or
F.):
Description Of Property: Building
Loss Payee Name: JBST Inc.
Loss Payee Address: 2884 SW 27th Avenue, Miami,
FL USA 33133
Information required to complete this Schedule, if not
shown above, will be shown in the Declarations.
A.

When this endorsement is attached to the
Standard Property Policy CP 00 99, the
term Coverage Part in this endorsement is
replaced by the term Policy.

B.

Nothing in this endorsement increases the
applicable Limit of Insurance. We will not
pay any Loss Payee more than their financial
interest in the Covered Property, and we

App.170a
will not pay more than the applicable Unit
of Insurance on the Covered Property.
The following is added to the Loss Payment
Loss Condition, as indicated in the Declarations or in the Schedule:
C.

Loss Payable Clause
For Covered Property in which both you
and a Loss Payee shown in the Schedule or
in the Declarations have an insurable interest,
we will:

D.

1.

Adjust losses with you; and

2.

Pay any claim for loss or damage jointly
to you and the Loss Payee, as interests
may appear.

Lender’s Loss Payable Clause
1.

The Loss Payee shown in the Schedule
or in the Declarations is a creditor,
including a mortgageholder or trustee,
whose interest in Covered Property is
established by such written instruments
as:
a.

Warehouse receipts;

b.

A contract for deed;

c.

Bills of lading;

d.

Financing statements; or

e.

Mortgages, deeds of trust, or security
agreements.

App.171a
2.

For Covered Property in which both you
and a Loss Payee have an insurable
interest:
a.

We will pay for covered loss or
damage to each Loss Payee in their
order of precedence, as interests may
appear.

b.

The Loss Payee has the right to
receive loss payment even if the
Loss Payee has started foreclosure or
similar action on the Covered
Property.

c.

If we deny your claim because of your
acts or because you have failed to
comply with the terms of the Coverage Part, the Loss Payee will still
have the right to receive loss payment if the Loss Payee:
(1) Pays any premium due under
this Coverage Part at our
request if you have failed to do
so;
(2) Submits a signed, sworn proof
of loss within 60 days after
receiving notice from us of your
failure to do so; and
(3) Has notified us of any change
in ownership, occupancy or
substantial change in risk
known to the Loss Payee.

App.172a
All of the terms of this Coverage Part
will then apply directly to the Loss
Payee.
d.

If we pay the Loss Payee for any loss or
damage and deny payment to you
because of your acts or because you
have failed to comply with the terms of
this Coverage Part:
(1) The Loss Payee’s rights will be
transferred to us to the extent of
the amount we pay; and
(2) The Loss Payee’s rights to recover
the full amount of the Loss Payee’s
claim will not be impaired.
At our option, we may pay to the Loss
Payee the whole principal on the debt
plus any accrued interest. In this event,
you will pay your remaining debt to us.

3.

4.

If we cancel this policy, we will give
written notice to the Loss Payee at
least:
a.

10 days before the effective date of
cancellation if we cancel for your
nonpayment of premium; or

b.

30 days before the effective date of
cancellation if we cancel for any
other reason.

If we elect not to renew this policy, we
will give written notice to the Loss
Payee at least 10 days before the expiration date of this policy.

App.173a
E.

Contract Of Sale Clause
1.

The Loss Payee shown in the Schedule
or in the Declarations is a person or
organization you have entered a contract
with for the sale of Covered Property.

2.

For Covered Property in which both you
and the Loss Payee have an insurable
interest we will:

3.

a.

Adjust losses with you; and

b.

Pay any claim for loss or damage
jointly to you and the Loss Payee,
as interests may appear.

The following is added to the Other
Insurance Condition:
For Covered Property that is the subject of a contract of sale, the word “you”
includes the Loss Payee.

F.

Building Owner Loss Payable Clause
1.

The Loss Payee shown in the Schedule
or in the Declarations is the owner of
the described building, in which you
are a tenant.

2.

We will adjust losses to the described
building with the Loss Payee. Any loss
payment made to the Loss Payee will
satisfy your claims against us for the
owner’s property.

3.

We will adjust losses to tenants’ improvements and betterments with you, unless
the lease provides otherwise.

App.174a
BUSINESS INCOME CHANGES-TIME PERIOD
COMMERCIAL PROPERTY
CP 55 21 03 11
This endorsement modifies insurance provided
under the following:
ACTUAL LOSS BUSINESS INCOME
ENDORSEMENT
BUSINESS INCOME (AND EXTRA EXPENSE)
COVERAGE FORM
BUSINESS INCOME (WITHOUT EXTRA
EXPENSE) COVERAGE FORM
SCHEDULE
Select Either A., B., C., D. Or E.
A.

72-Hour Time Period
Replaced By 48 Hours

Is

Information required to complete this Schedule,
if not shown above, will be shown in the Declarations.
A.

If the Schedule indicates that the 72-hour
time period is replaced by 48 hours, then:
1.

The 72-hour time period in the definition
of “period of restoration” is replaced by
48 hours. Therefore, the period of
restoration for Business Income Coverage
begins 48 hours after the time of direct
physical loss or damage, subject to all
other provisions of the definition of
“period of restoration”; and

2.

The 72-hour time period in the Civil
Authority Additional Coverage is
replaced by 48 hours. Therefore, cover-

App.175a
age under the Additional Coverage—
Civil Authority begins 48 hours after the
time of action of civil authority, subject
to all other provisions of that Additional
Coverage.
B.

C.

If the Schedule indicates that the 72-hour
time period is replaced by 48 hours, then:
1.

The 72-hour time period in the definition
of “period of restoration” is replaced by
24 hours. Therefore, the period of
restoration for Business Income Coverage
begins 24 hours after the time of direct
physical loss or damage, subject to all
other provisions of the definition of
“period of restoration”; and

2.

The 72-hour time period in the Civil
Authority Additional Coverage is
replaced by 24 hours. Therefore, coverage
under the Additional Coverage—Civil
Authority begins 24 hours after the
time of action of civil authority, subject
to all other provisions of that Additional
Coverage.

If the Schedule indicates that the 72-hour
time period is replaced by 12 hours, then:
1.

The 72-hour time period in the definition
of “period of restoration” is replaced by
12 hours. Therefore, the period of
restoration for Business Income Coverage
begins 12 hours after the time of direct
physical loss or damage. subject to all
other provisions of the definition of
“period of restoration”; and

App.176a
2.

D.

E.

The 72-hour time period in the Civil
Authority Additional Coverage is replaced
by 12 hours. Therefore, coverage under the
Additional Coverage—Civil Authority
begins 12 hours after the time of action of
civil authority, subject to all other provisions of that Additional Coverage.

If the Schedule indicates that the 72-hour
time period is eliminated, Then:
1.

The 72-hour time period in the definition
of “period of restoration” is deleted.
Therefore, the period of restoration for
Business Income Coverage begins at the
time of direct physical loss or damage,
subject to all other provisions of the
definition of “period of restoration”: and

2.

The 72-hour time period in the Civil
Authority Additional Coverage is deleted.
Therefore, coverage under the Additional
Coverage—Civil Authority begins at the
time of action of civil authority, subject to
all other provisions of that Additional
Coverage.

If the Schedule indicates that the 72-hour
time period is replaced by the number of
hours listed in the Schedule, then:
1.

The 72-hour time period in the definition
of “period of restoration” is replaced by
the number of hours listed in the Schedule. Therefore, the period of restoration
for Business Income Coverage begins 48
hours after the time of direct physical
loss or damage, subject to all other

App.177a
provisions of the definition of “period of
restoration”; and
2.

The 72-hour time period in the Civil
Authority Additional Coverage is replaced
by the number of hours listed in the
Schedule Therefore, coverage under the
Additional Coverage — Civil Authority
begins the number of hours listed in the
Schedule after the time of action of civil
authority, subject to all other provisions of
that Additional Coverage

App.178a
FLORIDA CHANGES
COMMERCIAL PROPERTY
CP 01 25 02 12
This endorsement modifies insurance provided
under the following:
COMMERCIAL PROPERTY COVERAGE PART
A. When this endorsement is attached to Standard
Property Policy CP 00 99, the term Coverage Part in
this endorsement is replaced by the term Policy.
B. The following provision applies when a
Coinsurance percentage is shown in the Declarations:
Florida law states as follows:
Coinsurance contract: The rate charged in this
policy is based upon the use of the coinsurance clause
attached to this policy, with the consent of the
Insured.
C. The following is added:
If windstorm is a Covered Cause of Loss and loss
or damage to Covered Property is caused by or
results from windstorm, the following exclusion applies
in:
1.

Broward County;

2.

Dade County;

3.

Martin County;

4.

Monroe County;

5.

Palm Beach County; and

6.

All the areas east of the west bank of the
Intracoastal Waterway in the counties of:

App.179a
a.

Indian River; and

b.

St. Lucie.

Windstorm Exterior Paint And Waterproofing
Exclusion
We will not pay for loss or damage caused
by windstorm to:
1.

Paint; or

2.

Waterproofing material;

applied to the exterior of buildings unless
the building to which such loss or damage
occurs also sustains other loss or damage by
windstorm in the course of the same storm
event. But such coverage applies only if
windstorm is a Covered Cause of Loss.
When loss or damage to exterior paint or
waterproofing material is excluded, we will
not include the value of paint or waterproofing
material to determine:
a.

The amount of the Windstorm or Hail
Deductible; or

b.

The value of Covered Property when
applying the Coinsurance Condition.

D. The Loss Payment Condition dealing with the
number of days within which we must pay for
covered loss or damage is replaced by the following:
Provided you have complied with all the terms of
this Coverage Part, we will pay for covered loss or
damage upon the earliest of the following:

App.180a
(1) Within 20 days after we receive the sworn
proof of loss and reach written agreement
with you;
(2) Within 30 days after we receive the sworn
proof of loss and:
(a) There is an entry of a final judgment;
or
(b) There is a filing of an appraisal award
with us; or
(3) Within 90 days of receiving notice of an
initial, reopened or supplemental claim,
unless we deny the claim during that time
or factors beyond our control reasonably
prevent such payment. If a portion of the
claim is denied, then the 90-day time period
for payment of claim relates to the portion
of the claim that is not denied.
Paragraph (3) applies only to the following:
(a) A claim under a policy covering residential property;
(b) A claim for building or contents coverage
if the insured structure is 10,000 square
feet or less and the policy covers only
locations in Florida; or
(c) A claim for contents coverage under a
tenant’s policy if the rented premises
are 10,000 square feet or less and the
policy covers only locations in Florida.
E. Sinkhole Collapse Coverage Removed
Sinkhole Collapse coverage is removed, as indicated in Paragraphs E.1. through E.4.; and coverage for

App.181a
Catastrophic Ground Cover Collapse is added instead
as set forth in Paragraph F.
1.

In the Causes Of Loss—Basic Form and in the
Standard Property Policy, Sinkhole Collapse
is deleted from the Covered Causes of Loss
and sinkhole collapse is no longer an exception to the Earth Movement Exclusion.

2.

In the Causes Of Loss—Broad Form, Sinkhole
Collapse is deleted from the Covered Causes
of Loss and from the Additional Coverage—
Collapse; and sinkhole collapse is no longer an
exception to the Earth Movement Exclusion.

3.

In the Causes Of Loss—Special Form, Sinkhole Collapse is deleted from the “specified
causes of loss” and is no longer an exception
to the Earth Movement Exclusion.

4.

In the Mortgageholders Errors And Omissions
Coverage Form, Sinkhole Collapse is deleted
from the Covered Causes of Loss under Coverage B and from the ‘‘specified causes of
loss”, and is no longer an exception to the
Earth Movement Exclusion.

Further, this Coverage Part does not insure
against Sinkhole Loss as defined in Florida law
unless an endorsement for Sinkhole Loss is made
part of this policy. However, if Sinkhole Loss causes
Catastrophic Ground Cover Collapse, coverage is
provided for the resulting Catastrophic Ground Cover
Collapse even if an endorsement for Sinkhole Loss is
not made part of this policy.
F. The following is added to this Coverage Part
as a Covered Cause of Loss. In the Causes Of Loss-

App.182a
Special Form and Mortgageholders Errors And Omissions Coverage Form, the following is also added as a
“specified cause of loss”. However, as a ‘‘specified cause
of loss”, the following does not apply to the Additional
Coverage—Collapse.
Catastrophic Ground Cover Collapse
We will pay for direct physical loss or damage to
Covered Property caused by or resulting from catastrophic ground cover collapse, meaning geological
activity that results in all of the following:
1.

The abrupt collapse of the ground cover;

2.

A depression in the ground cover clearly
visible to the naked eye;

3.

“Structural damage” to the building, including
the foundation; and

4.

The insured structure being condemned and
ordered to be vacated by the governmental
agency authorized by law to issue such an
order for that structure.

However, damage consisting merely of the settling
or cracking of a foundation, structure or building
does not constitute loss or damage resulting from a
catastrophic ground cover collapse.
The Earth Movement Exclusion and the Collapse
Exclusion do not apply to coverage for Catastrophic
Ground Cover Collapse.
Coverage for Catastrophic Ground Cover Collapse
does not increase the applicable Limit of Insurance.
Regardless of whether loss or damage attributable to
catastrophic ground cover collapse also qualifies as
Sinkhole Loss or Earthquake (if either or both of

App.183a
those causes of loss are covered under this Coverage
Part), only one Limit of Insurance will apply to such
loss or damage.
G. The following applies to the Additional Coverage—Civil Authority under the Business Income (And
Extra Expense) Coverage Form, Business Income
(Without Extra Expense) Coverage Form and Extra
Expense Coverage Form:
1.

The Additional Coverage—Civil Authority
includes a requirement that the described
premises are not more than one mile from
the damaged property. With respect to
described premises located in Florida, such
one-mile radius does not apply.

2.

The Additional Coverage—Civil Authority is
limited to a coverage period of up to four
weeks. With respect to described premises
located in Florida, such four-week period is
replaced by a three-week period.

3.

Civil Authority coverage is subject to all other
provisions of that Additional Coverage.

H. The following provisions are added to the
Duties In The Event Of Loss Or Damage Loss
Condition:
(1) A claim, supplemental claim or reopened
claim for loss or damage caused by hurricane
or other windstorm is barred unless notice
of claim is given to us in accordance with
the terms of this policy within three years
after the hurricane first made landfall or a
windstorm other than hurricane caused the
covered damage. (Supplemental claim or

App.184a
reopened claim means an additional claim
for recovery from us for losses from the
same hurricane or other windstorm which
we have previously adjusted pursuant to
the initial claim.)
This provision concerning time for submission
of claim, supplemental claim or reopened
claim does not affect any limitation for legal
action against us as provided in this policy
under the Legal Action Against Us Condition,
including any amendment to that condition.
(2) Any inspection or survey by us, or on our
behalf, of property that is the subject of a
claim, will be conducted with at least 48
hours’ notice to you. The 48-hour notice may
be waived by you.
I. The following definition of structural damage
is added with respect to the coverage provided under
this endorsement:
“Structural damage” means a covered building,
regardless of the date of its construction, has
experienced the following.
1.

Interior floor displacement or deflection in
excess of acceptable variances as defined in
ACI 117-90 or the Florida Building Code,
which results in settlement related damage
to the interior such that the interior building
structure or members become unfit for
service or represent a safety hazard as
defined within the Florida Building Code;

2.

Foundation displacement or deflection in
excess of acceptable variances as defined in

App.185a
ACI 318-95 or the Florida Building Code,
which results in settlement related damage
to the primary structural members or primary
structural systems that prevents those members or systems from supporting the loads
and forces they were designed to support to
the extent that stresses in those primary
structural members or primary structural
systems exceed one and one-third the nominal
strength allowed under the Florida Building
Code for new buildings of similar structure,
purpose, or location;
3.

Damage that results in listing, leaning, or
buckling of the exterior load bearing walls
or other vertical primary structural members
to such an extent that a plumb line passing
through the center of gravity does not fall
inside the middle one-third of the base as
defined within the Florida Building Code;

4.

Damage that results in the building, or any
portion of the building containing primary
structural members or primary structural
systems, being significantly likely to imminently collapse because of the movement or
instability of the ground within the influence
zone of the supporting ground within the
sheer plane necessary for the purpose of
supporting such building as defined within
the Florida Building Code; or

5.

Damage occurring on or after October 15,
2005, that qualifies as substantial structural
damage as defined in the Florida Building
Code.

App.186a
COMMERCIAL GENERAL LIABIALITY
COVERAGE PART SUPPLEMENTAL
DECLARATIONS
SPARTA INSURANCE COMPANY
[Policy Number 053CP00228]
________________________
Named Insured: Mama Jo’s Inc. DBA: Berries
Effective Date: 09-19-13
12:01 A.M, Standard Time
Agent Name: PROHOST USA, INC.
Agent No.: 00029
Item 1. Business Description: Restaurant
ltem2. Limits of Insurance
Coverage

Aggregate Limits of Liability

Limit of Liability
$ 2,000,000
$ 2,000,000
Coverage A

Products/ Completed Operations
Aggregate
General Aggregate (other than
Products/Completed
Operations)
Bodily Injury and Property
Damage Liability

Limit of Liability
$ 1,000,000

any one occurrence subject to the
Products/Completed Operations
and General Aggregate Units of
Liability

App.187a
Coverage A

Damage To Premises Rented To
You

Limit of Liability
$ 1,000,000

any one premises subject to the
Coverage A occurrence and the
General Aggregate Limits of
Liability

Coverage B

Personal and Advertising Injury
Liability

Limit of Liability
$ 1,000,000

any one person or organization
subject to the General Aggregate
Units of Liability

Coverage C

Medical Payments

Limit of Liability
NOT COVERED

any one person subject to the
Coverage A occurrence and the
General Aggregate Limits of
Liability

Item 3. Retroactive Date
This Insurance does not apply to “bodily injury”,
“property damage” or "personal and advertising
injury” which occurs before the Retroactive Date, if
any, shown here:
(Enter Date or “None” if no Retroactive Date applies)

App.188a
Item 4. Form of Business and Location of Premises
Forms of Business: Corporation
Location of All Premises You Own, Rent or Occupy:

See Schedule of Locations
Item 5. Forms and Endorsements
Form(s) and Endorsement(s) made a part of this
policy at time of issue:

See Schedule of Forms and Endorsements
Item 6. Premiums
Coverage Part Premium: $12,878.00
Other Premium:
Total Premium: $12,878.00

App.189a
COMMERCIAL GENERAL LIABIALITY
COVERAGE SCHEDULE
SPARTA INSURANCE COMPANY
[Policy Number 053CP00228]
________________________
Named Insured: Mama Jo’s Inc. DBA: Berries
Effective Date: 09-19-13
12:01 A.M, Standard Time
Agent Name: PROHOST USA, INC.
Agent No.: 00029
Item 5. Location of Premises
Location of All Premises You Own, Rent or
Occupy:
See Schedule of Location
Code No: 16910

Premium Basis
Gross Sales/Nearest Thousand

Location: 001/001

Exposure: $4,000,000

Classification:
Restaurants-With Sale of Alcoholic Beverages
That Are Less Than 30% of the Annual Receipts of
the Restaurants With Table Service
Premises/ Operations

Rate

Premium

2.558

10,232.00

App.190a

Premises/Completed
Operations

Code No: 58161

Rate

Premium

.268

1,072.00

Premium Basis
Gross Sales/Nearest Thousand

Location: 001/001

Exposure: $6,000,000

Classification:
Restaurants, Taverns, Hotels, Motels, Including
Package Sales
Premises/ Operations
Premises/Completed
Operations

Code No: 16910

Rate

Premium

2.206

1,324.00

Rate

Premium
INCL

Premium Basis

Location:

Exposure:

Classification:
Amended Additional Insured
Premises/ Operations
Premises/Completed
Operations

Rate

Premium
250.00

Rate

Premium

App.191a
LIQUOR LIABILITY COVERAGE PART
DECLARATIONS
SPARTA INSURANCE COMPANY
[Policy Number 053CP00228]
________________________
Named Insured: Mama Jo’s Inc. DBA: Berries
Effective Date: 09-19-13
12:01 A.M, Standard Time
Agent Name: PROHOST USA, INC.
Agent No.: 00029
Item 1. Limits of Insurance
Aggregate Limit
$2,000,000
Each Common Cause Limit/Loss Of Means Of
Support Or Loss Of Society Limit
$1,000,000
Item 2. Retroactive Date (CG 00 34 only)
Section I of this insurance does not apply to
“bodily injury”, “property damage” or “personal and
advertising injury” which occurs before the
Retroactive Date, if any shown here:
(Enter Date or “None” if no Retroactive Date applies)
Item 3. Business Description and Location Premises
Forms of Business: Corporation
Business Description: Restaurant

App.192a
Location of All Premises You Own, Rent or Occupy:
See Schedule of Locations
Item 4. Premium
Code No:
Premium Basis
Location:
Classification:
See Commercial
Schedule

Exposure:
General

Liability

Coverage

Premises/ Operations

Rate

Premium

Premises/Completed
Operations

Rate

Premium

Item 5. Schedule of Forms and Endorsements
Form(s) and Endorsement(s) made a part of this
Policy at time of issue:
See Schedule of Forms and Endorsements

App.193a
TOTAL POLLUTION EXCLUSION
ENDORSEMENT
COMMERCIAL GENERAL LIABILITY
CG 21 49 07 99
This endorsement modifies insurance provided
under the following:
Commercial General Liability Coverage Part
Exclusion f. under Paragraph 2., Exclusions of
Section I-Coverage A-Bodily Injury and Property
Damage Liability is replaced by the following:
This insurance does not apply to:
(f) Pollution
(1) “Bodily injury” or “properly damage” which
would not have occurred in whole or part hut for the
actual, alleged or threatened discharge, dispersal,
seepage, migration, release or escape of “pollutants”
at any time.
(2) Any loss, cost or expense arising out of any:
(a) Request, demand, order or statutory or
regulatory requirement that any insured or
others test for, monitor, clean up, remove,
contain, treat, detoxify or neutralize, or in
any way respond to, or assess the effects of
“pollutants”; or
(b) Claim or suit by or on behalf of a governmental authority for damages because of
testing for, monitoring, cleaning up removing,
containing, treating, detoxifying or neutralizing, or in any way responding to, or assessing
the effects of, “pollutants”.

App.194a
FUNGI OR BACTERIA EXCLUSION
COMMERCIAL GENERAL LIABILITY
CG 21 67 12 04
This endorsement modifies insurance provided
under the following:
A. The following exclusion is added to Paragraph
2. Exclusions of Section I—Coverage A—Bodily
Injury and Property Damage Liability:
2. Exclusions
This insurance does not apply to:
Fungi or Bacteria
a.

“Bodily injury” or “property damage” which
would not have occurred, in whole or in
part, but for the actual, alleged or threatened inhalation of, ingestion of, contact
with, exposure to, existence of, or presence
of, any “fungi” or bacteria on or within a
building or structure, including its contents,
regardless of whether any other cause, event,
material or product contributed concurrently
or in any sequence to such injury or damage.

b.

Any loss, cost or expenses arising out of the
abating, testing for, monitoring, cleaning
up, removing, containing, treating, detoxifying, neutralizing, remediating or disposing
of, or in any way responding to, or assessing
the effects of, ‘fungi” or bacteria, by any
insured or by any other person or entity.

App.195a
This exclusion does not apply to any “fungi” or
bacteria that are, are on, or are contained in, a good
or product intended for bodily consumption.
B. The following exclusion is added to Paragraph
2. Exclusions of Section I—Coverage B—Personal
and Advertising Injury Liability:
2. Exclusions
This insurance does not apply to:
Fungi or Bacteria
a.

‘Personal and advertising injury” which
would not have taken place, in whole or in
part, but for the actual, alleged or threatened
inhalation of, ingestion of, contact with,
exposure to, existence of, or presence of any
“fungi” or bacteria on or within a building or
structure, including its contents, regardless
of whether any other cause, event, material
or product contributed concurrently or in
any sequence to such injury.

b.

Any loss, cost or expense arising out of the
abating, testing for, monitoring, cleaning
up, removing, containing, treating, detoxifying, neutralizing, remediating or disposing
of, or in any way responding to, or assessing
the effects of, “fungi” or bacteria, by any
insured or by any other person or entity.

C. The following definition is added to the
Definitions Section:
“Fungi” means any type or form of fungus,
including mold or mildew and any mycotoxins,

App.196a
spores, scents or by products produced or
released by fungi.

App.197a
SILICA OR SILICA-RELATED DUST EXCLUSION
COMMERCIAL GENERAL LIABILITY
CG 21 96 03 05
This endorsement modifies insurance provided
under the following:
Commercial General Liability Coverage Part
A. The following exclusion is added to Paragraph
2., Exclusions of Section I—Coverage A—Bodily
Injury And Property Damage Liability:
2. Exclusions
This insurance does not apply to:
Silica Or Silica-Related Dust
a.

“Bodily injury” arising, in whole or in part,
out of the actual, alleged, threatened or
suspected inhalation of, or ingestion of,
“silica” or ‘silica-related dust”.

b.

“Property damage” arising, in whole or in
part, out of the actual, alleged, threatened
or suspected contact with, exposure to,
existence of, or presence of, “silica” or
“silica-related dust”.

c.

Any loss, cost or expense arising, in whole
or in part, out of the abating, testing for,
monitoring, cleaning up, removing, containing, treating, detoxifying, neutralizing,
remediating or disposing of, or in any way
responding to or assessing the effects of,
“silica” or “silica-related dust”, by any
insured or by any other person or entity.

App.198a
B. The following exclusion is added to Paragraph
2., Exclusions of Section I—Coverage B—Personal
And Advertising Injury Liability:
2. Exclusions
This insurance does not apply to:
Silica Or Silica-Related Dust
a.

“Personal and advertising injury” arising, in
whole or in part, out of the actual, alleged,
threatened or suspected inhalation of,
ingestion of, contact with, exposure to,
existence of, or presence of, “silica” or
“silica-related dust”.

b.

Any loss, cost or expense arising, in whole
or in part, out of the abating, testing for,
monitoring, cleaning up, removing, containing, treating, detoxifying, neutralizing,
remediating or disposing of, or in any way
responding to or assessing the effects of,
“silica” or “silica-related dust”, by any
insured or by any other person or entity.

C. The following definitions are added to the
Definitions Section:
a.

“Silica” means silicon dioxide (occurring in
crystalline, amorphous and impure forms),
silica particles, silica dust or silica compounds.

b.

“Silica-related dust” means a mixture or
combination of silica and other dust or
particles.

App.199a
EXCLUSION–ASBESTOS
ADVISORY NOTICE TO POLICYHOLDERS
COMMERCIAL GENERAL LIABILITY
GL P 001 07 08
This Notice does NOT form a part of your
insurance contract. The Notice is designed to alert
you to coverage changes when the exclusion for
asbestos is attached to this policy. If there is any
conflict between this Notice and the policy (including
its endorsements), the provisions of the policy
(including its endorsements) apply. Please read your
policy, and the endorsements attached to your policy,
carefully.
This Notice contains a brief synopsis of the
following endorsement:
 GL 45 01 02 08—Asbestos Exclusion
Wien the above referenced endorsement is
attached to your policy, coverage is excluded for
bodily injury under Coverage A arising in whole or in
part, out of the actual, alleged, threatened or
suspected inhalation of, or ingestion of, asbestos. In
addition, coverage is excluded for property damage
under Coverage A and personal and advertising
injury under Coverage B arising in whole or in part,
out of actual, alleged, threatened or suspected
contact with, exposure to, existence of, or presence of,
asbestos.
The attachment of this endorsement may result
in a restriction of coverage.

App.200a
EXCLUSION–LEAD
ADVISORY NOTICE TO POLICYHOLDERS
COMMERCIAL GENERAL LIABILITY
GL P 002 07 08
This Notice does NOT form a part of your
insurance contract. The Notice is designed to alert
you to coverage changes when the exclusion for lead
is attached to this policy. If there is any conflict
between this Notice and the policy (including its
endorsements), the provisions of the policy (including
its endorsements) apply. Please read your policy, and
the endorsements attached to your policy, carefully.
This Notice contains a brief synopsis of the
following endorsement’
 GL 45 02 02 08—Lead Exclusion
When the above referenced endorsement is
attached to your policy, coverage is excluded for
bodily injury under Coverage A arising in whole or in
part, out of the actual, alleged, threatened or
suspected inhalation of, or ingestion of, lead. In
addition, coverage is excluded for property damage
under Coverage A and personal and advertising
injury under Coverage B arising in whole or in part,
out of actual, alleged, threatened or suspected
contact with, exposure to, existence of, or presence of
lead.
The attachment of this endorsement may result
in a restriction of coverage.

App.201a
FLORIDA CHANGES–
CANCELLATION AND NONRENEWAL
COMMERCIAL GENERAL LIABILITY
CG 02 20 03 12
This endorsement modifies insurance provided
under the following:
COMMERCIAL GENERAL
LIABILITY COVERAGE PART
ELECTRONIC DATA LIABILITY COVERAGE PART
LIQUOR LIABILITY COVERAGE PART
POLLUTION LIABILITY COVERAGE PART
PRODUCT WITHDRAWAL COVERAGE PART
PRODUCTS/COMPLETED OPERATIONS
LIABILITY COVERAGE PART
A. Paragraph 2. of the Cancellation Common
Policy Condition is replaced by the following:
2. Cancellation of Policies in Effect
a. For 90 Days or Less
If this policy has been in effect for 90 days
or less, we may cancel this policy by mailing
or delivering to the first Named Insured
written notice of cancellation, accompanied
by the reasons for cancellation, at least:
(1) 10 days before the effective date of
cancellation if we cancel for nonpayment of premium; or
(2) 20 days before the effective date of
cancellation if we cancel for any other
reason, except we may cancel immediately if there has been:

App.202a
(a) A material misstatement or misrepresentation; or
(b) A failure to comply with the
underwriting requirements established
by the insurer.
b. For More Than 90 Days
If this policy has been in effect for more
than 90 days, we may cancel this policy only
for one or more of the following reasons:
(1) Non-payment of premium;
(2) The policy was obtained by a material
misstatement;
(3) Failure to comply with underwriting
requirements established by the
insurer within 90 days of the effective
date of coverage;
(4) A substantial change in the risk
covered by the policy; or
(5) The cancellation is for all insureds
under such policies for a given class of
insureds.
If we cancel this policy for any of these reasons,
we will mail or deliver to the first Named Insured
written notice of cancellation, accompanied by the
reasons for cancellation, at least:
(a) 10 days before the effective date of
cancellation if we cancel for non-payment of
premium; or

App.203a
(b) 45 days before the effective date of
cancellation if we cancel for any of the other
reasons stated in Paragraph 2.b.
B. Paragraph 3. of the Cancellation Common
Policy Condition is replaced by the following:
3.

We will mail or deliver our notice to the
first Named Insured at the last mailing
address known to us.

C. Paragraph 5. of the Cancellation Common
Policy Condition is replaced by the following:
5.

If this policy is cancelled, we will send the
first Named Insured any premium refund
due. If we cancel, the refund will be pro
rata. If the first Named Insured cancels, the
refund may be less than pro rata. If the
return premium is not refunded with the
notice of cancellation or when this policy is
returned to us, we will mail the refund
within 15 working days after the date
cancellation takes effect, unless this is an
audit policy.
If this is an audit policy, then, subject to
your full cooperation with us or our agent in
securing the necessary data for audit, we
will return any premium refund due within
90 days of the date cancellation lakes effect.
If our audit is not completed within this
time limitation, then we shall accept your
own audit, and any premium refund due
shall be mailed within 10 working days of
receipt of your audit.

App.204a
The cancellation will be effective even if we
have not made or offered a refund.
D. The following is added and supersedes any
other provision to the contrary:
Nonrenewal
(1) If we decide not to renew this policy, we will
mail or deliver to the first Named Insured
written notice of nonrenewal, accompanied
by the reason for nonrenewal, at least 45
days prior to the expiration of this policy.
(2) Any notice of nonrenewal will be mailed or
delivered to the first Named Insured at the
last mailing address known to us. If notice
is mailed, proof of mailing will be sufficient
proof of notice.

App.205a
PRODUCTS/COMPLETED
OPERATIONS HAZARD REDEFINED
COMMERCIAL GENERAL LIABILITY
CG 24 07 01 96
POLICY NUMBER: 053CP00228
This endorsement modifies insurance provided
under the following:
COMMERCIAL GENERAL
LIABILITY COVERAGE PART
PRODUCTS/COMPLETED OPERATIONS
LIABILITY COVERAGE PART
SCHEDULE
Description of Premises and Operations:
(If no entry appears above, information required to
complete this endorsement will he shown in the
Declarations as applicable to this endorsement.)
With respect to “bodily injury” or “property damage” arising out of “your products” manufactured,
sold, handled or distributed:
1.

On, from or in connection with the use of
any premises described in the Schedule, or

2.

In connection with the conduct of any
operation described in the Schedule, when
conducted by you or on your behalf,

Paragraph a. of the definition of “Productscompleted operations hazard” in the DEFINITIONS
Section is replaced by the following:
“Products-completed operations hazard”:

App.206a
a.

Includes all “bodily injury” and “property
damage” that arises out of “your products” if
the “bodily injury’ or “property damage”
occurs after you have relinquished possession of those products.

App.207a
ASBESTOS EXCLUSION
COMMERCIAL GENERAL LIABILITY
GL 45 01 02 08
This endorsement modifies insurance provided
under the following:
COMMERCIAL GENERAL
LIABILITY COVERAGE FORM
OWNERS AND CONTRACTORS PROTECTIVE
LIABILITY COVERAGE FORM
PRODUCTS/COMPLETED OPERATIONS
LIABILITY COVERAGE FORM
A. The following exclusion is added to Paragraph
2., Exclusions of both Section I—Coverage A—Bodily
Injury And Property Damage Liability and Coverage
B—Personal And Advertising Injury Liability:
2. Exclusions
This insurance does not apply to:
Asbestos
1.

“Bodily injury”, “property damage” or “personal and advertising injury” related to the
actual, alleged, or threatened presence of, or
exposure to “asbestos” in any form, or to harmful substances emanating from “asbestos”.
This includes ingestion, inhalation, absorption, contact with, existence or presence of,
or exposure to “asbestos”. Such injury from
or exposure to ‘asbestos” also includes, but
is not limited to:
a.

The existence, installation, storage, handling or transportation of “asbestos”;

App.208a
b.

The removal, abatement or containment
of “asbestos” from any structures, materials, goods, products, or manufacturing
process;

c.

The disposal of “asbestos”;

d.

Any structures, manufacturing processes, or products containing “asbestos”;

e.

Any obligation to share damages with
or repay someone else who must pay
damages because of such injury or
damage; or

f.

Any supervision, instructions, recommendations, warnings or advice given
or which should have been given in
connection with the above.

2. Any loss, cost or expense, including, but not
limited to payment for investigation or defense, fines,
penalties and other costs or expenses, arising out of
any:
a.

Claim, “suit”, demand, judgment, obligation, order, request, settlement, or statutory
or regulatory requirement that any insured
or any other person or entity test for,
monitor, clean up, remove, contain, mitigate,
treat, neutralize, remediate, or dispose of,
or in any way respond to, or assess the
actual or alleged effects of ‘asbestos”; or

b.

Claim, “suit”, demand, judgment, obligation,
request, or settlement due to any actual,
alleged, or threatened injury or damage from
“asbestos” or testing for, monitoring, cleaning
up, removing, containing, mitigating, treat-

App.209a
ing, neutralizing, remediating, or disposing
of, or in any way responding to or assessing
the actual or alleged effects of, ‘asbestos” by
any insured or by any other person or entity;
Or
C.

Claim, “suit”, demand, judgment, obligation, or request to investigate which would
not have occurred, in whole or in part, but
for the actual or alleged presence of or
exposure to ‘asbestos”.

This exclusion applies regardless of who manufactured, produced, installed, used, owned, sold,
distributed, handled, stored or controlled the
“asbestos”.
B. The following definition is added to the
Section V Definitions:
“Asbestos” means any type or form of asbestos,
asbestos fibers, asbestos dust, asbestos products, or
asbestos materials, including any products, goods, or
materials containing asbestos or asbestos fibers,
products or materials and any gases, vapors, scents
or by-products produced or released by asbestos, or
buildings, structures, or other real or personal
property.

App.210a
LEAD EXCLUSION
COMMERCIAL GENERAL LIABILITY
GL 45 02 02 08
This endorsement modifies insurance provided
under the following:
COMMERCIAL GENERAL
LIABILITY COVERAGE PART
OWNERS AND CONTRACTORS PROTECTIVE
LIABILITY COVERAGE FORM
PRODUCTS/COMPLETED OPERATIONS
LIABILITY COVERAGE FORM
A. The following exclusion is added to Paragraph
2., Exclusions of both Section I —Coverage A—Bodily
Injury and Property Damage Liability and Coverage
B —Personal and Advertising Injury Liability:
2. Exclusions
This insurance does not apply to:
Lead
1.

“Bodily injury”, “property damage” or “personal and advertising injury” or related to
the actual, alleged, or threatened presence
of, or exposure to lead in any form. This
includes ingestion, inhalation, absorption,
contact with, existence or presence of, or
exposure to lead, paint containing lead, or
any other material or substance containing
lead; also includes, but is not limited to:
(a) The existence, installation, storage, handling or transportation of lead;

App.211a
(b) The removal, abatement or containment
of lead from any structures, materials,
goods, products, or manufacturing
process;
(c) The disposal of lead;
(d) Any structures, manufacturing processes, or products containing lead;
(e) Any obligation to share damages with
or repay someone else who must pay
damages because of such injury or
damage; or
(f)

Any supervision, instructions, recommendations, warnings or advice given or which
should have been given in connection
with the above.

2. Any loss, cost or expense, including, but not
limited to payment for investigation or defense, fines,
penalties and other costs or expenses, arising out of
any:
a.

Claim, “suit”, demand, judgment, obligation, order, request, settlement, or statutory
or regulatory requirement that any insured
or any other person or entity test for,
monitor, clean up, remove, contain, mitigate,
treat, neutralize, remediate, or dispose of,
or in any way respond to, or assess the
actual or alleged effects of lead paint
containing lead, or any other material or
substance containing lead; or

b.

Claim, “suit”, demand, judgment, obligation,
request, or settlement due to any actual,
alleged, or threatened injury or damage

App.212a
from lead, paint containing lead, or any
other material or substance containing lead;
or testing for, monitoring, cleaning up,
removing, containing, mitigating, treating,
neutralizing, remediating, or disposing of,
or in any way responding to or assessing
the actual or alleged effects of, lead, paint
containing lead, or any other material or
substance containing lead; by any insured
or by any other person or entity; or
c.

Claim, “suit”, demand, judgment, obligation, or request to investigate which would
not have occurred, in whole or in part, but
for the actual or alleged presence of or
exposure to lead, paint containing lead, or
any other material or substance containing
lead.

This exclusion applies regardless of who manufactured, produced, installed, used, owned, sold,
distributed, handled, stored or controlled the lead,
paint containing lead, or any other material or
substance containing lead.

